<html>
<title> - TERRORISM THROUGH THE MAIL: PROTECTING POSTAL WORKERS AND THE PUBLIC</title>
<body><pre>[Senate Hearing 107-214]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-214
 
  TERRORISM THROUGH THE MAIL: PROTECTING POSTAL WORKERS AND THE PUBLIC
=======================================================================



                             JOINT HEARINGS

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                                and the

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                        OCTOBER 30 AND 31, 2001
                               __________

      Printed for the use of the Committee on Governmental Affairs





                        U.S. GOVERNMENT PRINTING OFFICE
76-808                          WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001









                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Susan E. Propper, Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
           William M. Outhier, Minority Investigative Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

   SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL 
                                SERVICES

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                   Richard J. Kessler, Staff Director
                Nanci E. Langley, Deputy Staff Director
               Mitchel B. Kugler, Minority Staff Director
           Ann C. Fisher, Minority Professional Staff Member,
                      Brian D. Rubens, Chief Clerk













                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................ 1, 63
    Senator Thompson............................................. 4, 64
    Senator Akaka................................................ 6, 66
    Senator Cochran..............................................     8
    Senator Carper.............................................  21, 97
    Senator Collins..............................................    23
    Senator Levin................................................    26
    Senator Bennett..............................................    29
    Senator Cleland............................................  30, 94
    Senator Voinovich..........................................  33, 91
    Senator Carnahan.............................................    36
    Senator Durbin...............................................    37
    Senator Dayton...............................................    72

Prepared statements submitted for October 30 hearing:
    Senator Durbin...............................................   121
    Senator Collins..............................................   122
Prepared statement submitted for October 31 hearing:
    Senator Bunning..............................................   122

                               WITNESSES
                       Tuesday, October 30, 2001

Hon. John E. Potter, Postmaster General/CEO, U.S. Postal Service, 
  accompanied by Thomas Day, Vice President of Engineering, U.S. 
  Postal Service; Patrick Donahoe, Chief Operating Officer and 
  Executive Vice President, U.S. Postal Service; and Ken Weaver, 
  Chief Postal Inspector, U.S. Postal Inspection Service.........     9
William Burrus, President-Elect, American Postal Workers Union, 
  AFL-CIO, accompanied by Denise Manley, Distribution Clerk, 
  Government Mail Section, Brentwood Mail Processing Facility....    43
Vincent R. Sombrotto, President, National Association of Letter 
  Carriers (NALC), accompanied by Tony DiStephano, Jr., 
  President, NALC Branch 380, Trenton, New Jersey................    46
William H. Quinn, National President, National Postal Mail 
  Handlers Union.................................................    49
Gus Baffa, President, National Rural Letter Carriers' Association 
  (NRLCA)........................................................    51

                      Wednesday, October 31, 2001

Hon. Paul D. Wellstone, a U.S. Senator from the State of 
  Minnesota......................................................    67
Hon. Hillary Rodham Clinton, a U.S. Senator from the State of New 
  York...........................................................    70
Mitchell L. Cohen, M.D., Director, Division of Bacterial and 
  Mycotic Diseases, National Center for Infectious Diseases, 
  Centers for Disease Control and Prevention (CDC), Department of 
  Health and Human Services......................................    73
Major General John S. Parker, Commanding General, U.S. Army 
  Medical Research and Materiel Command and Fort Detrick.........    74
Raymond J. Decker, Director, Defense Capabilities and Management, 
  U.S. General Accounting Office.................................    76
Ivan C.A. Walks, M.D., Chief Health Officer of the District of 
  Columbia and Director, District of Columbia Department of 
  Health (DOH), accompanied by Dr. Larry Siegel and Ted Gordon, 
  Senior Deputies, District of Columbia Department of Health 
  (DOH)..........................................................    78
Dan Hanfling, M.D., F.A.C.E.P., Chairman, Disaster Preparedness 
  Committee, Inova Fairfax Hospital..............................   101
Hon. Tara O'Toole, M.D., M.P.H., Director, Center for Civilian 
  Biodefense Studies, Johns Hopkins University...................   105

                     Alphabetical List of Witnesses

Baffa, Gus:
    Testimony....................................................    51
    Prepared statement...........................................   151
Burrus, William:
    Testimony....................................................    43
    Prepared statement...........................................   131
Clinton, Hon. Hillary Rodham:
    Testimony....................................................    70
Cohen, Mitchell L., M.D.:
    Testimony....................................................    73
    Prepared statement...........................................   160
Decker, Raymond J.:
    Testimony....................................................    76
    Prepared statement...........................................   178
Hanfling, Dan, M.D.:
    Testimony....................................................   101
    Prepared statement...........................................   209
O'Toole, Hon. Tara, M.D.:
    Testimony....................................................   105
    Prepared statement...........................................   214
Parker, Major General John S.:
    Testimony....................................................    74
    Prepared statement...........................................   174
Potter, Hon. John E.:
    Testimony....................................................     9
    Prepared statement...........................................   123
Quinn, William H.:
    Testimony....................................................    49
    Prepared statement...........................................   146
Sombrotto, Vincent R.:
    Testimony....................................................    46
    Prepared statement with an attachment........................   139
Walks, Ivan C.A., M.D.:
    Testimony....................................................    78
    Prepared statement...........................................   192
Wellstone, Hon. Paul D.:
    Testimony....................................................    67
    Prepared statement...........................................   157

                                Appendix

Article from the Washington Post, dated October 26, 2001, 
  entitled ``Two Men Who Were Just Doing Their Jobs--The Man Next 
  Door: Joseph Curseen, Jr. Pulled His Community Together,'' by 
  Phil McComb (submitted by Senator Akaka).......................   220
Article from the Washington Post, dated October 26, 2001, 
  entitled ``Two Men Were Just Doing Their Jobs--A Team Player: 
  Thomas Morris, Jr. Was a Model Worker and Avid Bowler,'' by 
  Lisa Allen-Agostini (submitted by Senator Akaka)...............   222
Article from the Washington Post, dated October 23, 2001, 
  entitled ``Anthrax Crisis Highlights the Quiet Heroics of 
  Postal Service,'' by Stephen Barr (submitted by Senator Akaka).   223
Charles Moser, President, National Association of Postmasters of 
  the United States, prepared statement..........................   224










  TERRORISM THROUGH THE MAIL: PROTECTING POSTAL WORKERS AND THE PUBLIC

                              ----------                              


                       TUESDAY, OCTOBER 30, 2001

                                     U.S. Senate,  
                     Committee on Governmental Affairs,    
          and the Subcommittee on International Security,  
                       Proliferation, and Federal Services,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, Levin, Cleland, Carper, 
Carnahan, Durbin, Thompson, Collins, Cochran, Bunning, Stevens, 
Bennett, and Voinovich.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. This 
morning, our Committee begins the first of two hearings on the 
question of ``Terrorism Through the Mail: Protecting Postal 
Workers and the Public.'' The full Committee is holding this 
hearing in conjunction with the Subcommittee on International 
Security, Proliferation, and Federal Services, chaired by 
Senator Daniel Akaka, and conducting the hearing pursuant to 
jurisdiction over the U.S. Postal Service, which the rules of 
the Senate give this Governmental Affairs Committee.
    Protecting the safety of the public and those working for 
the U.S. Postal System on what has become an unexpected front 
line of defense against terrorism is an urgent priority, so I 
would like to thank all of our witnesses this morning for 
rearranging their schedules to be at this hearing on short 
notice.
    On September 11, as we all know, terrorists wreaked sudden 
mass destruction upon the financial and military centers of the 
free world. Since then, a slower, more insidious attack has 
been launched against our Postal System and into government and 
media mail rooms in the form of anthrax contained within sealed 
letters and packages.
    This new terrorist attack has been difficult to detect and 
has emerged slowly over a period of weeks. So far, it has 
struck in Florida, New York, New Jersey, Virginia, and 12 
separate places here in Washington, catching authorities off-
guard and surprising even those who have been preparing for a 
bio-terrorist attack. Three people are dead, two of them Postal 
workers, and at least 10 others have been diagnosed with either 
cutaneous or inhalation anthrax. Thirty-two people have tested 
positive for exposure to anthrax and thousands are taking 
powerful antibiotics as a precaution.
    In all, Americans are asking themselves a very basic 
question: Is it safe to open the mail? This morning, our 
Committee wants to find out what the answer to that question is 
and also whether adequate steps were being taken to protect 
Postal workers, and for that matter, anyone who opens their 
mail, once it was known that the mails were being used to 
further terrorize the American people. We want to take stock of 
what we have learned from this experience and assess what needs 
to be done to properly protect those who work for the Postal 
Service and those who depend on its services.
    The transmission of anthrax through the mail was first 
confirmed on Friday, October 12, when an NBC employee was 
diagnosed with cutaneous anthrax after opening a letter 
addressed to Tom Brokaw. Federal officials and the Postal 
Service apparently thought the risk of inhalation anthrax was 
negligible and two mail workers now being treated in Virginia 
and New Jersey were diagnosed with it over a week later.
    The disease transmission model everyone expected was 
through the skin, as had been the case with the NBC employee, 
and apparently no one anticipated that anthrax spores would 
leak out of mail envelopes in sufficient quantity to cause 
infection. So gloves and masks were not required, and, in fact, 
as I understand it and will ask today, are still not required 
for Postal employees.
    The question many are asking, and admittedly, this is with 
20/20 hindsight, is should someone have recognized what now 
seems like an obvious concern, not only about those receiving 
envelopes with anthrax but about the safety of the men and 
women who work in the mail system that delivered them?
    In Washington, the Postal Service began environmental 
testing for anthrax at its main facility at Brentwood on 
Thursday, October 18, 3 days after the letter sent to Majority 
Leader Daschle was opened in the Hart Building, exposing 28 
people. At the time, Postmaster General Potter said he was 
advised that there was only a minute chance that anthrax spores 
escaped into the air at the Brentwood facility, but 2 days 
later, contamination at Brentwood was verified. The facility 
was closed down and the testing of the Brentwood workers began 
the next day. Thomas L. Morris, a worker at Brentwood, died 
that day, while Joseph P. Curseen, Jr., another Brentwood 
worker, was sent home from the hospital with a flu diagnosis 
and died the next day.
    So questions are naturally being asked. Should not health 
workers have been on the lookout and more sensitive to possible 
anthrax infection? Should environmental and worker testing have 
begun sooner than it did? Did the Centers for Disease Control 
and the Postal Service take too passive an approach at first to 
protecting workers at the post offices and the public?
    These are important questions which the Committee will ask 
today on behalf of the American people and Postal workers. But 
I want to assure you that we ask them in a spirit of analysis, 
not accusation, a spirit of urgent analysis which is aimed at 
finding out in the midst of this unprecedented and unexpected 
challenge how we can better deal with it.
    It is particularly important, I think, that we end what has 
been described as a multi-voiced disharmony from government 
officials about the anthrax scares. As this scare has developed 
and continued, it became clear to all of us, both observing and 
experiencing as members of the Capitol Hill family that were 
also targets of anthrax attack, how much the experts do not 
know. There is, in fact, as we have learned now, no relevant 
clinical experience, no standard survey methodology, no 
comparable operational history, and no understanding of the 
full magnitude of the biological threat being perpetrated.
    As the New York Times said on October 28, inhalation 
anthrax is a disease that almost no doctor in the United States 
has ever seen. We were originally told, publicly and here on 
the Hill, that it takes 8,000 to 10,000 inhaled anthrax spores 
to become infected, but I recently read a quote from the head 
of an infectious disease program at a major medical center in 
the United States that that estimate of 8,000 to 10,000 spores 
necessary for infection was a textbook answer based on clinical 
studies done decades ago of workers who handled animal hides.
    So we ask ourselves, why were we not told that from the 
outset? Did the experts who advised us and you, Mr. Postmaster 
General, know this and decide not to panic us, or did they not 
know it?
    I must say that in recent days, one of the most encouraging 
developments to me has been that Governor Ridge has now been 
designated as clearly the lead governmental spokesperson on 
such matters, and I hope and believe that he and others, having 
gone through the experience we have all gone through in recent 
weeks, he and others in positions of authority will tell the 
facts as they know them to the American people when they know 
them, and if they do not know the truth, then they will tell us 
that, as well. Otherwise, in this time of crisis, the Federal 
Government risks losing the credibility and trust that it has 
gained from the American people in these early stages of the 
war against terrorism.
    In recent days, I am pleased to note, the Postal Service 
and public health officials have taken increasingly 
comprehensive, coordinated, and aggressive actions. Mail 
destined for Washington from unknown shippers will be 
irradiated in Ohio until the Postal Service can install 
irradiation devices more broadly. The Postal Service is also in 
the process of revising mail collection procedures to minimize 
handling prior to irradiation. Over 6,000 DC area Postal 
employees have been given antibiotics, while an equivalent 
number in New York have been tested or are receiving treatment, 
although it seems that conflicting advice is being given as to 
the recommended length of treatment.
    The bottom line here is that the Postal Service we have 
come to appreciate again, as a result of this crisis, is at the 
heart of the Nation's critical infrastructure and is one of the 
foundations of our daily quality of life. In another sense, 
businesses and individuals that depend on the Postal Service 
comprise a significant portion of our gross domestic product. 
So this is simply too important to too many people to allow 
these problems or anxieties with the mail system to fester.
    We are in this together. Our unity in this crisis has been 
perhaps the greatest source of our strength. And on this 
Committee, we hope that we will move forward together to find a 
way to better protect America's Postal workers and the people 
of this country who depend on their work just about every day 
of our lives.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman. I want 
to commend you on that statement. I think it sets exactly the 
right tone. I want to thank the Postmaster General, the union 
representatives, and the Postal workers for coming here today. 
I know this is a difficult time for all of you as you have 
recently lost two of your colleagues and others remain ill.
    It is my hope that we can use this time to explore 
procedures, protocols, and technology which can be used to make 
our Postal facilities safe and secure for you and your 
coworkers and the entire system will thereby be safer for the 
public in general.
    This is not just a Postal Service problem. We are here 
today because terrorists decided that we would come here to 
discuss this subject with this agency today because they chose 
this one this time. But it is a government-wide problem and 
there is no doubt that we have been, as a government, behind 
the curve in preparing for potential biological attacks. For 
example, it is remarkable that we know so little about some of 
the properties of anthrax itself, how the powder reacts in an 
envelope, for example, and what works against it.
    For several years, many organizations, including the GAO, 
the Hart-Rudman Commission, the Gilmore Commission, and others 
have recommended comprehensive threat and risk assessments for 
chemical and biological weapons attacks on our soil. As far 
back as 1997, GAO recommended that these assessments be 
conducted so that Federal and State Governments could properly 
prepare for such attacks. I understand the FBI finally began 
work on a domestic threat assessment in July 1999 and it should 
be completed soon.
    Clearly, these assessments should have been completed 
earlier. I do believe that the completion of such threat 
assessments in the future will help us be better prepared when 
the next shoe falls. In all fairness, though, even the experts 
who thought about mass casualty attacks, as far as my staff 
have found, these experts never focused on the use of anthrax 
through the mails and the potential threat that posed, even 
though we must say that the threat certainly was not beyond 
comprehension because there have been a number of hoaxes over 
the years where powder has been sent through the mail with 
letters claiming that anthrax was enclosed. One such letter, I 
remember, was received in Knoxville, Tennessee, back in 1998.
    But whatever our level of preparedness has been in the 
past, it is clear now that we have to do more to protect our 
workers and the American public. Congressional staff was 
briefed last Friday on new technologies and machinery being 
considered by the Postal Service, including ways to make 
collection boxes safer, to keep air in our facilities cleaner, 
and even to kill potentially dangerous biological agents being 
sent through the mail.
    I am glad to see the Postal Service is moving forward with 
these new technologies, Mr. Potter. I am glad to see that you 
are working so well together that you have included the labor 
representatives and the employee representatives and that you 
are working together under extremely difficult circumstances to 
address these problems. I think it has implications, really, 
for all of us, all Americans.
    Some have begun to inject doubts into our war on terrorism, 
both at home and abroad. The dangers we face now have our full 
attention, and frankly, I think we are doing a pretty good job 
of responding to them. As the Chairman pointed out, so many of 
our public officials have to rely upon expertise, and the 
experts, frankly, are not used to being experts with the 
particular problem that we have got right now. So the phrase 
``steep learning curve'' is being uttered about a thousand 
times a day in this town and it is true.
    But in less than 2 months, we have set up an Office of 
Homeland Security and appointed a director. We have engaged the 
entire medical community, including the CDC and all other 
public health officials. We passed a terrorism bill, we will 
shortly have an airport security bill, and we managed to keep 
to our legislative agenda.
    We need to understand that in this process, there will be 
problems, but we also need to understand that we will overcome 
those problems. I suppose I have to take a backseat to nobody 
in criticizing the wastefulness and inefficiencies and 
duplication of the government, but there comes a time when we 
need to circle the wagons and there comes a time when we need 
to see the positive and good that we can accomplish when we 
bring the forces of our government to bear on a national 
security problem, and I think that is what we are seeing.
    I also believe that this is the one side of the two-sided 
war that we see, home and abroad, and I believe that the 
implications of how we are handling this here are relevant to 
the hot war, if you want to call it that, in Afghanistan. You 
see headlines in the last few days, for example, announcing 
that the war will go on longer than expected. I do not know who 
that was news to, but apparently it was to a lot of people in 
this town that it was going to be a long war, despite the fact 
that the President, the Secretary of Defense, and all other 
relevant officials have been telling us that for some time.
    Now we are beginning to see demands from our new allies 
that the war be shorter or that we avoid bombing during certain 
times. We are now beginning to see the inevitable military and 
civilian casualties that come with such an operation. And 
although some opinion makers have decided to make this the 
focus, I think that the American people understand that we are 
in for a long and deliberate process, both at home and abroad, 
and it is important in the meantime that we pull together and 
work together to address these unprecedented problems.
    There has never been any doubt about America's military 
strength, but there is substantial doubt around the world about 
our determination and our stamina, and we are beginning to see 
the inevitable reaction from lack of a quick and decisive 
resolution of the problems that we are having at home and 
abroad. But I see the spirit that we need to address both of 
these problems evident with regard to what you gentlemen are 
doing and the members of the labor community.
    I must say, Congress, as we are looking to assess some 
responsibility, is going to have to take another look at 
itself. According to Paul Light of The Brookings Institute, who 
is the head of the Presidential Appointee Initiative, there are 
164 positions involved in the fight against the war on 
terrorism, including homeland defense and bioterrorism. These 
include positions in the agencies such as Defense, Treasury, 
State, FEMA, and some of Transportation, and others.
    Today, 50 percent of the 164 are vacant or have people only 
on the job since August 1. Today, 37 percent of the 164 are 
vacant or have people only on the job since September 11. Of 
those with responsibility for biological threats, only 45 of 71 
positions have been filled in this administration. Now, some of 
these positions that remain unconfirmed include Assistant to 
the Secretary of Defense for Nuclear, Chemical, and Biological 
Defense Programs at Defense; Director of the Office of Civilian 
Radioactive Waste Management at Energy; also at Energy, 
Assistant Secretary of Energy for Environmental Safety and 
Health; also Special Representative for Nuclear Proliferation 
over at State; Assistant Secretary of State for Population, 
Refugees, and Migration at State; and two positions at FEMA, 
Deputy Director and Associate Director, Preparedness Training 
and Exercise Directorate.
    So it is important that the administration get these names 
up here and that Congress reacts to them promptly. It is a 
problem that we have seen government-wide, again, with regard 
to Presidential appointees and the longer that it is taking now 
for a new President to get his team together. I think President 
Clinton, it took 8 months. President Bush, it is going to take 
at least a year. He will have served 25 percent of his term 
without his team in place. Now, that may just be political fun 
and games until we get to the situation that we have here now, 
but we see it has national security implications and we all 
must do a better job.
    So thank you, Mr. Chairman and Senator Akaka, for holding 
these important hearings today and tomorrow. I believe much 
good will come from it. Thank you.
    Chairman Lieberman. Thank you, Senator Thompson, for your 
thoughtful statement.
    Senator Akaka is the Chair of the relevant Subcommittee and 
I would call on him now.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much. I am delighted and 
pleased to join Chairman Lieberman in today's joint hearing. 
The Subcommittee on International Security, Proliferation, and 
Federal Services, which I Chair, has been looking into the 
bioterrorism risk for some time now. In July, we held a hearing 
to review government efforts to prepare our communities to 
respond to acts of terrorism. Sadly, the bioterrorism risk has 
become a reality and three Americans have lost their lives in 
bioterrorism attacks on American soil.
    I want to thank the Postmaster General, the presidents and 
employees of the Postal employees' unions, and the Postal 
Service's officials for being with us this morning. In the 
interest of time, I will keep my remarks brief.
    The last line of defense in a homeland terrorist attack 
should not be the Congress, nor should the first line of 
defense be the men and women of the U.S. Postal Service. 
Sacrifices being made by our Nation's Postal employees demand 
our government's full support and available resources to ensure 
their safety.
    These dedicated people never expected to be on the front 
line of a war. They never expected their workplaces to become 
the front line in a biological weapons attack, and they never 
expected to lose members of the Postal family to terrorism.
    I know that every American is concerned about the safety of 
the mail and I hope our hearings will answer some of their 
questions. I also know that the safety of our Postal employees 
and the public cannot be compromised. I firmly believe that to 
better protect Americans and critical infrastructures like the 
U.S. Postal Service, there must be cooperation at all levels of 
government.
    Right now, we have a complex Federal interagency process 
that governs our preparedness and responses to terrorism. We 
cannot afford confusion or duplicity in program efforts. 
Rather, we must strengthen existing programs and add new ones 
where needed in order to prepare all communities, from the 
largest city to the smallest rural town, for biological 
incidents.
    Before I yield back my time, I wish to express my deepest 
sympathy to the families and friends of APWU members Joseph 
Curseen and Thomas Morris, who passed away last week. Like the 
police officers and fire fighters in New York and the military 
personnel and civilian employees at the Pentagon, these two 
public servants lost their lives in service to their country. I 
also extend my hopes for a speedy recovery to those Postal 
employees who are undergoing treatment for inhalation and 
cutaneous anthrax.
    I ask unanimous consent, Mr. Chairman, that my entire 
statement be included in the record as well as three articles 
from the Washington Post--two commemorating the lives of the 
fallen Postal employees, and one by Stephen Barr on our heroic 
Postal employees.\1\ I also ask that a written statement of the 
National Postmasters Association be included in the record. 
Thank you very much, Mr. Chairman.\2\
---------------------------------------------------------------------------
    \1\ Three articles from the Washington Post submitted for the 
record by Senator Akaka appear in the Appendix on pages 220-223.
    \2\ The prepared statement of Charles Moser, President, National 
Postmasters Association appears in the Appendix on page 224.
---------------------------------------------------------------------------
    Chairman Lieberman. Thanks, Senator Akaka. Without 
objection, we will include all those documents in the record.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA
    I am delighted to be here and pleased to join our Chairman at 
today's joint hearing. The Subcommittee on International Security, 
Proliferation, and Federal Services, which I chair, has been looking 
into the bioterrorism risk for some time now. In July, we held a 
hearing to review government efforts to prepare our communities to 
respond to acts of bioterrorism. Sadly the bioterrorism risk has become 
a reality and three Americans have lost their lives in bioterrorism 
attacks on American soil. As the Chairman mentioned, we held a joint 
hearing on bioterrorism preparedness only two days after the anthrax 
event in Senator Daschle's office.
    I want to thank the Postmaster General for being with us, as well 
as the presidents and employees of our postal employee unions. In the 
interest of time, I will keep my remarks brief.
    The last line of defense in a homeland terrorist attack should not 
be the Congress, nor should the first line of defense be the men and 
women of the U.S. Postal Service. The sacrifices being made by our 
nation's postal employees demand our government's full support and 
available resources to ensure their safety.
    These dedicated people never expected to be on the front line of a 
war. They never expected their workplaces to become the front line in a 
biological weapons attack. And they never expected to lose members of 
the postal family to terrorism.
    I know that every American is concerned about the safety of the 
mail, and I hope our hearings will answer some of their questions. I 
also know that the safety of our postal employees and the public cannot 
be compromised.
    I firmly believe that to better protect Americans and critical 
infrastructures like the U.S. Postal Service, there must be cooperation 
at all levels of government. Right now we have a complex federal 
interagency process that governs our preparedness and responses to 
bioterrorism. We cannot afford confusion or duplicity in program 
efforts. Rather we must strengthen existing programs, and add new ones 
where needed in order to prepare all communities--from the largest city 
to the smallest rural town--for biological incidents.
    Before I yield back my time, I wish to express my deepest 
sympathies to the families and friends of APWU members Joseph Curseen 
and Thomas Morris, Jr., who passed away last week. Like the police 
officers and firefighters in New York and the military personnel and 
civilian employees at the Pentagon, these two public servants lost 
their lives in service to their country. I also extend my hopes for a 
speedy recovery to those postal employees who are undergoing treatment 
for inhalation and cutaneous anthrax.
    I ask unanimous consent that my entire statement be included in the 
record as well as three articles from The Washington Post, two 
commemorating the lives of the fallen postal employees, and one by 
Stephen Barr on our heroic postal employees. Thank you, Mr. Chairman.

    Chairman Lieberman. Senator Thad Cochran of Mississippi is 
the Ranking Member of the Subcommittee and I would call on him 
now for an opening statement.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Thank you, Mr. Chairman. I think the tone 
set by Senator Thompson in his comments is the right one. I 
think we need to avoid creating a false sense of security, but 
we also need to avoid creating a state of panic about the 
threats that we face and the occurrences that we have all 
witnessed.
    In connection with the Postal workers and those who work 
for the U.S. Postal Service, I think we want to know from our 
witnesses today what we can do to help support you in your 
effort to deal with this crisis effectively and to make sure 
that the workplace for all of our Postal workers is safe, and 
that is my purpose in being here this morning.
    I wish you well. I commend you and all the Postal 
inspectors who are working around the clock to try to deal with 
this situation, and we wish you well and pledge to you our 
support in that effort.
    Chairman Lieberman. Thanks, Senator Cochran. I think you 
have set the right tone in your opening statement, as well.
    We are going to go now to the Postmaster General, John 
Potter, for his opening statement. Thank you very much for 
being here.

 TESTIMONY OF HON. JOHN E. POTTER,\1\ POSTMASTER GENERAL, U.S. 
 POSTAL SERVICE; ACCOMPANIED BY THOMAS DAY, VICE PRESIDENT OF 
   ENGINEERING, U.S. POSTAL SERVICE; PATRICK DONAHOE, CHIEF 
  OPERATING OFFICER AND EXECUTIVE VICE PRESIDENT, U.S. POSTAL 
 SERVICE; AND KEN WEAVER, CHIEF POSTAL INSPECTOR, U.S. POSTAL 
                       INSPECTION SERVICE

    Mr. Potter. Thank you. Good morning, Chairman Lieberman, 
Senator Thompson, and Members of the Committee. I have 
submitted a detailed written statement, which I would ask be 
entered into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Potter appears in the Appendix on 
page 123.
---------------------------------------------------------------------------
    Under normal circumstances, I would be here by myself. But 
with the situation changing daily, I have brought Patrick 
Donahoe, Chief Operating Officer, and Thomas Day, Vice 
President for Engineering, with me. They are part of the total 
team that is focusing on this crisis and they will be able to 
add value to our discussion.
    Mr. Chairman, this is a sad time for us in the Postal 
Service. We have lost two of our family, two of our fine 
employees, Joseph Curseen and Thomas Morris, to the anthrax 
attacks. Three others remain hospitalized and four have been 
sickened and are recovering. None of them thought when they 
came to work for the Post Office that they would be on the 
front line of a war, but they were, and thousands of employees 
are, as well. In fact, this is a war against all of our 
citizens.
    From the very outset, my overriding concern was for the 
safety of our employees and the public. We sought out the best 
information and the best experts to help us understand exactly 
what we were dealing with. Early on, when there was confusion 
about how and when anthrax got into American Media in Boca 
Raton, we saw no direct connection to the Postal Service and 
the system that delivers the mail. Nevertheless, on Tuesday, 
October 9, as a precaution, we provided supervisors and 
employees with updated information on what to do if they 
suspected biohazards in the mail.
    Then on Friday, October 12, the Postal landscape changed 
dramatically. An NBC News employee in New York City was 
diagnosed with cutaneous anthrax. It became clear that the 
bioagent had arrived through the mail. Looking back, it is hard 
to believe all that has transpired in the last 18 days. We took 
a proactive stance in terms of educating our employees and the 
public. I cautioned that employees, the public, companies, and 
organizations, that they needed to handle their mail carefully. 
If they found something out of the ordinary, they needed to 
respond appropriately to law enforcement authorities. Based on 
the information I had, I stressed that this was a time when 
common sense and caution was needed and that the incidence of 
anthrax-laden letters appeared to be very targeted and very few 
in number.
    On Monday, October 15, with Postal inspectors already 
working with the FBI, I asked Chief Inspector Weaver to put 
together a Washington-based task force that included our union 
and management association leaders. On a daily basis, we shared 
and discussed the latest information, what steps we should 
take, and what were the right things to do. We brought in 
advisors from the CDC and others to share information with the 
unions. Our labor leaders' comments were valuable and carried 
equal weight with everyone around the table, but the facts were 
sketchy. To that point, the only confirmed anthrax had been in 
Florida and NBC News in New York.
    On that day, Monday, October 15, employees in Senator 
Daschle's office opened a letter that had been laced with 
anthrax. Then, things began to accelerate almost by the hour. 
It was clear that the Daschle letter went through our Brentwood 
facility in Washington.
    On Wednesday, testing of 28 Capitol Hill employees came 
back positive. We were consulting and seeking the best experts 
we could find, but it was also clear that the mail and the 
Nation were facing a threat that it had never encountered 
before. We continued to operate under the theory that what had 
happened--that what had been sent was transiting our system in 
well-sealed envelopes.
    All along, the Postal Service operated on the principle of 
open disclosure. I knew that would be critical in protecting 
our employees and the public in developing solutions. Knowing 
that the Daschle letter came through our Brentwood facility, 
and after consulting with our unions, we decided to test the 
Brentwood facility as a precaution. The preliminary test on 
Thursday, October 18, came back negative. We felt good about 
that, although a secondary, more comprehensive laboratory 
examination would take another 48 hours. To that time, we had 
no indication that Brentwood was contaminated.
    Also on Thursday, October 18, we joined with the Justice 
Department to ask the American public for help by offering a $1 
million reward. It was on October 18 that one of our letter 
carriers in Trenton was diagnosed with cutaneous anthrax. The 
Trenton and West Trenton facilities were closed for testing and 
CDC and the FBI moved in. Yes, we had discussed with CDC 
whether or not our employees should be tested, but all 
indications and the best experts said, no need.
    Unfortunately, and how I and others wish we had known, it 
was Friday, October 19, when our first Washington employee 
would be hospitalized with flu-like symptoms. Two days later, 
on Sunday afternoon, October 21, we learned of the first case 
of an employee with inhalation anthrax. Brentwood was 
immediately closed. As a precaution, we also closed the 
Baltimore-Washington processing facility.
    We were operating in good faith, trying to make the right 
decisions based on the facts at hand and the advice we were 
receiving from the experts. In fact, out of those discussions, 
local health authorities began screening employees and 
providing them with antibiotics that weekend.
    By Monday, we were making every effort to track down all of 
our Brentwood employees, even those on vacation. Last week, I 
said this is not a time for finger pointing. I underscore that 
again. The mail and the Nation have never experienced anything 
like this.
    Where are we today? First of all, the situation remains 
fluid. Late yesterday afternoon, we learned that two additional 
facilities in Washington, DC, were contaminated, and we closed 
them pending remediation. In addition, trace amounts of anthrax 
have been found in our plant in West Palm Beach. That 
remediation is occurring right now. For 18 days, we have been 
working to enhance the safety of our employees and their 
workplaces. At the same time, we want to keep mail moving to 
the Nation's businesses and households.
    Let me share some of the actions that we have taken. We 
scheduled 200 facilities nationwide to be tested. That is in 
addition to those facilities in the immediate area of the 
anthrax attacks. We purchased 4.8 million masks, 88 million 
gloves for our employees. We changed operational maintenance 
procedures to reduce the chance of any bioagents being blown 
around the workplace. We are using new cleaning products that 
kill anthrax bacteria. We have redoubled efforts to communicate 
to employees through stand-up talks, videos, and postcards 
directed to their homes to reinforce our awareness message. We 
also had medical doctors speak to our employees at the worksite 
on the precautions they needed to take concerning anthrax and 
offered employees nationwide counseling services.
    During the last week, we mobilized every resource to get 
employees screened, tested, and antibiotics distributed. We are 
purchasing machines and technology to sanitize the mail. 
Unfortunately, we cannot deploy all the machines tomorrow. In 
the interim, we are using existing machines and private sector 
companies to sanitize targeted mail. The anthrax attacks were 
targeted and we are responding in a targeted way.
    We are increasing our education efforts with the public. 
Postcards alerting every address in America were delivered last 
week. In all our dealings with our customers, we stress the 
need for vigilance. We modified our website to provide the 
latest information on anthrax. In sum, we are focused on 
getting the message out.
    I might also add here that the cooperation and coordination 
between and among all Federal agencies involved has gotten 
increasingly stronger as each day has gone by. Governor Ridge 
has been instrumental in building bridges and making things 
happen. He also has been working to assure that all Federal 
agencies work in a focused way to ensure that the equipment and 
technology we plan to use is effective.
    These attacks on our employees, the Nation, and the mail 
are unprecedented. They have hurt us financially. The economic 
slowdown in 2001 already had an impact. Then the tragedy of the 
attack on September 11 again stunned the economy. The results 
have been reflected in reduced revenue and mail volumes. 
Although we are still assessing the economic impact of the 
anthrax attack, I can tell you it is sizeable. We will provide 
information to the Committee when we have a tally.
    As I am sure you will agree, protecting America's freedom 
by ensuring the safety and the integrity of the mail is at the 
core of the Postal Service's mission. Our 800,000 Postal 
employees are using everything they have learned and doing 
everything humanly possible to keep the mail safe and moving.
    I cannot say enough how proud I am of the cooperation and 
the spirit I have seen in our employees and Postal customers. 
They recognize that terrorists have launched an attack on one 
of America's fundamental institutions, the Nation's post 
offices. We are determined not to let the terrorists stop us.
    This concludes my prepared statement, Mr. Chairman.
    Chairman Lieberman. Thanks, Mr. Potter.
    We will begin questioning now. With the permission of my 
colleagues, we will do 6-minute rounds, but we will give a few 
extra minutes to, other than the four of us who had the chance 
to make opening statements, if other members wish to use that 
to make an opening statement.
    The dates here are, as you stated them, the sequence of 
events. On October 12, CDC confirmed that the letter sent to 
NBC had anthrax in it. A short while after that, we learned 
that anthrax from a letter sent to Senator Daschle had 
contaminated one of the Senate mail rooms and so was capable of 
contaminating other locations, yet the Brentwood facility 
continued to operate and now it appears that there is 
contamination throughout government mail rooms in the DC area.
    My question is: Given--and this is the question, obviously, 
that others are asking, including Postal workers--given the 
known anthrax exposure at Postal facilities, particularly in 
New Jersey and then in Florida, why did the Postal Service not 
take a more aggressive approach toward conducting testing for 
anthrax as a precautionary measure, both to protect its 
employees and the general public?
    Mr. Potter. Throughout the process, when we started with 
the earliest letters at NBC, the advice we were given 
throughout was that these envelopes were well sealed. They had 
been taped and it gave the appearance that the intent of the 
sender was that it was to affect the recipient, the person who 
the mail was addressed to.
    Chairman Lieberman. Right.
    Mr. Potter. It was not until later on that we found out 
that the size of the spores, the anthrax spores, were one 
micron in size and that they had the ability to penetrate 
paper. So we went from a situation where we had sealed 
containers and we had no known cases of anthrax either in 
Florida or in New York, that is the Postal Service did not, and 
so the theory that we were operating under seemed logical, made 
sense, and given the amount of protection, tape that was put on 
the envelopes, that they were contained and that they were not 
contaminating until they were opened at the destination.
    Chairman Lieberman. So the initial presumption was that to 
become ill, you would have to have opened a package or letter, 
as occurred at the NBC offices or, in fact, in Senator 
Daschle's office?
    Mr. Potter. Yes. That was the initial assumption and it was 
thought that by opening the envelope, and that was the theory 
behind what happened in Florida, that the gentlemen that were 
affected opened the envelope and that dust came out of the 
envelope and went into their sinuses.
    Chairman Lieberman. On what basis did you reach that 
conclusion? I understand it has a certain common sense to it 
based on normal experience, although as we have found out, as 
you indicated, as time went on, the anthrax was refined to such 
a small level that common sense did not make sense in the end. 
But was that a judgment that you made within the Postal Service 
based on the advice of your internal counsel or was it based on 
advice you got from others, and if so, who were they?
    Mr. Potter. It was based on the advice that we had gotten 
from those who had seen the envelopes. We did not have 
possession of the envelopes.
    Chairman Lieberman. In other words, those who had seen them 
at NBC or here at the Senate?
    Mr. Potter. Right. So it was the law enforcement 
authorities, the FBI, our Postal inspectors, as well as the 
health authorities, the CDC and others.
    Chairman Lieberman. Who did you call? Obviously, you are 
confronted with a problem you did not anticipate and it is a 
health problem and the Postal Service is obviously not a health 
service organization itself. Who do you turn to at a moment 
like that? Who did you turn to?
    Mr. Potter. At a moment like that, I turn to the Secretary, 
Tommy Thompson.
    Chairman Lieberman. Health and Human Services?
    Mr. Potter. The Secretary of Health and Human Services, to 
ask for his help because it was an unknown entity to us.
    Chairman Lieberman. Right.
    Mr. Potter. We sought out his assistance.
    Chairman Lieberman. What did he tell you?
    Mr. Potter. Basically, he put us in touch with all of the 
experts at his disposal.
    Chairman Lieberman. Who were they?
    Mr. Potter. The Surgeon General, the CDC, and many others 
who came to our aid to help us analyze this problem and give us 
advice.
    Chairman Lieberman. And they counseled you at that time 
explicitly that it was their best judgment that your employees 
would have to have opened a package to be exposed to anthrax?
    Mr. Potter. They had counseled me that there was a remote 
chance that as the envelopes transited our system, that they 
would have contaminated our system, again, based on the fact 
that they were well sealed. Early on, there were a couple of 
letters that later turned out to be hoaxes that had granular 
substances in them.
    Chairman Lieberman. Right.
    Mr. Potter. You recall at NBC, there was a focus on a 
letter of September 25 that was originally thought to be the 
letter that caused the contamination. That later on proved not 
to be the case and there was a granular substance in that 
letter. We subsequently found out it was a September 18 letter. 
So, again, it was based on the facts that were available to 
them and the facts that were available to me and we relied on 
the advice of everybody.
    I think, without a doubt in my mind, that there was truly a 
good faith effort on the part of all. As was stated earlier, 
people just did not know that much about anthrax.
    Chairman Lieberman. Let me ask you this question. To the 
best of your knowledge, I presume Mr. Morris and Mr. Curseen, 
the two Postal workers who died of inhalation anthrax, were not 
exposed to packages or letters with anthrax that were opened, 
is that correct?
    Mr. Potter. To the best of my knowledge, that is the case, 
yes.
    Chairman Lieberman. So is the presumption now that the 
terrorists who were sending the anthrax through the mail were 
operating at such a level of sophistication that they had not 
only refined the anthrax to the one micron, which is not 
visible to the eye, but that they had put openings in the 
envelopes or package coverings that were slightly larger than 
the one micron, but large enough when handled to let some of 
the anthrax spores out?
    Mr. Potter. Mr. Chairman, I think it was a matter of using 
different paper. I do not know that there was an attempt on the 
part of the terrorists, and we will never know until we find 
that person and find out what their motives were, but I think 
there was a different type of paper. That paper was more porous 
than the previous paper and allowed the anthrax to move through 
the paper. That is my assumption. I do not consider myself an 
expert, but that appears to be the case.
    Chairman Lieberman. OK. My time is up. Thank you. Senator 
Thompson.
    Senator Thompson. Thank you very much, Mr. Chairman, and 
thank you, Mr. Potter.
    I was looking at the time lines here. Of course, some of 
the criticism that everybody around here is rightfully 
sensitive to is whether or not there has been some kind of a 
double standard, and I was looking at the time lines for the 
Senate, in particular, and our reaction, and yours. According 
to my recollection and information, the Daschle letter was 
opened up on October 15. Twenty-eight employees tested positive 
for exposure on October 17 and we closed their offices on 
October 18.
    And what I found out, or just realized just recently, was 
that for 3 days, Governmental Affairs Committee staff employees 
were walking around that same area up there, some of these 
folks behind us here, on the same floor, on the sixth floor of 
the Hart Building where the Daschle letter was opened, for 3 
days before we closed the buildings.
    So obviously it goes to make the point that we were all 
thinking that it took some kind of--not only could something 
not seep out of an envelope, but you had to have some kind of, 
apparently, direct contact with it or be in the same room or 
something with it in order for it to cause you a problem. I 
mean, seemingly, that was the information that we were all 
operating on at the time.
    So we reacted, what, 3 days later, and then, only after 
several people turned up positive for exposure, and I was 
looking at your time line and you had a private company come 
in. Of course, you had the benefit, if you want to call it 
that, of the Daschle episode. We should say that. But on 
October 18, you had a private company come in and test 
Brentwood and they received no positive indications at that 
time, is that right?
    Mr. Potter. We had two separate tests done, Senator. We had 
comprehensive testing done by an outside company and then we 
had the Fairfax County Hazardous Material Group to come in 
Fairfax County right across the river, and test our facility on 
a quick test. That quick test proved negative. I have since 
come to learn that there are no false positives with the quick 
test but there are a lot of false negatives.
    Senator Thompson. And that happened on October 18?
    Mr. Potter. That happened on October 18. We had ordered 
those tests on October 17. Once we became aware that there 
might be--what we learned over this process was the science 
starts with where did the contamination occur, and if you think 
about what happened in Boca Raton, it appears that only the 
people who touched the envelope were affected because no other 
employee in AMI, to my knowledge, was tested positive for 
spores.
    So the science that we were following, again, working with 
the experts, was you have a case of anthrax. In the case of the 
Senate, you backed up and started to look at the mail room. 
When you made that move, we made the same move. We started to 
conduct the tests, although we were told that, again, there was 
a remote chance that anything happened in Brentwood. We 
scheduled those tests on October 17. We began the testing on 
the afternoon of October 18. We had a negative quick test--
granted, it is a quick test, but a negative quick test on 
October 18 to give us some reassurance that the theory was 
accurate.
    Senator Thompson. Let us go from there, then, to the other 
relevant facts leading up to your decision to close on October 
21. That would take us to October 19, I suppose.
    Mr. Potter. Right.
    Senator Thompson. I believe you indicated that an employee 
showed some preliminary symptoms that could have been diagnosed 
as possibly as anthrax on the----
    Mr. Potter. Friday night, we had an employee go to the 
hospital with flu-like symptoms, and I think I have the dates 
right. If I do not, we will correct it.
    Senator Thompson. Friday night? That would have been 
October 19.
    Mr. Potter. Right. But the issue that we have now fixed is 
the fact that our employees go to a hospital with flu-like 
symptoms. They think they have the flu. And what we now have 
instructed all of our employees to do is when you go--if you 
have flu-like symptoms, and this is throughout the country, we 
have asked the employees to tell the attending physician that 
they are a Postal employee.
    Senator Thompson. All right. Let me ask you this now. I 
want you to get all this in, but I have got limited time here 
and I want to get through this one line of questioning. Did top 
management know at the time that that employee went in, that 
they went in with those symptoms on October 19?
    Mr. Potter. No.
    Senator Thompson. You did not learn that until later?
    Mr. Potter. We did not learn that until Sunday night.
    Senator Thompson. Until Sunday night? That would have been 
October 21.
    Mr. Potter. It would have been after we had closed the 
facility and after----
    Senator Thompson. After you had closed the facility?
    Mr. Potter. And after we had begun----
    Senator Thompson. All right. So that is not a relevant fact 
in terms of your thinking as of October 20. All right. What 
else happened before October 21? I understand that the CDC 
began testing.
    Mr. Potter. No. Our outside company, URS, began testing, 
but the tests take, at a minimum, 48 hours. In fact, we did not 
get the Brentwood results back for 72 hours.
    Senator Thompson. All right. So what else happened between 
October 19 and your closing of the facility?
    Mr. Potter. What happened on that Saturday, we appealed to 
the CDC and to local health officials to begin our employees on 
medication. We felt that they should be tested and medicated. 
We were told that there was no need to do that.
    And then on October 21, we had a confirmed inhalation 
anthrax case of a gentleman that was in Inova Fairfax Hospital, 
and thank God he is on his way to recovery. It is at that point 
that we immediately shut the facility down and we began giving 
medication to employees.
    Senator Thompson. All right. I think that is pretty clear, 
and I am almost out of time. Well, I will throw something out 
and follow up later. In talking about the cost of this 
equipment, you are talking about the equipment that you are 
using now, in order to get it fully in place and implemented in 
the number of facilities that you feel like you need, I have 
seen an estimate of a total cost of $2.5 billion?
    Mr. Potter. Yes, sir, several billion dollars.
    Senator Thompson. I just wonder how that is going--
obviously, before this happened, the Postal Service had 
significant financial problems, and we have had hearings on 
that from time to time, an $11 billion debt and facing a $1.65 
billion deficit at the end of fiscal year 2001. Obviously, you 
are going to have to rethink your entire financial picture.
    Can you just broadly outline the significance of this? Is 
this going to require a direct Congressional appropriation for 
at least $2.5 billion and then start from there with your 
problems that you have had for a long time and having to solve 
them, and what impact is this--are you going to be able to 
estimate what impact that this event, notwithstanding the $2.5 
billion, assuming that you get that, what impact this is going 
to have on the Postal Service, your financial picture, and your 
competitiveness?
    Mr. Potter. Well, first of all, regarding the appropriation 
or requesting an appropriation to reconfigure our operation 
such that we can sanitize mail, yes, we will ask for that 
appropriation. We were in financial straits prior to September 
11. As you have accurately said, our loss for fiscal year 2001 
was approximately $1.7 billion.
    In the month following the September 11 attack, the Postal 
Service lost, against plan, what we thought we would get, and 
it was a very conservative plan, some $300 million. We do not 
have an estimate of what the impact of this anthrax situation 
will be. We are working as hard as we can to restore confidence 
in the mail. That is going to take time. So it will have 
further--it could be several billion dollars' worth of impact.
    In addition to that, we have costs associated with masks, 
gloves, and other operational procedures that are just going to 
change the way we do business. We were very grateful that the 
President made monies available to us, some $175 million to get 
us started, but we know that more money will be needed and it 
does put the Postal Service's long-term viability, not in 
jeopardy, it just makes it a very difficult road to hoe.
    Senator Thompson. Thank you very much.
    Chairman Lieberman. Thanks, Senator Thompson, and thanks, 
General Potter. Obviously, this Committee wants to work with 
you on the long-term viability and health of the Postal 
Service.
    We are going to have somebody in from CDC tomorrow at the 
second day of these hearings--on the advice that you got that a 
sealed package or envelope would not endanger your employees, 
which obviously turned out not to be true or accurate, I wonder 
whether CDC understood that mail is repeatedly compressed 
during handling when they gave you that advice.
    Mr. Potter. Mr. Chairman, I would have to let the CDC speak 
to that. Obviously, as was said earlier, we were all on a steep 
learning curve.
    Chairman Lieberman. Yes.
    Mr. Potter. We were trying to understand the medical side 
of this issue. They were trying to understand the operational 
side of this issue. Again, I think there was a good faith 
effort on the part of everybody to work with what we had. Keep 
in mind that the envelopes in question were evidence. Keep in 
mind that the envelopes in question were contaminated. So it 
was not that people had ready access to them to do analysis. 
Again, I think everybody was operating under descriptions that 
were provided by those who physically handled the mail.
    Chairman Lieberman. Thanks. Senator Akaka.
    Senator Akaka. Thank you very much.
    Postmaster General, as we know, the Daschle letter was 
opened on October 15 and the Hart Building was open October 16 
and 17 and closed on October 18. Senate employees were tested 
October 16 and 17. Did you ask CDC or DC Public Health to test 
your employees and provide antibiotics at the same time the 
Senate employees began being tested?
    Mr. Potter. There were ongoing discussions throughout that 
week. I do not think we made an official--I do not think we 
requested of the DC health officials until Saturday.
    Senator Akaka. When were you notified that the Dirksen mail 
room had tested positive for anthrax and did CDC recommend 
testing and preventative medication at that point?
    Mr. Potter. I do not know that we were ever officially 
notified, but we did become aware of it the morning of October 
17 and that is why we immediately began to hire outside testing 
agencies to come in and do a thorough check of our facilities.
    Senator Akaka. The Attorney General has said there is 
credible evidence of another attack on the United States or its 
interests abroad. Given this latest warning and the existing 
anthrax threat, what is the Postal Service doing during this 
heightened state of alert to safeguard the mail and its 
employees? Is mail being screened for high-risk targets?
    Mr. Potter. Senator, the mail is being screened at origins 
where we believe the anthrax was deposited into the mail 
stream, and what we are doing there is screening the mail to 
prevent it from getting into our system to be worked on our 
machines. I would be happy to give you a lot of detail offline, 
but I do not think it is wise to invite people to circumvent 
what we have put into place.
    Senator Akaka. The Postal Service, I understand, intends to 
sanitize mail. Will the Postal Service install such a facility 
in remote areas like Hawaii so that Hawaii and other Pacific 
Island mail will not need to be sent to the United States 
mainland, and if so, when would you expect the facility to come 
online?
    Mr. Potter. Senator, our initial plan, and we are working 
through that plan as we speak, is to sanitize all possible 
entries of mail, including Hawaii, Alaska, Puerto Rico, and the 
continental United States. Regarding timing, I will turn to our 
Vice President for Engineering, Thomas Day, who could respond 
better to that.
    Mr. Day. Senator, we are still very early in the process of 
trying to figure out a time line. The type of equipment that we 
are looking to deploy is coming from an industry that primarily 
served food processing and medical sterility needs. Our demands 
on that industry are unprecedented, so we have entered into 
discussions with the two major companies that we are aware of 
in the United States that make this type of equipment and 
looking to see what they can do to ramp up their manufacturing 
capability. So we are looking to do it as quick as we can, but 
we are still very early in that discussion.
    Senator Akaka. Thank you, Mr. Day. New York's Morgan 
facility has at least four confirmed areas of contamination and 
yet continues to operate. I know that the Morgan employees have 
been offered the option to work on another floor or across the 
street if they have safety concerns. However, how does this 
reconcile with the temporary closure of the Princeton, New 
Jersey Post Office, where only trace amounts of anthrax were 
found? I would also like to know who makes the final decision 
to close a facility and what criteria is used.
    Mr. Potter. I think it is important that we describe the 
Morgan facility and what we have there. We have a 1.8 million 
square foot building. We have an area of contamination that is 
about 8,000 square feet. We have sealed off 156,000 square feet 
while we decontaminate not only the 8,000 square feet, we are 
going to decontaminate the whole 156,000 square feet of that 
facility.
    We have traces of spores on our machines that will be 
decontaminated. We have no spores in any ventilation system in 
Morgan. We are very, very careful to check that. If that were 
the case, that facility would close immediately.
    Again, I am not a medical expert, but traces of anthrax 
are, when we talk about traces, we are talking about very few 
spores. We are not talking about thousands. We are talking 
about less than 50. And we bring in and get advice from, in the 
case of New York City, from CDC, who is on site, NIOSH, who is 
on site, the New York City Department of Health is on site.
    We work collaboratively with those folks to determine 
whether or not we need to evacuate a facility or whether we can 
treat that facility. We have done that in other places. Again, 
we work with the local and national officials, the experts, to 
determine what the appropriate course of action is.
    As far as the Princeton site is concerned, we have a much 
smaller facility. We did not have the ability to rope off a 
150,000 square foot area because it is a smaller facility. In 
addition to that, that is also a crime scene. So any time a 
crime scene is declared, we evacuate and we make sure that the 
crime scene is not disturbed.
    Senator Akaka. Thank you very much.
    Chairman Lieberman. Thanks, Senator Akaka. Senator Cochran.
    Senator Cochran. Mr. Chairman, one of the questions that I 
have is the capacity you have with your Postal inspectors to 
actually respond to all of the reports that you have received 
for incidents that may be suspicious or may be threatening to 
not only Postal workers but to the general public.
    For example, I noticed in one of your fact sheets that you 
released on Sunday that you say a total of 5,477 suspicious 
incidents have been reported to Postal inspectors as of Friday, 
October 26. How are you coping with that and what can we do to 
help you in regard to that problem?
    Mr. Potter. We only have 1,900 Postal inspectors, so 
obviously, our resources are spread very thin. We are working 
closely with other law enforcement agencies regarding these 
hoaxes. That is both at the local level and national level. So 
the FBI, working with our Inspection Service, working with 
local law enforcement, are doing the best job that they can to 
track down those folks that are committing the hoaxes. That is 
playing as much on the fear of Americans as the actual anthrax 
and we are taking those very, very seriously and a number of 
arrests have been made of those folks who are committing those 
hoaxes, those folks that are trying to instill fear in the 
American public.
    Senator Cochran. I think the word should go out that that 
is a violation of Federal law, is it not, and those who are 
committing those acts to alarm or to frighten others are 
subject to criminal prosecution, is that correct?
    Mr. Potter. Let me introduce Chief Postal Inspector Ken 
Weaver, who can accurately answer that question.
    Mr. Weaver. Senator, you are exactly right. It is as 
vicious as the crime itself and it is treated as such because 
it does spread fear among the population. To date, we have 
arrested 18 individuals--in the last 3 weeks--for sending 
prohibited material through the mail. So you are exactly right.
    Senator Cochran. When can we expect these facilities that 
have been contaminated to be cleaned up and put back in 
service? Do you have a time line and can you give us that 
information now, when they will be operational again?
    Mr. Potter. Senator, for most of these facilities, it is a 
matter of a couple of days, because what we have found are 
traces of anthrax. However, in the case of Washington, DC, and 
Trenton, the contamination is more widespread, so I do not have 
a good estimate on when or how long it would take to clean 
those facilities, or even looking through, just as you are 
experiencing in the Senate, what is the proper process to go 
through to clean a facility of that size. In addition to that, 
those two locations are crime scenes, so we do not even have 
access to them right now to go in and begin remediation. I will 
turn to Mr. Day, if he has anything.
    Mr. Day. I would just say, Senator, that my staff in 
Environmental Programs has contracted out for those services, 
and as Jack has already indicated, until we fully understand 
the extent of the contamination, it is hard to assess how long. 
Then the process will require not just decontamination, but 
then another round of testing to ensure that what we did is 
actually effective.
    Senator Cochran. Some people have asked us, what has 
happened to all the mail that has been held up and not 
delivered? Are you storing that, and what efforts are being 
made to sanitize or sterilize that mail and then to have it 
subsequently delivered to those who are entitled to receive it?
    Mr. Potter. All mail that we had in our possession on 
Monday, October 21, has been held. It is in the process of 
being sanitized in Lima, Ohio, and that will take several days 
for us to catch up, and until that time, obviously it will not 
be delivered. We want to make sure that mail is safe for the 
American public.
    Senator Cochran. There were some people who had heard that 
some of the mail that had been accumulated was going to be 
burned. That is just a rumor, is it not?
    Mr. Potter. That is absolutely a rumor. The sanctity of the 
mail is our top priority. We cannot open mail. We would not 
destroy mail, or open mail short of having a warrant.
    Mr. Donahoe. I can clarify. One of the things that we did, 
Senator, we held any empty equipment. We move equipment 
throughout our whole system. So what we did, the equipment that 
was empty and on trailers for dispatch--we have a recycling 
area where we put things back together as far as reuse--we held 
those trailers both in Washington and in Trenton and what we 
are going to do is remediate some of the equipment and other 
things, like cardboard trays, that is what will be destroyed. 
It is not mail, it is just that type of equipment.
    Senator Cochran. There was some suggestion, too, that it 
was misleading to assure Postal workers that they were going to 
be safer if they wore gloves in handling mail, and this is 
other people, too, who come in contact with equipment and the 
like. But that does not have anything to do with the process by 
which you contract inhalation anthrax illness, which is the 
most serious, is that correct?
    Mr. Potter. That is correct. Again, in terms of what 
happened first, the first case of anthrax in the Postal Service 
was cutaneous anthrax, and again, there, it was a matter of 
somebody had touched, we believe, touched the anthrax and 
contracted the anthrax through their hand.
    We were very careful, by the way, to make sure that we did 
not go out and say masks, in general, were going to protect our 
employees or anybody else--because we found out that the key 
piece of information that you needed to determine what the 
proper mask was was the size of the spore. Once we got that 
information from CDC, we bought the appropriate masks for our 
employees. So throughout this process, we have been learning, 
and every time we learn something, we change our behavior in 
response to what we learn.
    Senator Cochran. In closing, let me just make sure I 
understand what your needs are so we can respond and try to 
help provide you with the support you need to do your job. Are 
you submitting through the process of appropriation or with the 
administration a request for supplemental funding that is 
needed on an emergency basis to take care of some of these 
needs that you have cited?
    Mr. Potter. Yes, Senator, we will, but we want to do our 
homework and make sure that we have a proper estimate of what 
those funds would be.
    Senator Cochran. Well, I think you can be assured that we 
are going to respond in this Committee to recommend and try to 
be an influence to get those funds to you as quickly as 
possible.
    Mr. Potter. Thank you, Senator.
    Chairman Lieberman. Thanks, Senator Cochran. I thoroughly 
endorse the statement you have just made and we will obviously 
do that in a bipartisan way.
    Senator Carper has to preside in the Senate at 11 a.m., and 
with the gracious consent of Senators Levin, Cleland, and 
Carnahan, who were supposed to go first, we will call on 
Senator Carper now.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman, thank you, and I want to 
thank my colleagues, as well, for graciously yielding.
    Mr. Potter, welcome, and to you and your colleagues, we 
thank you for being here. We thank you for your service.
    I have just been sitting here reflecting on how in the last 
month and a half we in this country have seen our domestic 
airliners converted into a delivery system for lethal weapons 
and used to kill thousands of people. We have seen how our 
Postal Service is being turned into a delivery system for 
lethal weapons, in this case anthrax, to kill innocent people, 
not even the people for whom the anthrax was intended.
    As we try to retrace what happened or did not happen, what 
we could have done better over the last several weeks, one of 
the things I am walking out of here with before I go to preside 
is just the conviction, the strong conviction that we need to 
figure out who is doing this. We need to apprehend them right 
away and we need to make sure that they get punished severely 
for what they have done to our Postal employees and the kind of 
predicament they have put a lot of other people in.
    Early yesterday afternoon, I was back in Delaware and I 
visited the Hares Corner mail distribution center just south of 
Wilmington, which is our major distribution center in 
Wilmington. I had a chance to meet over the lunch hour with a 
lot of the employees in a big public setting and share with 
them a little of what we are doing here and really invited them 
to share with me what concerns they would like for me to 
express to you and to the representatives of the employee 
unions that are here today. I came away very impressed with the 
cooperation that is going on between labor and management at 
that facility and was grateful to see that kind of cooperation.
    Among the concerns that the employees raised were the 
effectiveness of the protective equipment you're supplying. 
People said, I am concerned that some day the money will run 
out for masks or gloves, and several people said to me, we walk 
around here and we gather things on our shoes and our boots and 
then we go home. It would be nice to have disposable boots to 
wear. Several people talked about the ventilation system and 
said it would be wonderful if we could have a ventilation 
system that sucked everything that could be dangerous to us out 
of here and sent it outside where it would not pose a danger to 
the general populace. But I just wanted to share those 
particular concerns that were raised with us yesterday.
    Could you just trace for us the mail process? Someone goes 
to a post office drop box in Trenton, New Jersey, for a letter 
that is addressed to Senator Daschle here in Washington. Just 
trace for us how the mail moves through your system before it 
ends up in his office.
    Mr. Potter. A collector would go to the collection box, 
would put the mail that comes out of that collection box into a 
larger container, a hamper. That hamper is brought to the 
Trenton mail processing center, I think they call it the 
Hamilton Township mail processing center--the names change all 
the time--and it is dumped into a hopper, where it goes through 
a canceling machine that processes that mail at about 30,000 
pieces an hour.
    It then moves to an optical character reader or to a bar 
code sorter, depending on whether or not it is machine-printed 
or not. So in the case of the Daschle letter, it would move to 
a delivery bar code sorter, which is just a big automated piece 
of equipment, sorts mail at about 30,000 pieces an hour. On 
that machine, it would be held out for DC Government mail in a 
zip code range of 202 to 205. That would then be transported to 
Washington, DC, where it would move to a machine that is called 
a government mails machine and it will be sorted on that 
machine to the Senate. From there, it will be put into a tray 
and transported via government mails to the Senate office 
building.
    Senator Carper. In terms of the processing, the actual 
processing of the mail and different pieces of equipment, I 
have had the opportunity to observe the Hares Corner plant 
before, and as you said, they sort a lot of mail in a hurry, 
especially on the bar-coded mail. But as the mail goes through 
these machines, if there were anthrax inside, a very small 
size, if the paper or the envelope were porous, one could see 
how the action of the machines and the movement of the mail 
through those machines could, even if the envelopes were not 
torn, cause something to come out of the envelope.
    I have also seen, and you probably have seen a lot more 
than me, pieces of mail that have been torn as they go through. 
Odd-sized letters, especially, they can be torn or come loose 
in some way or other.
    Mr. Potter. Yes. If I could comment on that, one of the 
things we are looking at, we want to move ahead with the 
sanitizing of mail, but in addition to that, on an interim 
basis, what we are looking at is at spots in that machine where 
mail is pinched, we are looking to create a vacuum to collect 
any dust that comes out of a letter--and you always have paper 
dust when you are around a lot of paper. So we are looking to 
vacuum that dust up as it is generated.
    We are also looking at working with the manufacturer, 
Siemens, to see if we can create a downdraft within that 
machine so that any dust that might be generated is pulled down 
into the body of the machine and is appropriately filtered. 
That is not something that we, until this situation, felt was 
necessary, but now we are a lot smarter and we are moving ahead 
with that, as well as moving ahead with sanitizing equipment.
    Senator Carper. That sounds like a good idea. We have 
appropriated a lot of money to the administration to use and 
the administration has provided financial assistance, some of 
which could be used for providing machinery that hopefully 
would sanitize a portion of the mail, but of the things that we 
have done, what has been particularly helpful? What else can we 
do that would be helpful at this point in time?
    Mr. Potter. Well, again, the appropriation of that money, 
the $40 billion from which we will receive some $175 million 
that was critical to helping us, and the appropriation that we 
talked about earlier. Once we are aware of what our costs are, 
that would be a big help to the Postal Service in terms of 
allowing us to reconfigure our operations so we can confidently 
say that the mail is safe and secure. Those are the two things 
that are very helpful to us.
    Senator Carper. And in terms of what else we could do, did 
you want to add anything else?
    Mr. Potter. Well, again, I think we will call upon you as 
we need you. In my statement, I said that Governor Ridge in his 
new role has been extremely helpful in terms of providing 
coordination. I think we are well down the road to--the 
government is, in my opinion, to being able to respond very 
rapidly to these situations. But one thing I have learned, 
though, is that science is not perfect and every day you learn 
something new.
    Senator Carper. I would like to ask if there is anything 
you would like to share with the folks that are working back in 
Delaware in that Postal facility that I visited yesterday where 
those concerns were expressed?
    Mr. Potter. I would like to thank them for what they are 
doing. I would like them to do what we have asked them to do, 
and that is update their employee information to make sure that 
we have proper addresses, phone numbers, emergency numbers in 
the event that something happens. I would like to strongly 
encourage them to wear masks, gloves, to be on the lookout, to 
be diligent about what they see in the mail, to bring any 
concerns they have to the attention of their managers so that 
we can deal with them.
    And I want to thank them for delivering America's mail and 
keeping America connected. They are on the front line now. We 
are all a little less confident than we were a very short 
period of time ago and I think they need to know that the 
American public is behind them, that the Congress, the 
administration, and Postal managers are doing everything they 
can to make them safe.
    Senator Carper. Well said. Thank you very, very much.
    Mr. Chairman, to my colleagues again who have been very 
gracious in allowing me to go ahead of them, thank you, and I 
will return after the noon hour and look forward to seeing our 
next panel.
    Chairman Lieberman. Thanks, Senator Carper. We look forward 
to your return. Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Potter, at this oversight hearing, I think we cannot 
say often enough that the tragic deaths and illnesses of the 
Postal workers are the fault of the terrorists. They are not 
the fault of the Postal Service managers. They are not the 
fault of the CDC. They are not the fault of other public health 
experts. They are the fault of the terrorists. I think that is 
important for us to say over and over again.
    All of us benefitting from hindsight wish that different 
decisions had been made. We wish that public health officials 
had advised you to promptly trace the tainted mail's path and 
to undertake rapid testing of workers and of the environment of 
the Postal facilities. But again, we are learning that there is 
so much we just do not know.
    When I hear the description of how mail is handled in 
response to Senator Carper's question, one wishes that public 
health officials had realized how roughly the mail is handled 
and that it would be likely, given the quality of this anthrax, 
that some of the spores would go through the envelopes. But 
that is information that we did not have.
    An expert in anthrax from the State of Maine, Dr. Merle 
Nass, has written to me to advise me that the single most 
important step that we could take now would be to undertake 
accurate, rapid, and widespread environmental testing. She 
further has recommended that the samples be tested in labs that 
are decentralized to avoid overwhelming Federal facilities, and 
I can see Mr. Donahoe is nodding is response to that 
recommendation.
    You have testified that 128 Postal facilities are 
undergoing some sort of environmental testing. Could you tell 
us how they are selected, whether you are able to decentralize 
the lab work that needs to be done in order to get the results 
promptly, and whether you plan additional testing?
    Mr. Potter. We have tested in those areas that have been 
targeted, the tests that you talked about that have been 
completed and scheduled, initially, they were scheduled and 
targeted for those areas where anthrax was found. So that was 
in New York City, in New Jersey, in the Washington, DC area, 
and in Florida.
    Since that time, we have decided that we are going to test 
our entire system, and this past weekend, we were in 30 
facilities around the country and we began that test. We 
started with our larger facilities and we are going to work our 
way down to the point where all of the major nodes in our 
network have been tested, and that is the plan that we have.
    I appreciate, very much appreciate the comment about trying 
to use multiple labs and we have found that we did put too much 
of a demand on individual labs, and so, therefore, we are 
looking at that to try and spread the work around so that we 
can get quicker results.
    As far as environmental testing and air sampling, I'm not 
the expert again, but I do have some concerns about quick 
tests. Again, I do not want to sound like an expert because I 
am absolutely not, but we are talking to someone who had a 
quick test done that was negative, that gave me and others some 
reassurance that our employees were not in harm's way. So I do 
have some concerns about the fact that we do get a lot of false 
negatives there and we are looking at every means possible to 
determine what the appropriate testing is, what is the right 
test that is going to give correct information to us.
    I want to thank, by the way, the American people. I have so 
many folks who have reached out to me offering solutions, 
offering advice, and I know if I have received 20 messages, I 
can just imagine what our Vice President of Engineering, Tom 
Day, received.
    So we are looking at everything, but the advice about the 
spreading out of most of the labs is very sound and we are 
moving in that direction.
    The advice about the quick tests, we are working with the 
experts to determine what is the appropriate test, including 
the EPA. Part of the monies that were provided for us were to 
purchase testing equipment to be used in Postal facilities, and 
once we know what the appropriate equipment is, we intend to 
buy it and use it.
    Senator Collins. Is the Postal Service also looking at the 
possibility of installing biochemical sensors? There is a lot 
of interesting work going on in companies across the United 
States. There is a small firm in Maine that is doing a lot of 
research in developing sensors. Mr. Day, is that one of the 
options you are looking at?
    Mr. Day. Yes, Senator. I have a group that is very 
specifically dealing with biochemical sensors. We are teamed up 
with the Department of Defense. The Joint Program Office for 
Biological Warfare is one group I know of that we are dealing 
with specifically. We are very interested in seeing if there is 
applicable detection technology. There has been a lot of work 
done with it. However, I would caution, we are going to pursue 
it. We think there are some things that could work for us.
    But up until this point in time, the bio threat was more 
towards the military. Bio threat was in large quantities, 
aerosol sprays, that kind of thing. And so our type of threat 
is similar, but not the same. So we are trying to see how we 
can modify the technology to fit our needs.
    Senator Collins. Mr. Potter, I want to follow up on a 
question that Senator Thompson raised. The Postal Service was 
in a precarious financial situation prior to this crisis. are 
you seeing a dropoff in your mail volume because Americans have 
reservations about using the mail right now, because if that is 
happening, that is obviously going to exacerbate the financial 
strains.
    Mr. Potter. We saw a pronounced dropoff in mail volume 
following September 11, and the pronounced dropoff was 
attributable to a lot of our advertiser mail, in particular, 
not being sent. The advertisers felt that the American public 
was just not in the mood to buy. We saw that mail begin to 
bounce back just prior to this anthrax situation.
    It is too early to tell whether or not the American public 
is reacting to the anthrax situation. Some things that I have 
seen suggest that people still have confidence in their mail. 
They are following our advice. Basically, people know what 
comes to their mailbox. They know the difference between a 
magazine and something that might be threatening, or a bill and 
something that might be threatening. So it is too preliminary 
to really give you an accurate answer. We will know more a 
month from now.
    Senator Collins. Finally, I know that the Postal Service is 
making the protection of its workers its top priority and that 
has to be the top priority for all of us. In that regard, I 
have heard public health experts give varying opinions on the 
effectiveness of wearing gloves. Some recommend it, but others 
say that when the gloves are removed, the anthrax spores, if 
they are on the gloves, will be dispersed into the air, making 
it more dangerous than sorting mail without gloves. Has the 
Postal Service reached a determination on whether or not gloves 
are the right tool for your workers?
    Mr. Potter. We believe that gloves provide some protection. 
We are not sure exactly how much. Again, we are not the medical 
experts. We do not pretend to be. When we hand out gloves, we 
also tell people what to do regarding disposal of the gloves. 
We also advise people and continue to advise people that when 
it comes to cutaneous anthrax, the best thing that a Postal 
worker or any other worker could do is to wash their hands, and 
that is just for general health. If you follow general health 
principles of before you eat, wash your hands, if your hands 
are dirty, before you rub your eye, you wash your hands, that 
is helpful with cutaneous anthrax.
    Now, I was told by the CDC that we are not talking about 
just stick your hand under a faucet and take it out. It is to 
use soap. I asked if they needed any antibacterial soap and the 
answer is no. Regular soap, but you should hold your hands 
under there for 20 seconds. If you recite the alphabet, that is 
sufficient. It sounds funny, and it was not meant to be a joke, 
but it is very practical advice to people, and that is the type 
of thing that we are sharing with folks. I did not mean to make 
a joke.
    Senator Collins. My time has expired. Thank you, Mr. 
Chairman, and thank you, Mr. Potter.
    Chairman Lieberman. Thank you, Senator Collins. Senator 
Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman, and welcome to each 
of you. I want to go back to the chronology, because I have 
some questions remaining about it. On October 17, which was 
Wednesday, that is when you learned that the Senate staffers 
had tested positive for exposure, on that day. According to 
your testimony, you then contacted the Centers for Disease 
Control to determine if testing was necessary for employees at 
the Brentwood center. According to your testimony, you were 
advised that because the Senate letter was sealed, that 
employees were not at risk and no action was necessary. When 
you say you were advised, was that by the Centers for Disease 
Control on October 17?
    Mr. Potter. I believe so.
    Senator Levin. The day before, however, at a post office in 
Boca Raton, there was anthrax found in a processing area on 
October 16.
    Mr. Potter. Right.
    Senator Levin. That was not because the letter was opened. 
There was--presumably, the letter was not opened at the 
processing center, and so the question that I have is whether, 
when the CDC told you on October 17 not to worry because the 
mail was unopened, the day before, they had announced that 
anthrax had been found in Boca Raton, and that they, as a 
precaution, as they put it, were closing the post office down 
there for the day while it was being cleaned. Did you ask them, 
or did they explain to you on October 17 how it was possible 
for anthrax to be found in a Boca Raton Post Office without the 
envelope being opened down there the day before?
    Mr. Potter. What I have come to know is that anthrax is 
common throughout the United States and there was a trace of 
anthrax found in Boca Raton. There was no linkage between that 
anthrax and what happened at AMI.
    What I am told that I should expect as we start to test our 
facilities, that we are going to find some anthrax throughout 
our system, not because it is associated with the acts of 
moving anthrax through the mail, but we may just find some 
naturally existing anthrax. There was no definitive way of 
determining where that anthrax in Boca Raton came from. It was 
my understanding that it was on the floor. It could have easily 
been brought in by somebody's shoe.
    And in terms of shutting it down, what we did was we closed 
it down at the end of the day because that is when we were 
advised. By the next morning, that facility was open because 
the area where it was found had been remediated.
    Senator Levin. As of last Friday, I believe there were 23 
Postal Service employees in the Washington-Baltimore area that 
were hospitalized for suspicious symptoms.
    Mr. Potter. Yes, sir.
    Senator Levin. Do we know what the outcome of those tests 
are for those 23?
    Mr. Potter. We have three cases of inhalation anthrax out 
of those 23. Some tests are still pending.
    Senator Levin. And are there any cutaneous----
    Mr. Potter. Excuse me. I am sorry. There were four cases of 
inhalation anthrax in Washington, DC.
    Senator Levin. Out of those 23 that were still in the 
hospital on Friday? Those are the ones I am referring to.
    Mr. Potter. OK. There were two cases of inhalation anthrax 
that were confirmed. The others, while they tested negative, 
more tests are still pending.
    Senator Levin. And you do not know how many of those have 
been tested negative and how many are pending the division?
    Mr. Potter. I certainly can get that for you, but I would 
not venture a guess off the top of my head.
    Senator Levin. OK. And then you have also tested all 36 
stations and branches that receive mail from Brentwood, I 
believe, and if you can tell us what the results are on those 
stations and branches.
    Mr. Potter. We had two of those 36 where we had a finding 
of anthrax. In one case, it was isolated to a bin for 
government mail. That station was closed and remediation is 
underway and I believe we might be opening it today. And then 
we had another case that we found at another facility, working 
with the Army Corps of Engineers. It was a trace of anthrax, 
and overnight, we cleaned that facility. We did not allow 
employees into that facility once we found out and the 
employees that reported today were held out of that building 
until the Corps of Engineers advised us that the building was 
safe.
    Senator Levin. As to the equipment in Lima, Ohio, what 
percentage of the Nation's mail is going to be going through 
that particular operation? Is that just Washington mail or is 
that----
    Mr. Potter. That mail is going to be, in terms of 
percentage, it is probably less than one-tenth of one percent, 
a very small percentage of the mail.
    Senator Levin. And is it your goal in trying to purchase 
additional sanitizing equipment that all of the Nation's mail 
will go through equipment someday such as that, or what is the 
goal?
    Mr. Potter. All the mail where the public has open access 
to our facilities would go through a sanitizing process. We do 
have manufacturing processes, like some of our major printers 
who do things such as magazines, we are going to go into their 
operations and make sure that they are safe and secure and that 
there is necessary security there. We do not need to sanitize 
all the mail, just that mail which anybody could have access 
to.
    Senator Levin. In other words, where it is deposited in a 
public place.
    Mr. Potter. Exactly.
    Senator Levin. Then you would want all mail----
    Mr. Potter. A collection box on a street corner, and a 
collection box maybe in a large office building where there is 
open and free access.
    Senator Levin. Are you considering a Postal rate increase 
to pay for some of your losses here?
    Mr. Potter. Well, we have a Postal rate filing that was 
filed in September, and at this point in time, we are going to 
look to find other means of remediating or paying for some of 
the steps that we have to take for the mail. Certainly, as I 
said earlier, we are looking for appropriations. We do not feel 
that the rate payer should have to bear the burden of the 
protection from the terrorists that is required.
    Senator Levin. So you are not contemplating any request for 
a Postal rate increase because of the cost of protecting the 
mail that results from these attacks?
    Mr. Potter. At the current time, no.
    Senator Levin. Is it under consideration?
    Mr. Potter. It will be if we do not have another source of 
funds, yes.
    Senator Levin. Can you tell us whether or not you are 
considering a mechanism to cancel mail at an earlier point or 
to identify a source prior to a large facility, such as the New 
Jersey facility, because when you trace back mail, you can only 
trace it back to that central point and not to the smaller 
points, each individual post office where it may have been 
deposited. Are you considering ways of trying to stamp mail or 
cancel mail at an earlier point so that you can identify the 
source at an earlier point?
    Mr. Potter. There is consideration for identifying mail as 
it moves through the system, but it is part of our 
investigation. Again, I do not want to advise people how to 
circumvent that. Once we have the sanitizing process in place, 
it will be irrelevant because the mail will be safe after it 
goes through that process.
    Senator Levin. At least we hope it is.
    Mr. Potter. We are working with all the experts that we 
possibly can find to make sure, and we will test these systems 
to assure that they work as expected.
    Senator Levin. Thank you. Thank you, Mr. Chairman.
    Mr. Potter. Thank you, Senator.
    Chairman Lieberman. Thank you, Senator Levin. Senator 
Bennett, you are next.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Mr. Chairman.
    Mr. Potter, I appreciate your testimony here today and the 
diligence that you have shown as you have moved through terra 
incognita and dealt with challenges that you undoubtedly had no 
idea you were going to face when you took this assignment.
    I want to change the whole subject for just a minute 
because I think my colleagues have pursued the time line and 
the question of security and safety and so on for your 
employees sufficiently well that I would just be re-raking the 
same leaves if I went back in that direction.
    We are in a war and it is a different kind of war than we 
have ever fought before. We have always thought of war as 
something that was conducted by the armed forces with the rest 
of us as the homefront, providing support, equipment, materiel, 
etc., for the war fighter. Indeed, if you talk to people in the 
military, that is a term they use, the war fighter, and they 
talk about the tail, the logistics tail that comes along behind 
the war fighter.
    We have to break out of that mentality in this kind of war 
and recognize, as Senator Carper talked about, that our airline 
system, which is an essential part of our whole economic 
structure, has been turned into a delivery system for weapons, 
and the mail has been turned into a delivery system for those 
who are our opponents in this war.
    Now, I understand exactly why the media wants to know how 
the mails work and why you want to be responsive to the media, 
and what I am about to say is not in any sense a criticism of 
what has been done, but it is something I think all of us need 
to start thinking about.
    As the anthrax story has unfolded, the Federal Government, 
with your full cooperation, has identified for a potential 
enemy all of the key facilities for processing mail for the 
Federal Government. We have given them a blueprint of where the 
next attack should come, and it has never occurred to us to 
think in terms of military information security when we are 
talking about private facilities that everybody can walk into 
and walk out of.
    Now, we are told that the hijackers of the airplanes did 
dry runs. There have been stories in the paper about this, 
people who have been identified as being on the airplanes 
literally taking notes. Where is the flight attendant at this 
time in the takeoff? What is the situation? Where are things 
going? That they took these flights in advance of the time they 
decided they were going to hijack them. Now, that is not 
illegal, but it is a demonstration of the new world in which we 
are living.
    If I were somebody who wanted to cripple the Postal 
Service, I would be forced to go into post offices and take 
notes and look around and try to figure out how things are 
going on. But now, all I need to do is tune in CNN and I can 
have, in the name of full disclosure of what is going on, a 
complete analysis of the entire system so that I can sit in my 
cave somewhere--probably not Afghanistan, frankly, it will 
probably be in Hamburg or London or maybe even someplace in the 
United States, and say, oh, now I know exactly where to attack 
in order to use this new paradigm, where our critical 
infrastructure and our economy becomes a delivery system for 
terror.
    So all I am suggesting to you, again, without any criticism 
of what has been done in the past because it requires a whole 
new set of thinking that we are not used to, from now on, you, 
this Committee, the Federal Government, everybody has to think 
entirely differently about the kind of information we give out.
    If I were a terrorist, and I am about to break my own rule 
here and speculate, but if I were a terrorist, the next place I 
would go would be to the Internet and E-mail because that is 
the way people are getting around their fear of communicating 
through the Postal Service. And so I want to be very careful as 
to how much information I give out as I look at this particular 
issue that a terrorist might be able to use.
    They might be able to say, oh, Senator Bennett just gave a 
speech to CSIS in which he outlined our vulnerabilities on the 
Internet and I am going to take notes so that I know how to 
exploit those vulnerabilities. I am going to change some of the 
things I say as I talk about critical infrastructure protection 
as it begins to dawn on me just what kind of a new enemy we are 
facing.
    So I simply wanted to take this opportunity to share that 
view with you, underscoring for the third time that I am not 
being critical of the information you have given out and that 
the Federal Government in settings like this has asked you for, 
but to use this hearing to alert all of us to the fact that we 
live in an entirely new, entirely different kind of combat 
situation than we have ever thought about before. And you in 
your position suddenly find yourself not part of the tail but 
right on the front lines in a war situation that no one has 
ever faced or understood.
    If I can close with an historical note, Benjamin Franklin 
is credited as the founder of the U.S. Postal Service. Benjamin 
Franklin was the Deputy Postmaster or Co-Postmaster for 
Philadelphia and later became almost all of New England that he 
had responsibility for. One of the reasons the British were 
after Benjamin Franklin is that they realized that the way the 
Revolutionary War spread throughout the colonies was through 
the network of the Postal Service. It was a critical 
communication system in those days that made it possible for 
the Continentals to maintain and mount their opposition to the 
British Regulars. And so they went after Franklin and the 
Postal Service in a recognition of how important that was in 
terms of the war effort. Now, that is 250 years ago, but it is 
being recycled now in a deadly new way that we Americans need 
to pay attention to.
    So I do not have any questions, Mr. Chairman, but I thought 
I would share that view while our witnesses are here.
    Chairman Lieberman. Thank you, Senator Bennett.
    Senator Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman, and 
gentlemen, thank you for joining us.
    Mr. Potter, I think you can be very proud today of your 
800,000 Postal Service workers and colleagues. They have 
withstood the slings and arrows of outrageous fortune and they 
are still out there doing their job, a great testimony to them 
and to the leadership of the Postal Service and I commend you 
for that. You have suffered tremendous adversity, and yet you 
are coming back with great strength and stamina and we 
appreciate that very much.
    A former member of this body, Senator Sam Nunn, played an 
interesting role last June in a series of events called ``Dark 
Winter'' in which it was a mock exercise put on by Johns 
Hopkins about what this country would do, how it would react to 
a biological attack. In this case, it was not anthrax, it was 
another kind of threat, smallpox. As a matter of fact, Senator 
Nunn testified before our Armed Services Committee, of which I 
am a member, and we heard of some of the lessons of that 
exercise.
    One of the things I remember that Senator Nunn said was 
that a few days into the exercise--he acted as President and he 
had his cabinet and so forth--that a few days into the 
exercise, he got very frustrated, he said, with bureaucracy. 
And a couple of things that he left us with in terms of lessons 
learned from that exercise were, one, the bureaucracy elements 
did not talk to one another, and two, a powerful need to 
communicate with the American people.
    We have gone through this anthrax attack and I think we 
have picked up on the need to do both of those things. First, 
the bureaucracies have to communicate with one another and 
coordinate with one another. We need Governor Ridge to step in 
and do a great job of coordination. Second, we need to 
communicate to the American people.
    I think, in many ways, the Postal Service, and particularly 
the Postal workers at Brentwood, fell through the bureaucratic 
crack early on. The reason I say that is this: When we first 
got into the anthrax issue, it was in Florida. It was basically 
cutaneous. How did we even know it was anthrax?
    We are very fortunate that there was a physician on the 
ward there that thought that he might try to see if this might 
be that, since it was not a common illness in America. He 
contacted the Florida State Health Department in Jacksonville 
and was immediately in the public health channel. They 
contacted the CDC in Atlanta and the person that contacted the 
CDC in Atlanta had just gone through a CDC class on anthrax. So 
about 3:30 one morning, it was confirmed as an anthrax case. 
That is one reason we got right on top of it. The CDC was 
called in early on. My understanding is that they were called 
in also on the New York case, the Tom Brokaw case.
    What happened with the anthrax case here in Washington? 
Well, it seems it was handled in a different way through a 
whole set of bureaucracies that were different than the public 
health bureaucracy. I understand that in your public testimony, 
your full testimony, you say the different focuses of various 
law enforcement and health organizations occasionally resulted 
in parties speaking different languages, and absent an 
established protocol, lines of authority could occasionally be 
unclear. I think that is an understatement in terms of what 
happened.
    What happened here was that letter went through Brentwood 
into Senator Daschle's office. We were told in the Senate 
that--even the term ``garden variety'' was used, that it was 
not weapons grade, that it was not all that dangerous, so to 
speak. A week later, that story changed even for us, much less 
you out there and your Postal workers on the front line.
    But what happened here? It went to the Capitol Police, who 
took it to the FBI, who did not send it to the CDC, which was 
on top of the case. They sent it to Fort Detrick, Maryland, to 
a biological warfare center that is trained to teach soldiers 
how to deal with biological warfare in Kuwait, not how to deal 
with a public health emergency here. So we got that evidence 
into another whole channel. It was an FBI-DOD channel, not the 
public health channel where the CDC was most familiar and most 
expert.
    So what happened? Ultimately, that Fort Detrick, Maryland, 
facility communicated with the FBI but not necessarily with the 
CDC. Now we know that there has been through the years 
competition for resources and so forth between the biological 
warfare center at Fort Detrick, Maryland, run by the Army and 
the CDC, run by the HHS in Atlanta. So there was, like, subtle 
competition. But in effect, the right hand did not know what 
the left hand was doing.
    So when you called for the Brentwood analysis from the CDC, 
they came up. The only contact they had with anthrax and the 
information was the variety that landed in Florida and the 
variety that landed in Tom Brokaw's office. The problem was, 
when Senator Daschle's office had a much higher level of 
quality of anthrax and it was more lethal, it was more 
aerosoluble, so to speak, and smaller in size in terms of 
spores. Therefore, your employees were at risk. The CDC did not 
have that information until later.
    The problem is, I think we need one central clearinghouse 
in this whole effort to defend ourselves against germ warfare. 
We need a totally coordinated effort here. That is one of the 
things I get out of your experience and out of the experience 
of the Nation.
    Let me just ask you, do you think that the authority exists 
in Governor Tom Ridge's office to go ahead and instill this 
sense of discipline in defending our homeland and have a 
central clearinghouse for these kind of public health issues 
rather than it going off to this agency and that agency and 
people like yourself not really knowing who to believe?
    Mr. Potter. I personally believe that Governor Ridge can 
get that accomplished. The response from Governor Ridge's 
office to the Postal Service has been nothing short of 
phenomenal. When we did run into situations, we spoke to him 
and asked for some clear direction on things. I have not had 
anybody fail to cooperate with the Postal Service. A lot of 
what you described is news to me. As you say, I cannot even 
comment on it.
    But I can tell you this. I have never picked up the phone 
to ask for help from anybody in the administration and not 
received it. I did not always know who to ask, but Governor 
Ridge has helped clarify that. I did not understand, and still 
to this day I am not totally clear on how the Public Health 
Administrations work around the country, and in the health 
arena, there are a lot of opinions on how to approach 
anything--the common flu--somebody gets prescribed different 
medications.
    So we are learning as we go here. But I think the Federal 
Government is lined up now. Governor Ridge is providing the 
type of coordination and direction that you speak of and I 
think, in terms of me, I am satisfied that we are getting the 
level of cooperation that I would expect.
    Senator Cleland. If we had another outbreak of anthrax in 
the Postal Service around America, who would you ask? What 
would you do? Would you go to Tom Ridge? Would you go 
immediately to the CDC? Or would you just depend on Tom Ridge 
to guide you to the best experts?
    Mr. Potter. If I knew that we had an outbreak of anthrax, I 
would go to Secretary Thompson at Health and Human Services and 
seek his advice. He has the medical experts that can help us 
with that. He has the prophylactics, the drugs, prepositioned 
and can move them into the spots around the country where we 
might need them. He has the resources to bring on board to 
provide the medical screening that is necessary.
    When we set up in New York and in Washington, DC, to have 
thousands of people receive medication, it was the resources 
that we got from HHS. They provided the doctors. They provided 
the screeners. And working jointly with all of the entities 
that report to Secretary Thompson, they provided the resources 
that we needed. That is not to say that initially there was not 
a little bit of a learning curve there, but I think certainly 
this has galvanized everybody in terms of being prepared to 
respond.
    Senator Cleland. Thank you very much, and thank you for 
your response and thank you for your testimony.
    Mr. Potter. Thank you.
    Chairman Lieberman. Thanks, Senator Cleland. I think you 
know, tomorrow, we have folks here from CDC and, hopefully, 
from the military, as well, so we can have some good cross-
exchange on exactly the points you are making.
    Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman.
    First of all, I would like to thank you, Mr. Potter, for 
your service to our country and the sacrifice of your family. I 
would like to thank the many Postal workers that we have 
throughout the United States whose families are worried about 
them, who are coming to work every day to take care of the mail 
for the citizens of our great country, so thank you very, very 
much.
    Mr. Potter. Thank you, Senator.
    Senator Voinovich. The day after we had the attack on 
September 11, I went to mass over at St. Joseph's and Father 
Hemerick said that our lives have changed forever, and our 
lives certainly have changed in this country forever. I see 
that as I walk around the Capitol and see the barricades being 
put up and the permanent blocks and so forth to secure our 
security here on the Hill.
    People at home are really worried. They have a cloud of 
fear hanging over them, and I think it is our obligation, all 
of us, to do what we can to lessen that fear, to lessen that 
anxiety. I have been spending a lot of time just going around 
talking to people. People are complaining that they cannot 
sleep at night. Mothers are worried about their kids. We have 
got to try to see what we can do to alleviate that. Those who 
have strong faith, I suggest that they ought to let go and let 
God--I think God has a plan.
    But when you think about what you are doing, it has an 
enormous impact on people's confidence in this country. Just as 
airline security has had an impact on how we feel about 
ourselves and about security in this country, the Postal 
Service has certainly had a large impact on their lives because 
it is something that touches them each day.
    I think we ought to admit that we were not prepared for 
bioterrorism. I am not here to criticize you but to help you. 
We have not done a very good job in the Senate, either. The day 
it happened in Senator Daschle's office, we were told not to 
worry about it. It is not a problem. It is garden variety. 
Nobody needs to get the nasal swab. The next day, we read in 
the paper that it is a higher level of anthrax, that everybody 
ought to get their swabs. There was a lot of disorientation and 
miscommunication and a lot of panic. So you were confronted to 
a large degree with the same kind of problems that we had.
    I think we have to also admit that in terms of physical 
terrorism, we are a lot better prepared. I think that they did 
a marvelous job up in New York and in Washington. Our local 
government officials were there on the spot. Our search and 
rescue teams were there. They had practiced. They were ready. 
They got the job done. I think they did a pretty good job in 
Florida, too, in terms of responding to that situation that 
they had there.
    I think the first thing that I am concerned about is taking 
care of the families of the people who have lost their lives, 
and I am going to ask you a series of questions. I will try to 
make them brief, but what are we doing about those families to 
make them take care of their physical needs? They are grieving 
for their loved ones that they have lost. What is the Postal 
Service doing to take care of them?
    Mr. Potter. Senator, from the outset, we have counselors 
there with them. We set up, obviously, services for those 
people. We are advising the families and making sure they get 
the benefits due them. The Postal Service took care of the 
funeral arrangements and the Postal Service was preparing a 
memorial service at the request of those families later this 
week or earlier next week. We are not going to abandon those 
employees' families. We are staying very close to those 
families and we are doing what we can to help with a very, very 
difficult transition for those families.
    Senator Voinovich. I can say this, that the way you treat 
them will have a lot to do with the rest of the Postal workers 
and how they feel about the Postal Service, and I am very 
impressed with what you are putting in place to try and restore 
their confidence in going to work. I think it is really 
important for you to understand that if they feel confident and 
safe in their workplace and they are taken care of, then the 
general public is going to feel much more comfortable about 
their particular situation and their mail delivery.
    The other issue that is one that has been on my mind, 
because I am concerned about the human capital crisis. How many 
people in your Postal Service are eligible for retirement? Are 
you concerned at all about that?
    Mr. Potter. I am certainly concerned about the fact that we 
have--I do not know the exact number, but we have better than 
50 percent of our employees in that category, that are either 
eligible or will be eligible in very short order for 
retirement. So that is a concern of mine.
    One of the things that we are doing is attempting to 
recruit people with the appropriate degrees and move them into 
the chain so that they can move up the management ranks. In 
1992, we had a program called the Management Intern Program 
that was designed to do that, and it had been in place prior to 
1992. In 1992, we stopped that. We also stopped an engineering 
program.
    Senator Voinovich. Are you covered by Title V of the Civil 
Service Code or do you have a separate hiring and firing 
program?
    Mr. Potter. We have a separate program, but we do have the 
caps, compensation caps applied to the Federal Government.
    Senator Voinovich. So you are worried about your personnel 
problem?
    Mr. Potter. Right. We are worried about our ability to 
recruit and we are worried about the fact that for the last 9 
years, we have not aggressively sought out people who have the 
same skills that we need to replace some of the senior people 
that we have.
    Senator Voinovich. I understand that you are not ready yet 
to come to us with a comprehensive plan or at least a cost for 
a comprehensive plan to secure the Postal Service, is that 
right?
    Mr. Potter. We have estimates, but I would hesitate to give 
you an exact number for fear of being too high or too low. I 
can tell you that for certain it will be several billion 
dollars.
    Senator Voinovich. Another thing that concerns me, Mr. 
Chairman, is that we have this problem and we are going to move 
forward and come up with a comprehensive plan to secure the 
mail. But how reoccurring is this situation going to be in this 
country? What kind of anthrax is it? How available is it to the 
common, ordinary person? If our intelligence and law 
enforcement people go out and solve the previous cases, is 
there any chance at all that we can eliminate the threat?
    You can spend billions of dollars to secure the Post Office 
and put in new technologies, but if we are successful in terms 
of our law enforcement and intelligence and we eliminate the 
threat, then this money has been spent unnecessarily. You have 
got to look at it from a cost/benefit point of view. Have you 
spoken to the people in the FBI and other places to really get 
a handle on just how significant this threat is and whether it 
will continue?
    Mr. Potter. Our evaluation has been that a vulnerability in 
our system has been identified. What we are looking to do is 
shore up that vulnerability. If one were to capture and arrest 
one or multiple people who are perpetrating this heinous act on 
America today, that does not preclude the fact that somebody a 
year from now, 6 months from now, would not choose to take 
advantage of that vulnerability. Our goal is to look at all our 
procedures and try and eliminate that vulnerability as best we 
can.
    Senator Voinovich. Mr. Chairman, I would hope that in our 
hearings, we could get some information back from the law 
enforcement people about just how often they believe that this 
threat will occur. Is there any way that we can stamp it out so 
that we do not have this threat hanging over our heads?
    The last thing I want to ask you is an Ohio question. By 
the way, it is not Lima (lee-ma), it is Lima (lie-ma), Ohio.
    Mr. Potter. I am from the Bronx. I do not know that place. 
[Laughter.]
    Senator Voinovich. But there has been a lot of talk in our 
papers about the potentially dangerous shipment of mail coming 
to Ohio, and I would like for you to comment about how 
dangerous that shipment is.
    Mr. Day. Senator, I have responsibility for that. Members 
of my staff are dealing with it. We are being overly, extremely 
cautious with the shipment of that product to that facility. We 
are using an outside firm. We have contracted for a firm to bag 
all of that mail that we send up there. There are no guidelines 
necessarily in place for how you would transport anthrax, but 
we use the highest level of hazardous material handling process 
for biohazards. So we are following all of those procedures, 
working with the EPA to get it properly prepared to transport 
it to Ohio. It is escorted. The Postal Inspection Service has 
helped us with that.
    Senator Voinovich. I guess what I am saying is that there 
is a perception today that anthrax is like moving nuclear spent 
fuel or hydrochloric acid. Put it on that level for me.
    Mr. Day. Senator, we are being, again, overly cautious. The 
risk that there is actually anthrax in those vehicles is 
minimal, but we are going to treat it as though there is. We 
are overly cautious. There is not a risk that we see. Again, it 
is a level of caution so that when it is irradiated, any 
possibility, and it is minimal, that it would be irradiated and 
eliminated.
    Senator Voinovich. OK. So if the truck tipped over and all 
the mail went all over the highway or whatever, there is----
    Mr. Day. Senator, just as an example, it got local coverage 
in Ohio. Unfortunately, one of the bags opened. A little bit of 
mail spilled out. We filed all the protocols. We tested inside 
and outside the vehicle, decontaminated the vehicle, rebagged 
everything. Nothing was found. So this is a minimal risk.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Thank you, Senator Voinovich. Senator 
Carnahan.

             OPENING STATEMENT OF SENATOR CARNAHAN

    Senator Carnahan. Thank you, Mr. Chairman.
    Clearly, there is a new group of heroes in America today 
and they are the working men and women of this country, the 
Postal workers, the police, the firemen, and those who are on 
the front line in this battle against bioterrorism against our 
homeland today. I want to extend my sympathy to the families of 
those who died in the line of duty. They died in the 
performance of public service and we should all be indebted to 
them.
    We remember them all the more because they were among the 
first to fall in this newest battle to preserve freedom, and we 
pledge that we will do all the more to make it safe to handle 
and deliver and to receive mail in this country. But I believe 
it is a shared responsibility of the Congress, of the 
administration, and of the Postal Service to put into place 
safeguards that will make it possible for us to be able to 
receive our mail and feel safe and good about it.
    We have heard a lot today about the test site and about the 
decontamination effort. I was wondering if you would take just 
a minute to tell us something about the testing. Is it a random 
testing? Is it something that covers every square inch of the 
area that is defined? And then how does the decontamination 
process work? Could you just tell us a little bit about that?
    Mr. Potter. I am going to let Pat Donahoe handle that.
    Mr. Donahoe. Senator, first, let us cover the testing. 
There have been two types of testing we have done. One is in 
the areas where we were suspicious, as Postmaster General 
Potter mentioned, in New York, and in Washington. The CDC and 
the FBI had done the testing in Trenton and down in Florida.
    The rest of the testing we are doing, the additional 200 
facilities, is a precautionary effort. What we are doing is we 
are going out, as Postmaster General Potter said, and 
identifying downstream operations like we had in Washington, 
DC, downstream operations like we had in Trenton, and then a 
random sampling nationally of our largest facilities to see if 
anything is out there and to get a baseline.
    From a remediation perspective, we are working very closely 
with the Army Corps of Engineers, the EPA, and the local public 
health people to really assess what is there. What we are 
seeing is different in every case. What we have seen in Trenton 
and what we have seen in Washington is a higher level than what 
we have seen in New York and Florida. And once it is 
established what is there, the local public health and the EPA 
people have been telling us, these are the exact steps that you 
need to remediate. If we find anything anywhere else in the 
country, we will follow that same protocol. Our whole goal here 
is to assess the system and then make sure it is safe for the 
employees and the general public.
    Senator Carnahan. Thank you. I have one other question. Is 
there any particular action that the Postal Service is taking 
to ensure the safety of the rural letter carriers who may not 
have the same access to many of the resources that the Postal 
workers have in the urban areas?
    Mr. Potter. All employees have been provided masks, gloves, 
have been provided the same training, have gotten the postcard 
from my office describing what they should do. The rural 
carriers are part of the task force. They are at every meeting. 
They are not being treated separately or differently from any 
other Postal employee.
    Senator Carnahan. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Carnahan. Senator 
Durbin.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Thank you very much, Mr. Chairman.
    I would like to follow up on what Senator Carnahan said by 
way of her introduction. I just hope for a moment that the 
critics of public employees and public employee unions are 
keeping score as they reflect on the Postal workers, the police 
officers, and the fire fighters who have ended up on the front 
line of our war against terrorism since September 11. Many have 
given their lives, and Postal workers Thomas Morris and Joseph 
Curseen served America and their families deserve our sympathy 
and gratitude for their sacrifice and I thank you for being 
here, Mr. Postmaster, as well as those on the panel.
    Last Friday, I went to the Chicago facility. Danny Jackson, 
your Vice President for the Great Lakes Region, came down. We 
met with not only the postmaster, but all of the labor unions 
and a group of employees in the facility and around the Chicago 
area, and we had a conversation about safety.
    This is a learning process for us on Capitol Hill and it is 
for you, as well, in the Postal Service, and I was very pleased 
with what I heard at that meeting. There was some confusion at 
the outset about what employees could do and what they could 
wear and where they could stand and whether they could wear a 
mask and be at the window selling stamps and whether they had 
to wear gloves. I think that is all starting to be clarified, 
and all of the answers I heard were extremely encouraging in 
terms of the attitude of management toward the safety of the 
employees. If anything, I came away with the conclusion that 
your people are going to err on the side of protection, err on 
the side of caution. That is exactly as it should be when lives 
are at stake.
    One thing, I do not know if it has been mentioned at this 
hearing, Mr. Chairman, I think it is worth a question on the 
record. I understand the Postal Service is going to initiate a 
system-wide effort to immunize everyone with the flu vaccine in 
the Postal Service. Can you tell me, Mr. Potter, what your 
plans are?
    Mr. Potter. I have asked the question whether or not that 
would be an appropriate tack to take, and the reason I say that 
is because with 800,000 employees, and if you just assume that 
20 percent might get the flu, you would have 160,000 people 
going to a physician and saying, I am a Postal employee. 
Consider the fact that I might have been exposed to anthrax.
    So we are working with the medical community to determine 
whether or not undergoing an extensive flu campaign is 
appropriate. The Postal Service is considering paying for flu 
shots, but again, not being a medical expert, I am seeking the 
advice as to whether people should do that or should people not 
do that and I have not gotten a definitive answer yet.
    Senator Durbin. It was my understanding on Friday that the 
decision had been made, but you are saying it has not been 
made?
    Mr. Potter. Unless something happened in the interim that I 
am not aware of. We asked that question of the medical experts 
and we were not given the definitive go-ahead because there 
were some people who it is just not appropriate for them to 
take a flu shot.
    Senator Durbin. Well, I can understand----
    Mr. Potter. It is my desire that if it is determined that 
is appropriate, that the Postal Service make the flu shots 
available to our employees at the Postal Service's expense. 
Now, I do not want people to misinterpret that in the sense 
that there are people who are out there waiting to get flu 
shots, because again, I am going to use the best medical advice 
that I can get before I make that type of a decision or 
recommendation.
    Senator Durbin. Mr. Potter, I am not an expert in public 
health, but the advice that is being given to every American is 
get a flu shot, and certainly if you are working in a post 
office and it is going to be a week or 10 days before it 
effectively protects you and the symptoms of anthrax mirror the 
symptoms of flu at the earliest stage, it would seem to me to 
be prudent. But I, too, like you, would defer to the public 
health experts, but let me tell you, I would not wait too long.
    Mr. Potter. I am not.
    Senator Durbin. I think we are----
    Mr. Potter. That is an ongoing issue that is talked about 
at our task force meetings, and again, we are seeking the best 
medical advice. The last thing I want to do is put employees in 
harm's way, so there is a fine balance that I am trying to find 
here, but what I just said stands.
    Senator Durbin. Could you get back to me after----
    Mr. Potter. Certainly.
    Senator Durbin [continuing]. Perhaps by tomorrow and let me 
know what you have learned? I would appreciate that.
    Mr. Potter. Yes, Senator, I will.
    Senator Durbin. Now, I understand that the Daschle envelope 
was a Postal Service envelope, if I am not mistaken, is that 
true?
    Mr. Potter. That is true.
    Senator Durbin. So you are familiar with the kind of paper 
that is used in this envelope and that sort of thing, is that 
also true?
    Mr. Potter. Familiar with it, but not an expert on paper.
    Senator Durbin. We are all becoming expert in areas----
    Mr. Potter. On a lot of things.
    Senator Durbin [continuing]. We never thought about. Here I 
am, a liberal arts lawyer, asking you about science, and I will 
do my best. But it is my understanding that the sample in 
Senator Daschle's office is the largest sample of the anthrax 
that we have come up with. It is also my understanding that the 
size of the particles were extremely small, 1 to 50 microns, I 
am told. Now, I do not know what a micron is. The only thing I 
can remember is the micronide filter when I was a kid, and I 
have no idea what it means today.
    But what I am trying to get at is this, if we know what the 
standard issue is of that sort of paper in that envelope and 
the size of the particles in the anthrax sample, are you in the 
process of evaluating that in terms of future occurrences and 
vulnerability?
    Mr. Potter. Well, I can tell you this. We have issued an 
order already to pull those envelopes off the public sale at 
this point until we can evaluate those.
    Senator Durbin. Because they are too porous?
    Mr. Potter. Well, we do not know. We have to take a look. 
We really do not know enough about the degree or the quality of 
paper in there, but we want to check that. Again, we have 
learned a lot over the last week ourselves as far as the size 
of the microns, the whole issue, and what we have done is, as 
this whole investigation moves along, we have been trying to 
move very quickly to get ahead of it and that is one of the 
things we did.
    Senator Durbin. Let me ask you, Mr. Potter, what is your 
goal? In your testimony, you talked about the electron beam 
system that is currently being contracted for purchase. What is 
your goal? What do you hope to achieve at the end of this 
process, once you have brought this equipment in?
    Mr. Potter. My goal is--the goal of the Postal Service is 
to assure that all mail is safe, and by that, where we have 
open access to mail, that we sanitize that mail because we are 
not sure of what somebody might put into the mail stream.
    Senator Durbin. When I went to Chicago, we started talking 
about how open the mail system is, with mailboxes everywhere 
and people can put whatever they want into it.
    Mr. Potter. Right.
    Senator Durbin. I do not want to put words in your mouth, 
so please correct me if I misstate this, but your goal is that 
once the mail enters the mail system where workers are dealing 
with it----
    Mr. Potter. Prior to them touching the mail in a plant.
    Senator Durbin. Prior to their touching the mail.
    Mr. Potter. Prior to them introducing the mail into any 
piece of equipment, it would be sanitized. Tom Day can talk 
about it, but again----
    Senator Durbin. Let me give you my image here of the 
mailbox being opened and the letter carrier or someone 
collecting it----
    Mr. Potter. We are going to look at our collection--we are 
looking at it from end to end.
    Senator Durbin. End to end.
    Mr. Potter. So we are going to start with the collection 
box and look at the collection box to determine how we can have 
the carriers handle the mail safely----
    Senator Durbin. That is my point.
    Mr. Potter [continuing]. Under the assumption that there is 
a problem with that mail.
    Senator Durbin. So it is from letter carrier----
    Mr. Potter. From the time----
    Senator Durbin [continuing]. Mail handler, at the earliest 
stage right on through the process.
    Mr. Potter. Right. From the time it is handled at the 
collection box until the time it hits the first machine, we are 
going to set up safe handling procedures and put a mechanism in 
to sanitize the mail before it could enter a machine and 
potentially become airborne.
    Senator Durbin. Thank you very much. Thanks, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Durbin.
    Mr. Potter, I want to ask you just a few final questions 
and then let you go. You have been very good with your time.
    I gather from what you said at one point earlier that the 
Postal Service has purchased a large number of gloves and masks 
for employees but that you are not requiring them to wear the 
masks or use the gloves. Based on what we know now, why are you 
not requiring them to do that?
    Mr. Potter. We are working through a process of doing that. 
I am becoming more and more familiar with laws that I never 
knew existed, and again, we are working through that process.
    Chairman Lieberman. So, what you mean, you are not sure you 
can require them to use that material?
    Mr. Donahoe. Senator, what we are doing right now is we are 
working with a number of different people. We have got the mask 
itself. There are two different types of masks. We are working 
with OSHA and with our unions. You have to make sure people 
have been properly trained and instructed on how to use the 
masks. There is also some testing you have to do with employees 
to make sure that they are getting enough air in based on the 
type of mask that we use. So we do not want to put people in 
more harm with a mask in the short term.
    Chairman Lieberman. OK. Mr. Potter, as you know, for a 
period of time, there were these contrasting pictures, that 
anthrax arrives in Senator Daschle's office, health experts 
come into the Capitol, the buildings are closed, members and 
staff people are tested rapidly, and on the other hand, Postal 
employees who are in the line of attack are not being quickly 
taken care of. And the question was raised, and I want to give 
you the opportunity to answer it here, were personnel who work 
here on Capitol Hill better treated in response to the anthrax 
scare and attack than employees of the Postal Service?
    Mr. Potter. It is my judgment that the people on the Hill 
had anthrax. There was a known case of anthrax there, and that 
people responded based on that knowledge. As I described 
earlier, in Brentwood, we had no knowledge of that. We were 
operating under the theory that the envelopes were well sealed 
and that there was little, if any, chance that anthrax would 
come out of that envelope.
    So in terms of the science and how it was handled, I would 
say the answer is no. If you look at the end of the day and you 
use judgment, with hindsight you have 100 percent knowledge, 
one could make the case. But in terms of the thinking and the 
thought process at the time, no.
    Chairman Lieberman. In a way, your answer may answer the 
next one I want to ask you. It is a very tough question. I am 
sure it is one you have asked yourself and others in the Postal 
Service have asked themselves. Two of your own died, Mr. 
Curseen and Mr. Morris. As you look back, is there anything you 
could have done to have protected those lives?
    Mr. Potter. Well, certainly had they been wearing masks, 
they would have been protected, and we have those out there. 
Certainly, some of the employees who have cutaneous anthrax, if 
they had been wearing gloves, would have been protected, so we 
are moving ahead with that as rapidly as possible. We are 
moving ahead with targeted screening, again, to try and keep, 
as best we can, pieces of mail that may contain anthrax out of 
our system. So we have taken the measures that we know how to 
take is probably the best answer I can give you, Senator.
    Chairman Lieberman. A final question, and you have answered 
it along the way a bit, but just to summarize, from what you 
know now, what can we on this Committee or members of Congress 
do in the near term to support you in not only protecting 
Postal workers but keeping the mail system functioning and 
protecting the American people who depend on the mails?
    Mr. Potter. Again, the best thing that we can do now is 
protect our employees. We are going to have to fund screening, 
and it may grow in terms of what we do. So certainly there is a 
funding issue associated with the short-term effort as well as 
the longer-term effort, and I think that is the area where we 
are going to need help the most and we are going to work with 
you, hopefully, to secure that funding.
    Chairman Lieberman. We will work with you, as well, and 
with all the people who work for you. Thank you very much for 
your time.
    Senator Voinovich. Would you mind if I asked another 
question?
    Chairman Lieberman. Not at all. Go right ahead.
    Senator Voinovich. I would be very interested in finding 
out from you, not today but maybe in the next couple of days, 
the kind of team that you have put together to come back with 
recommendations on how you are going to protect the Postal 
workers and the Postal Service.
    As a former governor and mayor, I have found too often that 
when a problem arises, outside people come in and evaluate it 
but we do not involve the people who are actually doing the job 
in making the recommendation. So I want to find out who is on 
that team that is coming back to you to recommend what you 
should do in order to take care of the problem. Second, I would 
like to know whether or not the union representatives are 
involved on that team.
    Mr. Potter. I would like to, if I could, just respond, and 
we will respond in greater detail. But we have, as was 
described in my testimony, a task force that has been 
established. That task force has union-management association 
representatives on it. In addition, we are seeking mailer 
participation in that task force.
    We have established a number of subcommittees that are 
going to work on issues of a long-term nature. We are meeting 
on a daily basis to address short-term issues, but we have 
established committees, working committees, that are looking at 
the longer-term issues to make sure that there is follow-
through, and I will be happy to provide that response to the 
Committee for the record and certainly you, Senator. Thank you 
for asking the question.
    Senator Voinovich. Yesterday, we had a mail hoax anthrax 
situation. I would like you to reiterate how serious a crime 
that is and how aggressive you are going to be in prosecuting 
those people that engage in that kind of activity. Allegedly, 
this was somebody that sent some baking powder to an ex-
girlfriend of his that ``opened'' it in the office and people 
evacuated and it was quite a scene there in the Cleveland Post 
Office. I think we have got to make it very clear to these 
people that this is serious.
    Mr. Potter. I wholeheartedly agree. We have been extremely 
aggressive in terms of attempting, working with our Inspection 
Service, the FBI, and local law enforcement agencies to seek 
out those committing hoaxes. We are going to prosecute them to 
the fullest extent of the law. It is not a laughing matter. We 
have gone on record in terms of our own employees that there is 
zero tolerance for anyone involved with perpetrating a hoax, 
making jokes about this.
    This is not a laughing matter. It is preying on the fear of 
the American public and we are doing everything that we can. We 
are going after people as aggressively as we can to find those 
who are perpetrating these hoaxes. It is not a joke. It is 
doing a great deal of damage to the psyche of the American 
public and we are taking each and every situation seriously. It 
is a Federal crime. We are prosecuting it as a Federal crime.
    Senator Voinovich. Thank you.
    Chairman Lieberman. Two good points, Senator Voinovich.
    Thanks, Mr. Potter. I was just thinking as we were talking 
about your need for resources that Congress and the President 
responded very quickly with a substantial amount of money to 
the airline industry after September 11. We really owe it to 
you, if you will, our own, and all those who work for you, to 
do the same and we await your specific statement of needs and 
we will do our best to meet them.
    Mr. Potter. Thank you, Mr. Chairman.
    Chairman Lieberman. We will now move to the second panel, 
Gus Baffa, President, National Rural Letter Carriers 
Association; William Burrus, President-Elect of the American 
Postal Workers Union, accompanied by Denise Manley, who is in 
the Government Mail Section at the Brentwood Post Office; 
William Quinn, the President of the National Postal Mail 
Handlers Union; and Vincent Sombrotto, President of the 
National Association of Letter Carriers, who will be 
accompanied by Tony DiStephano, Jr., President of the Letter 
Carriers Branch 380 in Trenton, New Jersey.
    Let me ask all of you to come as quickly as you can to the 
table. I appreciate your being with us today and your patience. 
I guess we are going to go left to right here this morning.
    Therefore, Mr. Burrus, welcome. We are going to call on you 
first to offer your testimony. Thanks for being here and we 
look forward to hearing from you and working with you.

   TESTIMONY OF WILLIAM BURRUS,\1\ PRESIDENT-ELECT, AMERICAN 
 POSTAL WORKERS UNION, AFL-CIO, ACCOMPANIED BY DENISE MANLEY, 
  DISTRIBUTION CLERK, GOVERNMENT MAIL SECTION, BRENTWOOD MAIL 
                      PROCESSING FACILITY

    Mr. Burrus. Thank you, Mr. Chairman and Members of the 
Committee, and thank you for providing us this opportunity to 
testify today.
---------------------------------------------------------------------------
    \1\ The prepeared statement of Mr. Burrus appears in the Appendix 
on page 131.
---------------------------------------------------------------------------
    With me today is Denise Manley, who is employed as a 
Distribution Clerk in the Government Mail Section of the 
Brentwood mail processing facility. I believe that she can 
respond to a question that was asked earlier regarding the 
physical handling of government mail, but based upon the 
Senator's admonishment earlier, perhaps it would be in our best 
interest that she not explain how that mail is handled inside 
the Postal facilities.
    The American Postal Workers Union represents approximately 
380,000 employees of the U.S. Postal Service. Our members work 
in every State and territory of the United States, and the very 
fact that these men and women have continued to work in the 
post office since anthrax was first discovered in the mail has 
been nothing short of heroic. I am proud and humbled to be 
representing them before you today. In the face of unknown and 
potentially deadly danger, they have been determined and 
steadfast in the performance of their duties.
    I will submit written testimony for the record and I have 
an additional statement to make to you this morning.
    I want to emphasize that despite the deaths and injuries 
that have occurred, the American Postal Workers Union and the 
U.S. Postal Service have approached these tragedies and these 
challenges together. We entered this process in an adversarial 
relationship. The American Postal Workers Union has 
traditionally had major disputes with the U.S. Postal Service.
    In fact, just 10 days prior to the discovery of the first 
Daschle letter, Postal management had issued a shake test for 
suspicious packages and parcels and we were in the process of 
resolving that with Postal management, seeking to convince them 
that if a parcel had the markings of being dangerous, it would 
not be in the interests of the Postal Service or the employee 
to raise that package to eye level and shake it. We were able 
to resolve that issue and we have been able to address many of 
the anthrax situations together.
    The APWU sees this as a situation where we and the Postal 
Service must confront a common enemy for the good of the Postal 
Service and for the good of the country. The employer has a 
legal and moral obligation to provide a safe and secure 
workplace. In this crisis, we have sought always to do the best 
that could be done to safeguard the lives of Postal workers. We 
have set aside our labor-management differences and worked 
together to protect lives.
    We cannot bring back life to our brothers who are now 
deceased. All we can do, and we are doing all that we can, is 
to work with Postal management and the other Postal labor 
unions and management associations to try to make sure that we 
will never again be required to attend the funeral of a Postal 
employee whose life has been taken through a terrorist attack. 
This has been our approach and we will continue to work with 
management to safeguard Postal lives.
    Having said this, I want to alert the Committee to a 
serious problem that has been made even worse by this crisis. 
As Postal management publicly expresses its sorrow and concern 
for deceased Postal workers and their families, they are 
simultaneously attempting to cut the wages and health benefits 
of those very workers, using the impact of this act of 
terrorism as justification for a reduction in their wages and 
benefits. Postal workers have been without a contract since 
November 2000. Management has refused to negotiate a new labor 
agreement and is seeking to impose cuts in Postal workers' 
wages and health benefits. These are proposals that have been 
advanced in bargaining before and failed, but this time, they 
seem to hope that the anthrax crisis will give them an 
opportunity to achieve them.
    The APWU cannot understand how management can expect 
employees who are required to work in masks and gloves to 
accept a cut in pay. These employees report to work every day 
not knowing if that is the day they will be infected with 
anthrax. Cipro and masks have become a condition of employment. 
The APWU will not tolerate or accept management's attempt to 
exploit this tragic situation to achieve their long-sought goal 
of cutting Postal wages and benefits.
    This is not the time or place for me to go into these 
issues in detail. I have called an emergency meeting of the 
APWU's executive board to prepare our response to management's 
actions, and I have scheduled a press conference at which time 
I will make a longer statement on this subject and respond to 
questions.
    The focus of today's hearing should be and is the safety of 
Postal employees. This is our first and our primary concern. 
Thank you for your attention.
    Chairman Lieberman. Thanks, Mr. Burrus, very much.
    Ms. Manley, do you want to make a statement now?
    Ms. Manley. Only a small one, if you do not mind.
    Chairman Lieberman. Please do, and then if I might assist 
you in it or what I think is on the minds of Members of the 
Committee and then give you the time to respond as you normally 
would if you made a statement.
    You work in the Government Mail Section at the Brentwood 
facility, and what is really on our minds is whether you feel, 
from what you know of it, based on what you know and what you 
have heard today, whether you and the other Postal workers 
there feel that you were given adequate protection and 
treatment, and in another sense, whether since all the facts 
became clear, anything has changed where you are working.
    Ms. Manley. To my knowledge, the employees were quite upset 
because they felt that they were not treated accordingly. In my 
section alone, we felt that we should have been the first ones, 
since we handled the mail.
    Chairman Lieberman. Right.
    Ms. Manley. But the powers to be, it was out of our hands 
as being employees. We had to follow rules, regulations, and 
instructions.
    As far as what is happening now as far as the gloves and 
the masks, we are getting the gloves. We are getting the masks. 
There are times when there is not enough, but they will go out 
and get some wherever they can get them. The gloves, the 
original gloves that we got were all one size, very thin 
quality, but they have improved.
    At this point, the employees are just very scared. They do 
not know who might be next or what might happen and we just 
want to make sure that the employees have the safety that upper 
management is telling you that they are going to provide for 
us. They do not want it to be stopped just at this level. They 
want to really see it. It is one thing to say it and then it is 
another not to see it.
    Chairman Lieberman. I thank you for that statement. We hear 
you. That is exactly the intention of this Committee, to 
support what you have asked for and we will come back and ask 
you some questions after we hear from the other witnesses.
    Mr. Sombrotto, good morning. Thanks for being here.

   TESTIMONY OF VINCENT R. SOMBROTTO,\1\ PRESIDENT, NATIONAL 
  ASSOCIATION OF LETTER CARRIERS (NALC), ACCOMPANIED BY TONY 
   DiSTEPHANO, JR., PRESIDENT, NALC BRANCH 380, TRENTON, NEW 
                             JERSEY

    Mr. Sombrotto. Good morning, Mr. Chairman and Members of 
the Committee. I have a written statement which I have provided 
to the Committee and I want that entered into the record, or I 
would ask that it be entered into the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sombrotto appears in the Appendix 
on page 139.
---------------------------------------------------------------------------
    Chairman Lieberman. Without objection, it will be.
    Mr. Sombrotto. I would like to make some comments about 
this whole situation as it involves anthrax and particularly 
how it affected and continues to affect our membership, the 
letter carriers that deliver America's mail.
    At the outset, my first concern was for the safety of the 
men and women that I represent. How could I be assured and how 
could I assure them that going about their daily tasks of 
preparing and delivering the mail would not endanger their 
safety, their health, and their lives?
    To that extent, I had some reassurance because the 
Postmaster General, to his credit, acted very quickly by 
assembling a task force that was composed of higher management, 
the Postal Inspection Service, and all of the unions and the 
union presidents to be members of that task force, and, I might 
add, then the management organizations within the Postal 
Service.
    At every step of the way, at every bit of information that 
the Postmaster General learned, he brought it to the attention 
of the task force and we dealt with those questions and we gave 
our concerns and our recommendations. He asked us to get 
feedback from our members. What were they hearing? What were 
they experiencing? How could that help them? He felt that we 
would get information that he would not have access to.
    And so we did that and we continue to do it. Every day at 
10 o'clock every morning, we all meet with the Postmaster 
General and we met with his other representatives to be advised 
as to just what the circumstances and conditions are and how we 
are dealing with this threat of the proliferation of anthrax 
throughout the Postal system.
    I must say that there have been some incidents that I have 
to point out that cause us, certainly the National Association 
of Letter Carriers, some concern. When Senator Daschle received 
the letter, and we all know that whole story, it has been 
repeated here many times this morning, the actions taken were 
swift and they were right on target. The staff members of the 
Senate, those in close proximity to the Senator's office, those 
that worked in that particular facility were tested immediately 
to see if they had contracted anthrax. They were provided with 
the proper medication. They were given the Cipro that would 
arrest the situation, at least temporarily, while at the same 
time in New York City, where a newscaster, Tom Brokaw, had 
received a letter that also contained anthrax.
    When we asked for the same sort of rapid treatment from the 
authorities, and that is that the letter carriers that worked 
in the facility that that letter went through and the five 
carriers that are responsible for handling and delivering those 
letters were asked to be tested and to be provided with 
medication, they were refused. Of course, it was only with our 
intervention and continuing haranguing that they ultimately did 
get tested and were provided medication.
    Chairman Lieberman. Could you just go over that again? In 
other words, those were five letter carriers, and where did 
they work?
    Mr. Sombrotto. They worked at the Radio City unit that 
delivers the mail to NBC.
    Chairman Lieberman. So what they first asked when this came 
out was to be tested and given antibiotics, if they----
    Mr. Sombrotto. That is correct. In fact, all of the 
employees--there are 90 letter carriers in that facility--asked 
to be tested. The Postal Service was willing to test them, in 
fact, was willing to pay for the tests, if necessary. But the 
CDC said that it was not necessary, it was not appropriate, and 
they did not have to be tested.
    Chairman Lieberman. So that is why they were turned down?
    Mr. Sombrotto. That is correct. And I want to point that 
out. That is one incident. Ultimately, they were tested, and 
ultimately, they were given the medication. But right here in 
Trenton, New Jersey, where we have had another spot where the 
mail, actually these letters were deposited and were processed, 
in the immediate area, there are some 40 other satellite post 
offices that in one way or another are connected to Trenton and 
the Postal Service announced that all of these employees should 
be tested. All of them should be provided with the appropriate 
medication.
    Once again, the CDC stepped in and said that it was not 
necessary and it was not appropriate, and to this moment, I 
believe that they have not been tested nor have they been given 
the medication. I do understand from personal knowledge that in 
Trenton, all of the employees have been given the medication, 
but I do not know if all of them have been actually tested, but 
we have a letter carrier here from that facility that can speak 
firsthand to that issue.
    I visited both Brentwood and Trenton. I spoke to letter 
carriers in both those facilities. Let me report here with a 
great deal of pride that the letter carriers have gone about 
their business every day delivering the mail in those 
facilities. In Trenton, they set up their own cases in a tent 
so that they could process and prepare the mail for delivery 
and have been delivering the mail. The same thing is true in 
Brentwood. They have been delivering the mail, still again 
processing it in a tent, and I have pictures here, photographs 
that show the extent of their involvement.
    The fact is that, speaking to these letter carriers, there 
are over 400, 200 in each site. They all were committed to the 
proposition that they have a job to do and they are going to do 
their job. The one thing that they insist on knowing is how 
they are going to do it in a safe environment. What they asked 
of me was that was I assured that everything was being done to 
protect their safety, and I could say unequivocally, as far as 
my firsthand knowledge was, that the Postal Service has been 
doing everything humanly possible to protect the interest of 
not only the Postal employees, but the American public, as 
well.
    And so as the letter carriers all over this Nation and 
particularly in those areas where anthrax has been introduced 
into the work stream, they are delivering their mail every day 
and serving the American public.
    And if I may make a comment, because I heard some of the 
questions sitting here listening to the Postmaster General's 
testimony about this attack on America, attack on us, just last 
week, I had the privilege of meeting with the President of the 
United States with the Postmaster General to speak about this 
issue and he identified this is a war on two fronts, a war, 
one, being fought in Afghanistan by young men and women of our 
Nation, our Nation's military, and a war that will be fought on 
our shores here, and there is a new army with different 
uniforms and here is one of them that is wearing that uniform. 
And then he asked me to convey a message to all of the members 
of our union, that he is depending on us not to be intimidated 
by these terrorists that wish to upset our Nation and 
intimidate and coerce our Nation.
    One of the things that occurred to me was that this was not 
a random selection of picking the Postal Service as a target. 
The Postal Service is an institution that exemplifies and both 
characterizes those things that Americans fundamentally respect 
as citizens of this Nation and that is our freedom. That is our 
ability to converse, to communicate, to travel freely and to 
interact with other citizens freely. There is no institution in 
this Nation that has the same kind of responsibility as the 
Postal Service has.
    When one thinks about it, you can go to any mail 
receptacle, any mail collection box in this country. Any 
citizen or non-citizen can deposit a letter. All it needs is an 
address. It does not even have to have your return address on 
it. You can do that with the absolute assurance that that 
letter will not be tampered with, that no one will examine it, 
no one will read it, no one will look into it until it gets to 
its final destination. That is a form of liberty that people 
understand, and when they attack that type of liberty, they 
attack the actual foundation of our whole culture. But our 
Founding Fathers said that this has to be a free and open 
society.
    And so when letter carriers such as Tony DiStephano here go 
about their business every day and deliver the mail, they are 
carrying out that part of freedom that we cherish so much in 
this Nation and we cannot allow this Postal Service to be 
intimidated. It must continue. It must get the type of help 
that it needs from our representatives in Congress so that we 
can show anyone that wishes to declare war on the United 
States, you can declare war, but every one of its citizens 
rally to the flag and rally to the tradition of defending our 
freedom and our liberty.
    I want to thank this Committee for holding these hearings 
because it is of vital importance. I go back to my members with 
the assurance that we are doing everything humanly possible to 
protect their safety and their health and certainly their 
freedom and their liberty.
    Chairman Lieberman. Thanks, Mr. Sombrotto. Very well said, 
and I thank you for that statement.
    Mr. DiStephano, we would be delighted to hear from you now.
    Mr. DiStephano. Thank you, Mr. Chairman. My name is Tony 
DiStephano, Jr. I am a working letter carrier currently at the 
Hamilton facility located in Trenton, New Jersey. I am also 
President of Branch 380 of the National Association of Letter 
Carriers. Our branch has 542 members, both active and retired.
    After our facility was closed on Thursday, October 18, we 
continued to sort and deliver the mail in a makeshift worksite 
in the parking lot behind the facility. Currently, all craft 
employees are working together under a tent that has been set 
up at the location so we can process and move the mail. I am 
happy and proud to say that all craft employees have pitched in 
to make sure that the mail is being delivered in a timely 
manner, despite somewhat the hectic circumstances.
    Mr. Chairman, it is my pleasure to be here today to share 
with you the manner in which our letter carriers and other 
Postal employees responded during this time. I will be happy to 
answer any questions you may have. Thank you, sir.
    Chairman Lieberman. Thanks, Mr. DiStephano. Thanks for what 
you have done and I hope you will convey back to your members 
and through them to all of the people that work for the Postal 
Service--I say the same to you, Ms. Manley--our gratitude and 
our intention to do everything we can to protect the vital 
service you do for us. I appreciate you being here.
    Mr. DiStephano. Thank you.
    Chairman Lieberman. Bill Quinn is the President of the 
National Postal Mail Handlers Union.

TESTIMONY OF WILLIAM H. QUINN,\1\ NATIONAL PRESIDENT, NATIONAL 
                   POSTAL MAIL HANDLERS UNION

    Mr. Quinn. Mr. Chairman and distinguished Members of the 
Committee, my name is Billy Quinn. I am the National President 
of the National Postal Mail Handlers Union. On behalf of the 
over 50,000 union mail handlers employed by the U.S. Postal 
Service, I appreciate the opportunity to testify about the 
challenges of safety and security that currently are being 
faced by the Postal Service and our Postal employees.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Quinn appears in the Appendix on 
page 146.
---------------------------------------------------------------------------
    The mail handlers we represent are an essential part of the 
mail processing and distribution network utilized by the Postal 
Service to move more than 200 billion pieces of mail each year. 
Mail handlers work in all of the Nation's large Postal plants 
and are responsible for loading and unloading trucks, 
transporting mail within the facility, preparing the mail for 
distribution and delivery, operating a host of machinery and 
automated equipment, and containerizing mail for subsequent 
delivery. Our members are generally the first and last 
employees to handle the mail as it comes to, goes through, and 
leaves most Postal plants.
    Our paramount concern is the safety of Postal employees, 
including all mail handlers. To this end, we have been active 
participants in the Mail Security Task Force that has been 
established by Postal management and includes representatives 
of all unions and employee associations.
    That task force is implementing plans to prevent infection 
by anthrax or other biological agents that may be sent through 
the mails. Among other issues, the task force is addressing the 
need to close affected facilities until they can be certified 
as safe for all employees, the distribution of necessary 
antibiotics to Postal employees, the distribution and use of 
masks and gloves that may be helpful in preventing anthrax 
infections, the development and delivery of safety training 
programs, and the development of revised cleaning methods for 
mail processing equipment. The task force also is looking to 
the future and is considering a host of issues, such as anthrax 
vaccines and irradiation of the mail.
    I must say, however, that the task force is having great 
difficulty keeping up with the news and information cycle that 
has developed around the anthrax issue, and even when the task 
force has current and accurate information, the timely 
dissemination of that information to more than 800,000 Postal 
employees and thousands of Postal facilities is extremely 
difficult. This problem is exacerbated by the confusing and 
often contradictory information that is coming out of Postal 
headquarters, the Centers for Disease Control, and State and 
local health authorities.
    I just returned from a meeting of all our local union 
officers and representatives. After a lengthy discussion of the 
various safety and medical issues facing mail handlers, our 
local leadership was fully informed with as much accurate 
information as possible. Even with this information, however, 
these representatives remain anxious. Certainly they know that 
mail handlers must exercise caution while processing the mail, 
but they are less certain about precisely what to tell their 
members about the specific steps mail handlers should take to 
ensure their own safety. On the workroom floor, there is even 
more anxiety because members have even less access to accurate 
information.
    The key, therefore, is the timely dissemination of accurate 
safety and medical information. That should be the focus of the 
task force and that must be the focus of Postal management, the 
CDC, and State and local health officials. What is needed now 
is the constant dissemination of accurate and, to the maximum 
extent possible, consistent safety and medical information to 
all Postal employees. Mail handlers and other Postal employees 
deserve the best available scientific protection against this 
bioterrorism. Through science and reason, we can overcome rumor 
and fear. In that regard, the most important action Congress 
can take is to appropriate all of the funds necessary for the 
Postal Service to process mail safely without harm to 
employees.
    It is unfortunate that it takes an incident such as this to 
make people aware of the hazards of working in Postal 
facilities. Ten years ago, it was the threat of AIDS from 
needles and blood spills coming from medical waste in poorly 
constructed packaging in the Postal System. With the help of 
Congressional oversight, that problem has largely been 
eliminated. Yet, our members still face hazardous working 
conditions. All of the Postal unions have written to Congress, 
have testified about the need for protection from dangerous 
equipment and terrible ergonomic injuries.
    We, therefore, need to take this tragedy and turn it into a 
positive movement for workers' safety. This is a unique moment 
when American citizens have again been made aware of the great 
importance that the Postal Service serves in our Nation's 
communications network. They will rally behind a sustained 
movement to make the Postal workplace safe for its employees 
and a source of confidence for its customers. To do any less 
would be to fail in our commitment to the future integrity of 
the U.S. Postal System.
    I want to thank you and I will be glad to answer any 
questions that you may have.
    Chairman Lieberman. Thank you very much, Mr. Quinn. Mr. 
Baffa, thanks for being here.

  TESTIMONY OF GUS BAFFA,\1\ PRESIDENT, NATIONAL RURAL LETTER 
                  CARRIERS ASSOCIATION (NRLCA)

    Mr. Baffa. Good morning. Mr. Chairman, I submitted my 
statement and I request that it be made part of the record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baffa appears in the Appendix on 
page 151.
---------------------------------------------------------------------------
    Chairman Lieberman. It will be printed in the record in 
full, along with the other statements submitted.
    Mr. Baffa. I have a short statement.
    Chairman Lieberman. Please proceed.
    Mr. Baffa. Mr. Chairman and Members of the Committee, my 
name is Gus Baffa. I am the newly-elected President of the 
100,000-plus National Rural Letter Carriers Association and I 
want to thank you, first of all, for holding these hearings.
    The Postal Service has attempted to do its very best during 
this crisis. There is no playbook to follow. This is a road 
none of us have traveled down before. It does not matter if we 
are referring to a rural carrier, a city carrier, a clerk, a 
mail handler, the PMG, the FBI, or the CDC. It is new to all of 
us. Postal workers are part of the army of foot soldiers in 
this war against terrorism and back towards normalcy. As our 
President said, we must continue life as normal. Our members 
are doing that every day. They are reporting to work, casing 
the mail, putting it in our vehicles, and delivering it.
    Sure, some are very worried. As a Kentucky rural carrier 
said in a National Public Radio interview, when asked if 
anything had changed, he replied, ``Sure. Now when I go home 
every day, instead of picking up my 3-year-old daughter who is 
waiting to give me a welcome kiss with her arms outstretched, I 
need to take a shower first.''
    At this time of extreme anxiety, Postmaster General Potter 
and Postal employees across the country have stepped up to the 
plate to ensure continued delivery of our Nation's mail. It is 
now time for Congress to step up to the plate by appropriating 
the necessary funds to ensure safe and ongoing mail delivery.
    Mr. Chairman, we are grateful to the White House and the 
Congress for the $175 million as a short-term carry-over for 
November. We also appreciate the $63 million that has been sent 
to the Postal Service for the destruction of the Church Street 
Station in New York City. However, we desperately need 
additional appropriation assistance with the enormous costs of 
sanitizing the mail and the significant revenue losses 
associated with this disruption.
    A high-level task force consisting of Postal Service 
headquarters, officers, the presidents of the seven employee 
organizations and unions, the Chief Postal Inspector, the 
Inspector General, and the CDC have been meeting daily. I am 
part of those meetings on a daily basis. These meetings bring 
concerns and questions from our membership to management and 
the CDC. It is management's opportunity to share the latest 
actions with us so that we may disseminate them to our members. 
It is a vital communication in this period of uncertainty.
    These meetings are where we learned that the Postal Service 
had purchased the face masks and the gloves for the employees. 
They have also, the Postal Service, consulted with the 
Department of Defense and are purchasing, as heard earlier this 
morning, the irradiation equipment to kill any and all 
biological agents.
    This war effort will not be cheap or completed without 
sacrifice. The Postal Service needs an appropriation for the 
long-term sanitation of the mail to protect employees and 
customers alike.
    Again, we want to thank you for the opportunity to speak 
this morning, and if you all have any questions, I am ready to 
answer.
    Chairman Lieberman. Thanks, Mr. Baffa.
    I thank you all for your testimony. As I hear most of you, 
what I hear is not criticism of the Postal Service's conduct in 
this matter, and that may not, in fact, be different from what 
we were hearing certainly from employees at Brentwood, but the 
mood of it is certainly different and I just want you to talk 
about it.
    I remember seeing an article in the Washington Post where a 
man, who I think was a driver at Brentwood, said that once it 
was known that there was anthrax in the letter sent to Senator 
Daschle's office, in the Postal Service, everybody knew or 
should have known that that would have come through the 
Brentwood facility and I do not know if it was done. I remember 
he used a word which really struck me when he said they had 
treated us as if we are expendable.
    I wonder if you would react to that. Do you feel that maybe 
the Postal Service, as I have heard you say, did as much as it 
could do based on the information it was getting? Mr. Burrus, 
do you want to respond to that?
    Mr. Burrus. Yes, Mr. Chairman. The position of the national 
union is we have done everything possible to avoid placing 
blame. That has not been easy because a lot of our members and 
some of our local leaders are seeking to place blame. So we 
have tried to walk that fine tightrope of not focusing on 
whether the CDC or the U.S. Postal Service played any role in 
the death of those two individuals and focus the attention of 
our members on the terrorists.
    And my message to our members has been that--I have a 
teleconference every Friday. Last week, we had 500 different 
sites that were clued in to the teleconference, probably 
reaching 10,000 to 20,000 of our members, and I would expect 
that the one this Friday will reach even more. And as I 
received those inquiries from our members, it is when is my 
national union going to blame someone?
    I tried to share with them that our responsibility has 
moved beyond the blame. We have to provide safety for you. And 
once we place blame and we do in unison point our finger at 
someone, we are no closer to providing safety as we were before 
we began that exercise. So I have attempted to focus the 
attention of our members on the terrorists themselves as well 
as trying to develop safe conditions for them.
    We are going to mourn our brothers. We are going to set 
aside the week of November 12 through 16 as a week in their 
honor, request donations from our members and our locals that 
we can give to the families, and we are going to say to America 
that Postal employees are heroes, too, and we are going to 
bring that message through that week in honor of our fallen 
brothers.
    But our message has been consistent. Even though we have 
had consistent adversarial relationships with the Postal 
Service, and you can detect that in my statement, we have been 
in this together. I have avoided the media as much as I can, 
understanding that we would best be served with a single 
spokesperson, the Postmaster General. It was not an APWU versus 
the USPS fight, it is the Postal community's fight.
    So I have tried to avoid the media. I have done some spots, 
but tried to defer all the attention to the head of this 
organization, who is the Postmaster General, and by doing that, 
I think I have been able to quell some of the concern of our 
members, and there is a desire to place blame. We represent 
almost 400,000 Postal employees and they want somebody's scalp, 
many of them do. And hopefully, I have deflected that anger.
    Chairman Lieberman. Do any other members of the panel want 
to respond to that question? Mr. Sombrotto, if I remember 
correctly, you said in your testimony that you thought the 
Postal Service had done or was doing everything humanly 
possible to protect the interests of the Postal workers.
    Mr. Sombrotto. Yes, and there is no question about that. 
If, I, for one moment thought that they were not doing 
everything humanly possible, I would have been in my attack 
mode. I have spent my whole career, over 50 years in the Postal 
Service, attacking Postal management and I found myself in the 
unusual circumstance because of their actions, because of the 
Postmaster General's concern. He said that he is concerned with 
the safety of the Postal employees that are employed by the 
Postal Service, said he was going to do everything possible 
with our help.
    And so working in conjunction with, as you have heard, the 
various organization heads, we have tried to develop strategies 
that would best protect the safety of our members and his 
employees and, of course, the American public, as well----
    Chairman Lieberman. Right.
    Mr. Sombrotto [continuing]. Because we have to serve that 
American public and they have to have confidence that what we 
are doing is safe and secure for them as well as for us. And so 
in that sense, he has done a remarkable job and I feel very 
secure in telling our members that we are doing everything 
possible to protect their health and safety.
    Chairman Lieberman. Ms. Manley or Mr. DiStephano, do you 
want to add anything to that? I know at Brentwood particularly, 
people have been understandably feeling agitated and some are 
certainly being quoted in the media as feeling that not enough 
was done quickly enough to protect the workers.
    Ms. Manley. As I have sat here through this morning and 
listened to the Postmaster General, I have a better 
understanding of the situation as it was earlier. It is 
unfortunate that my fellow coworkers were not aware of 
everything that has been done or being possibly done because 
that information is not being assimilated to the workroom 
floor. It is unfortunate.
    Hopefully, I will be able to go back to Brentwood and tell 
my coworkers that this is a new day, a new situation, and we 
are still a Postal family. The Postmaster General is doing 
everything humanly possible that he can do with the help that 
he is getting from wherever he is getting it from. We just have 
to be patient, work together, and continue to get our mail out 
as quickly and adequately as we can.
    Chairman Lieberman. Thanks. Mr. DiStephano, do you want to 
add anything?
    Mr. Distephano. Yes, Mr. Chairman. I just think the 
experience that I just went through in Trenton, New Jersey, I 
think our biggest detriment was the great deal of uncertainty 
of the higher officials, the people that we depend on to get 
accurate information, and I hope today, exchanging this 
information, that possibly it will avoid confusion in the 
future and we can have a set outline, so to speak, so then we 
could just go to the book and say, this is the protocol and 
everybody is on the same page, and that is very, very 
important, because we got into a situation where it is like 
gridlock. One agency is saying one thing. Another agency is 
saying another thing.
    So I think if we can be constructive today and basically 
come up with an outline, I think we will be far better off in 
the future. Like you said, we have the safety at hand and 
people's livelihoods, so if we can do that today, I think we 
will be better off in the future. Thank you, sir.
    Chairman Lieberman. Thank you. I must say, I admire your 
cohesiveness. I know that everybody at the table at one time or 
another has not hesitated to take on the Postal Service and do 
it quite directly. So the fact that you are not here means you 
have come to the conclusion that they do not deserve it and 
that there is a higher purpose here, which is typical, I think, 
of the kind of unity that we have felt around the country since 
September 11 and I admire you greatly for it.
    I do want to say, if it is any comfort, and maybe it is 
not, that here on Capitol Hill as we look back after the letter 
to Senator Daschle's office, we feel--certainly I do, I will 
speak for myself--that the information and the advice we were 
getting was also confusing, contradictory, often incomplete, 
and changing as this went on, and maybe that is part of the sad 
story here.
    Senator Voinovich.
    Senator Voinovich. Mr. Chairman, I first of all want to 
thank all of you for being here today and I want to thank you 
for your sacrifice and for your service and for your courage. I 
agree with the President that you are our new soldiers on the 
front line. Just as we have tried to provide them with the 
equipment and training and other things that they need to serve 
our country, we have an obligation to you to do the same thing.
    I was interested that Mr. Quinn commented that he felt that 
you were getting the kind of participation that you want in 
terms of the recommendations coming back from the Postal 
Service about what it is that needs to be done to secure your 
well-being and to protect the public. Are you satisfied that 
you are getting the participation that you need so that we get 
the best recommendations rather than some outside group coming 
in and saying, this is the way we think it ought to be done?
    Mr. Burrus. If you start in the same order, I guess I would 
be first. For the American Postal Workers Union, we are 
certainly convinced that we are being permitted to participate 
fully. We participate in the meeting at 10 o'clock every 
morning. We have major input. We are listened to. Many of our 
suggestions are enacted. We are sharing information about 
ongoing activities within the Postal Service, giving a 
scorecard as to the employees that are hospitalized and the 
differences between the infections of the employees. So we are 
very well satisfied with the involvement of the unions in the 
sharing of information and having the opportunity to have input 
into policy.
    Senator Voinovich. Mr. Sombrotto.
    Mr. Sombrotto. If I may, I mentioned earlier that I visited 
both the Brentwood facility and I visited Trenton and spoke 
firsthand to about 200 carriers in each facility. I did that 
with a great deal of trepidation. You go there and I expected 
that I would be inundated with complaints about numerous 
things, particularly in view of the fact that it looked and 
certainly appeared that those represented on Capitol Hill were 
getting faster and better treatment than letter carriers and 
other Postal employees in these facilities.
    And I must say, it amazes me to this moment that group of 
men and women that usually have complaints--there is never an 
end to the complaints that they have--I received not one 
complaint by any one of those individuals that were in those 
parking lots. Were they concerned about their safety? You bet 
they are. Were there anxieties? You bet there were.
    What they needed was assurance that we are doing everything 
possible to protect their interests, and as I said, I can say 
it with a firm knowledge that we are doing everything that is 
possible. The Postal Service is doing everything that is 
possible. Together, all of us are doing everything that is 
possible to protect their interests and we are going to 
continue to do that. And so if that is what is necessary----
    Senator Voinovich. You believe that you are getting the 
participation that you need?
    Mr. Sombrotto. Oh, sure.
    Senator Voinovich. And everybody else? Mr. Baffa.
    Mr. Baffa. Absolutely.
    Senator Voinovich. Mr. Quinn.
    Mr. Quinn. Yes.
    Senator Voinovich. Mr. DiStephano.
    Mr. DiStephano. Yes, sir. I would just like to reiterate a 
smaller note.
    Mr. Sombrotto. You notice what I said? You can never keep 
these guys quiet. [Laughter.]
    Mr. DiStephano. But we are getting the information 
disseminated down, I guess, from the higher-ups and it is 
reaching us and we are learning on a day-to-day basis how to 
learn with the issues and, so to speak, we are writing the 
book. So I am satisfied that everyone is trying to do their 
best to ensure our safety and taking the precautions----
    Senator Voinovich. I agree with Senator Lieberman that our 
information and communications were just as bad as yours. As I 
mentioned earlier, my people were told, you do not have 
anything to worry about in the Hart Building. You do not have 
to have your nose swabbed. This is garden variety stuff. Do not 
worry about it.
    So the next day, they read in the paper this is the high-
grade stuff, you ought to have your swab, and it makes the 
Senator who is working with these people look like he does not 
care about them, and I know, and I am sure some of the other 
Senators gathered their people together and apologized to them 
and said we were basing our decision on the information that 
was given to us and it was erroneous, and then we had everybody 
swabbed and then we closed the building and the rest of it.
    I know my time is up, but what are your thoughts about 
whether communications improved substantially and how it could 
be made even better so that your members are more comforted 
that they are getting accurate and consistent information?
    Mr. Sombrotto. Well, as an illustration, we all got 
together with the Postmaster General. We made a film about what 
was happening and it was sent out. The moment we made it, it 
had--you talk about built-in obsolescence--it already was--this 
situation is so fluid and so dynamic that it changed, so we had 
to make another film, which has been distributed and shown in 
post offices throughout the Nation.
    And so in that respect, we are trying, using every mode of 
communication, individually, together in our own organizations. 
We have sent out bulletins and we are doing it in conjunction 
with the Postal Service, as well.
    Mr. Burrus. Let me not leave the wrong impression, though, 
regarding cooperation. While our interaction at the 
headquarters level has been excellent and we have shared almost 
every bit of information with one another and have done a lot 
of things together, however, the Postal Service is a large 
bureaucracy. There are 38,000 facilities. In many of those 
facilities, there is not the interaction that we are enjoying 
here at the headquarters level.
    Senator Voinovich. I noticed you were present at the 
Cleveland Post Office.
    Mr. Burrus. Yes. I was going to mention that, since we both 
have Cleveland in our backgrounds, 1974 to 1980.
    Senator Voinovich. Are you now here in Washington, then?
    Mr. Burrus. I am the National President of APWU----
    Senator Voinovich. You are stationed here?
    Mr. Burrus [continuing]. Effective November 10, yes.
    Senator Voinovich. But, back in Cleveland, you were just 
mentioning, is the communication as good there as it is up 
here?
    Mr. Burrus. No, it is not as good in Cleveland as it is at 
the headquarters level. I have set up an internal system where 
they can bring those disagreements that they have at the local 
level through, that we can resolve them at an intermediate 
level or, if necessary, here at the headquarters level. But I 
am in constant contact with my representatives throughout the 
country, and many of them, since we have had such an 
adversarial relationship over the years, many of the parties 
have not found a way, even with this crisis, to find a way to 
communicate with one another, so that is an ongoing struggle, 
and this is life and death so it is essential.
    We have been trying to send the message out from here, and 
that is one of the reasons I have deferred to the Postmaster 
General in some respects, because we have got to send a unified 
message and not continue that friction that exists among our 
representatives at the other levels.
    Senator Voinovich. Well, maybe you can use this as an 
opportunity to come together and develop some kind of better 
understanding.
    Mr. Burrus. Well, they have got to sign a contract to do 
that.
    Chairman Lieberman. Mr. Burrus, we welcome you to your new 
leadership position. If I am not mistaken, the young man that 
you are succeeding is in the room here, is that correct? Would 
you want to note that?
    Mr. Burrus. Yes, he is, Moe Biller, who has spent a 
lifetime as a champion of working people and the citizens of 
this country. I have served with him for 21 years as the 
executive vice president in the Biller administration. He has 
now decided that he will retire. I have offered that he could 
extend his term by another 6 months or a year until anthrax is 
past us. He has graciously declined and turned it over to me. 
[Laughter.]
    Mr. Burrus. But Moe has had a charmed life. He has been a 
symbol for our union. We named our building after him, and he 
is present in the room, my president forever, Moe Biller.
    Chairman Lieberman. Thanks, Mr. Burrus. I appreciate it and 
am moved by that tribute. It is great to see that transition 
occurring with that kind of closeness.
    I told Moe when I first came to town that I had a 
recollection some years ago of reading about this stirring, 
tumultuous labor leader who took the Postal workers out on 
strike at one point, and I do not even know what year that was, 
but----
    Mr. Biller. It was 1970.
    Chairman Lieberman. Nineteen-seventy. I will not tell you 
how old I was then, Moe. Anyway, I wanted to note that for the 
record and also to wish you all the best as you assume this 
important leadership position at this difficult time.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to thank our distinguished witnesses for being here 
today and know that you represent the hundreds of thousands of 
Postal employees throughout the Nation. You are here because 
you care about the safety and health of all of the employees.
    I am also pleased that we have the representatives from 
Brentwood and West Trenton post offices who shared their 
experiences with us today.
    I know that our effort in the Committee is to hear you and 
to try to help you and the Postal Service to find the best way 
to protect the safety and health of all Postal employees. I ask 
this question to the four union leaders who are here for 
responses.
    The Postal Service is proposing the use of electron beam 
technology to sanitize the mail. This equipment will be 
operated and serviced by trained technicians from the 
manufacturers. Although Postal employees will not operate and 
service the equipment, your members may have concerns that the 
sanitizing equipment poses an equal or greater health risk than 
exposure to anthrax spores.
    So my question is, are you concerned about the health risks 
to Postal workers who will be in close proximity to the 
sanitizing equipment, and have you had an opportunity to 
discuss the use of this equipment with the Postal Service, 
public health officials, and manufacturers of the equipment? 
Let us start with Mr. Burrus.
    Mr. Burrus. Yes. I have had my safety specialist do some 
limited research on the technology that is under consideration 
to be used in Postal facilities and it is my understanding that 
the mail that will be sanitized will be conveyed into the room 
where the process will occur through a conveyor system. So it 
will not be a matter of an employee being exposed to the gamma 
rays or whatever technology is being used. It will be just 
pushing the button. The mail and conveyors will go into a room, 
sit for the prescribed period of time, come out the other end 
clean.
    So I do not expect, and when we had our first meeting, we 
were talking about equipment that would irradiate the mail. I 
think they have moved beyond that now. I think they have gone 
to a different type of technology. But I must await and see 
what they finally settle on and determine what the risk 
exposure may be. But my understanding at this point is the way 
it will be constructed, there will be no interaction between 
the employees and the electronic rays, so it will not pose a 
risk to our people.
    And more than likely, the mail handler craft, Billy Quinn's 
people, will probably be the ones involved in taking it in and 
taking it out. But our people are the processors and they are 
the ones that will access that mail on the other side of the 
room.
    Senator Akaka. Mr. Quinn.
    Mr. Quinn. Well, that is the first time the APWU has ever 
said any work is ours. Thanks, Bill. [Laughter.]
    Mr. Burrus. A little jurisdictional----
    Mr. Quinn. Well, certainly with the great deal of scrutiny 
this issue has been given, I fervently hope and pray that 
safeguards will be put in place. I am confident that with the 
Postal authorities, with the CDC, I would assume OSHA involved 
and any other entity who will be involved that they will take 
every step to ensure that Postal employees involved in this 
process will be fully protected. Obviously, it would be nothing 
short of inane to take some action to avoid anthrax and cause a 
problem that could conceivably be far more harmful. So it is 
something that I realize is in the embryonic stages, but I am 
confident that everybody will be contributing their input and 
that the processing will be safe for the employees involved.
    Senator Akaka. Mr. Sombrotto, do you have any comment?
    Mr. Sombrotto. We do not handle mail of that sort, and 
having heard about the dangers here, I am very happy about 
that, as well. I am sure whatever they put in, it is going to 
be safe. They will have to ensure the safety of the employees.
    Senator Akaka. Mr. Baffa, would you have a comment?
    Mr. Baffa. The same as Mr. Sombrotto said. Our people 
really will not be handling that type of mail. But again, I 
feel sure that all precautions will be taken.
    Senator Akaka. Thank you very much. We hope that it works 
out well.
    Ms. Manley, do the employees at the Brentwood facility feel 
they are receiving accurate and up-to-date information? After 
all, only yesterday, public health officials were advising 
Postal workers to take 60 days of antibiotics rather than the 
initial 10 days. How does such information reach you?
    Ms. Manley. Let me explain one major factor right here. The 
people in Brentwood are scattered in various other Postal 
facilities right now since ours is closed. So in order for us 
to get the information, we are either getting it from the 
managers from that facility or the news.
    And as far as taking the extra pills, well, we realize that 
it must be done to protect our safety and I understand, because 
I went and got mine last night, they have changed it and it is 
not as strong as the original one. We are able to drink a 
little more caffeine or whatever they said we could not do the 
first time, we can do now. But this is how the information is 
getting to us, through the news media or through the other 
managers at the other facilities where we are located.
    Senator Akaka. I know my time is up, but let me finish with 
Mr. DiStephano. As the President of your union testified, there 
are letter carriers casing mail in tents next to buildings 
because the building is closed.
    Mr. DiStephano. Yes.
    Senator Akaka. That must be quite stressful. How are you 
and your colleagues coping with the stress and is the Postal 
Service providing appropriate counseling support and adequate 
information to its craft employees?
    Mr. DiStephano. Yes. We have currently in place the EAP 
program and it was offered to us right at the outset of this 
whole situation. So they have been supportive and there were 
several people that came down to offer their services, so that 
is a resource that we have to tap if we have to.
    But to make a comment, I am very proud of the courage and 
the dedication of the letter carriers, my members. They deliver 
the Nation's mail on a day-to-day basis. Like Mr. Sombrotto has 
stated, the complaints are practically remote. There are some 
concerns. There is always a heightened sense of awareness. But 
all I can say is they come in to work and I think that the 
rolls as far as sick leave have improved. They are coming out 
and doing the job.
    They are not going to alter our lifestyle, these 
terrorists, and I am very proud of these men and women and so 
America should be very proud of them. Like I said, they are not 
complaining. They are delivering the mail, and some people are 
choosing to use the gloves and the masks and some are not. So 
with that, I would just like to congratulate the people that 
deliver the Nation's mail.
    Senator Akaka. Thank you. Mr. Chairman, I have another 
question.
    Chairman Lieberman. Go right ahead, Senator.
    Senator Akaka. Mr. Burrus. I have seen commentary in the 
newspapers to the effect that Postal workers have not been 
given as much protection as they should have received. Of great 
concern to me was the suggestion that there was a racial 
component to this problem. Would you care to comment on that?
    Mr. Burrus. Yes. It is one of the negatives of the media. 
They portray an image, and often that portrayal has a 
byproduct.
    The recent anthrax circumstances have portrayed Brentwood 
and the employees that work at Brentwood, and I have heard 
several news analysts make references to the racial identity of 
the images on the screen, that they were African Americans. 
Over 70 percent of my bargaining unit is Caucasian. They are 
not African Americans.
    It is giving the image that all of the Postal Service is 
staffed by African American individuals, citizens of this 
country, and it is just a--it is an incorrect image. We have 
every nationality that exists in this country, 800,000 
employees, and in my bargaining unit, almost 400,000 employees. 
But the vast majority of my bargaining unit are Caucasians and 
the minority is African Americans, principally in the urban 
areas of the country where they become Postal employees. But we 
reflect America.
    Senator Akaka. Thank you. I have other questions, but go 
ahead.
    Chairman Lieberman. Thanks, Senator Akaka. Let me just say 
for the record how good it has been, as always, to work with 
you and your staff on this hearing.
    Senator Carper.
    Senator Carper. Thank you, Mr. Chairman. We are almost 45 
minutes into our weekly Democratic and Republican caucus 
meetings, so I am going to be real brief so that we can go join 
our colleagues for at least a portion of that.
    Before we go, though, I just want to say how much I 
appreciate the statesmanship that each of you have demonstrated 
here today and in the preceding days. These are tough times for 
all of us. I know these are especially tough times for you and 
the people that you represent. As you leave here today, I just 
want you to know that I am real proud of you and my guess is 
that the men and women you represent and their families are, as 
well. Thank you for doing the right thing by them and thank you 
for doing the right thing by our country.
    Mr. Burrus, I understand you are just about to assume the 
mantle of leadership from one of the giants in the Postal 
Service.
    Mr. Burrus. Yes.
    Senator Carper. I want to salute him as he prepares to head 
on. In the Navy, we used to say fair winds and a following sea, 
and we wish you well, Moe. To Mr. Burrus, we very much look 
forward to working with you and I congratulate you on the 
confidence that your membership has shown in your election.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Very well said, Senator Carper. I thank 
you for making that statement.
    I thank all the witnesses. This has been a very important 
and informative hearing, both to hear from the Postmaster 
General on the first panel about how he made the decisions he 
made and why and what the basis of the information was, and 
then to hear from you who are living this and representing the 
people who live it about your general feeling that the Postal 
Service and the Postmaster General did about as much as they 
could do as quickly as they could based on the information they 
had at the time.
    You have affected my opinion about this, because I have 
been reading in the media and this is a case where I came to 
the hearing with an open mind, did not know what I would be 
hearing, and your attitude, because you are living it every 
day, has informed me and I appreciate the way you approach this 
because you are obviously saying what you believe based on your 
experience. That is part of what it means to be a fact finder 
on a Committee like this.
    It does seem to lead directly to tomorrow's hearing, when 
we will have as witnesses public health experts, the people 
that the Postmaster General was turning to, at least some of 
them, for the information that he needed to make the judgments 
that he made, and then we will have some outside public health 
experts who will comment on how that happened and the hearing 
will actually begin with two of our colleagues who have 
expressed a special interest in testifying on this and have 
special concerns. That is Senator Clinton and Senator 
Wellstone.
    So for now, I thank you very much for all that you do for 
us every day. I thank you for the unity that you have shown 
today, which was not reflexive. I know that. Again, to repeat 
what I know about each and every one of you and your unions, 
when you do not like what the Postal Service does, you say it 
and directly and without hesitation.
    So if you come to this conclusion, it impresses me that you 
are all working together, and that is not only important on the 
substance of the decisions made, but it reflects again what I 
have said, that on September 11 we saw the worst of human 
nature. Since then in America, I think we have seen the best, 
and part of the best is the unity that is ultimately our 
greatest strength and that unity hopefully moves us to a 
position where we will not give way to the fear that the 
terrorists are trying to inflict on us.
    So what you have all said, what the Postal workers who are 
here have said and what you reflect from your membership, they 
are coming to work every day and they will be damned if they 
are going to let a bunch of terrorists stop them from 
delivering the United States mail. We cannot ever thank you 
enough for that.
    God bless you. Thank you for being here today, and the 
hearing is adjourned.
    [Whereupon, at 1:11 p.m., the Committee was adjourned.]








  TERRORISM THROUGH THE MAIL: PROTECTING POSTAL WORKERS AND THE PUBLIC

                              ----------                              


                      WEDNESDAY, OCTOBER 31, 2001

                                     U.S. Senate,  
                     Committee on Governmental Affairs,    
          and the Subcommittee on International Security,  
                        Proliferation and Federal Services,
                                                    Washington, DC.
    The Committee and Subcommittee met, pursuant to notice, at 
9:40 a.m., in room SD-342, Dirksen Senate Office Building, Hon. 
Joseph I. Lieberman, Chairman of the Committee, and Hon. Daniel 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Lieberman, Akaka, Cleland, Carper, 
Dayton, Thompson, Stevens, Voinovich, and Bennett.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. Good morning. Today the Committee meets 
for its second hearing on Terrorism Through the Mail: 
Protecting the Postal Workers and the Public. We are holding 
these hearings in coordination with the Subcommittee on 
International Security, Proliferation and Federal Services, 
chaired by Senator Daniel Akaka, as the oversight committee for 
the U.S. Postal Service.
    We are here as fact finders, to learn how decisions were 
made at various Federal agencies and how information was 
exchanged between Federal and State agencies in the wake of 
this new insidious form of terror through the mails and terror 
generally. Our goal is to learn what we can do to keep Postal 
workers and the mail they handle and deliver safe and sound.
    Yesterday's hearing I thought was very informative, and in 
fact, valuable in terms of our understanding of how the Postal 
Service responded to the discovery of contaminated mail at mail 
facilities.
    The tragic fact, of course, is that two members of the 
Postal Service family died, both of them employees of the main 
processing facility for the Washington area, Brentwood, through 
which the letter opened in Senator Daschle's office passed. 
Postmaster General Potter testified yesterday as to why he made 
the decisions he did based on the advice he got from public 
health experts, including some of the agencies that are 
represented here today. Union leaders, representing those 
Postal workers closest to the contamination, testified that 
they concluded that the Postmaster and in fact the Postal 
Service did all that they could do as quickly as they could 
with the information they had to work with.
    But I must say that I am left with questions about whether 
the information they received was adequate and why, and wonder 
whether the U.S. Postal Service,should have closed all of its 
facilities that handle government mail after anthrax was 
discovered in the Dirksen mail room on October 18. And I 
understand that we are all learning as we go along here, and 
that is what I want to speak about with some of the public 
health officials, and that the purpose of these hearings is not 
to accuse, but to learn, and to learn in a way that will help 
us do better.
    I just was notified by a member of my staff as I walked 
through the door to remind everyone, unfortunately, about the 
seriousness of what we are dealing with, that apparently the 
hospital worker who has come down with anthrax, not as far as 
we know with any close proximity to the mail, has died this 
morning. And this tragic news perplexes us and gives a special 
sense of urgency to our quest for more information from the 
public health community that is good enough to be with us this 
morning.
    A larger question that this death this morning makes even 
more pressing, that I hope to discuss, is whether our public 
health system is truly prepared to address the unique, and for 
America, unprecedented threats of bioterrorism. We have 
obviously dealt with public health crises before, and with 
infectious diseases before, and while bioterrorist attacks have 
characteristics that are similar to those, they are also 
unique. So we want to ask, do conflicting agency interests lead 
to a breakdown in communication and coordination, and if so, 
how do we overcome those conflicts in order to best serve the 
people whose lives are at stake?
    The various agencies within the Federal Government that 
have responsibility in crises like these need to be reading 
from the same script and speaking with one voice. It certainly 
seems to me that Governor Ridge is the one who must lead and 
drive the vast resources of our Federal Government during this 
unfolding anthrax crisis and prepare us to better meet what may 
be the next germ warfare challenge that is directed against the 
United States.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman. I was not aware 
that the lady in New York had passed away, but I was reading 
this morning from a New York Post article about that case, and 
it just demonstrated again how little we know about what we are 
dealing with. It said that public health officials found 
themselves baffled, and the CDC Director was saying, with 
regard to whether or not there was a linkage to the mail, 
``Your guess is as good as mine.'' And I must say there is a 
lot to be said for candor nowadays, and if there ever was a 
time for modesty among all of us, or humility, now is the time 
with regard to what we do not know. While we have to have 
accountability, I think it is more and more clear that none of 
us really have answers to the questions of what the likely 
source of this bacteria is, what the nature of it is, how 
people are infected by it, what the likelihood of cross-
contamination is, all these questions. We are just going to 
have to get on it and deal with it, and I think we are doing 
that.
    I was impressed, as you were yesterday, with the testimony 
of the Postal authorities and the Postal workers, who are 
carrying on this job and not being intimidated by it, and the 
fact that they are working together. There was a lot of hype 
about acrimony and accusations of racism and all of that in the 
newspaper, but when you talk to the people involved, you learn 
that they are working together. Everything is not perfect, but 
they are working together to try to overcome this, and I 
understand that everybody is trying to do their best.
    But we surprisingly, in many respects, have an awful lot to 
learn about what we are dealing with. Although we pointed out 
yesterday that there have been numerous commissions and 
agencies making reports about biological terrorism in the past, 
I do not think one of them ever mentioned the possibility that 
these weapons could be used through the mail. Looking back on 
it now, it looks like something that would have logically 
happened, but understandably, the professional health people 
and others have been more concerned with the mass spreading of 
biological weapons. As bad as this is, it is nothing compared 
to what could be out there in terms of usage and mass 
contamination.
    The GAO has recommended for some time now that the 
government conduct comprehensive threat and risk assessments, 
and clearly we need those. I think we are beginning to get 
those now. And I am glad today that you brought in some of the 
Nation's leading experts in the areas of infectious diseases 
and biological weapons, so that we can understand these 
subjects a little better. I am glad that we are dealing with 
people who apparently are secure enough to be candid enough to 
tell us what they do not know. I know the CDC office is 
overwhelmed, and we appreciate you being here. And I also 
appreciate the appearance of the public and private health 
officials.
    At our recent hearing on bioterrorism we were told 
repeatedly that training and support of local and private 
health care professionals should be a top priority, so we need 
to do that.
    One minor matter. Mr. Chairman, you are facing the same 
problems that I faced when I was sitting in your chair, and 
that is the witness statements are getting in later and later. 
I came from a breakfast meeting this morning and for the first 
time saw most of the statements we are dealing with here today. 
I know these hearings were hurried up a bit, but it is not just 
these hearings. For some time now our Committee rules have 
become the exception rather than the rule, and it makes it 
meaningless if we cannot have statements in here in time for us 
to look at them. We cannot really have a decent dialog with 
witnesses if we do not know what their statements are. I mean 
the statements on this important hearing today are somewhere in 
my staff's files, and they will remain there until after these 
hearings are over with, and then maybe we will have a chance to 
look at them.
    So I would hope that both staffs would first of all make it 
so that witnesses have time to get these statements in, and 
then really, require them to submit them at least a day ahead 
of time so that those of us who really do want to look and 
think through some of these things, have an opportunity to do 
that. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Thompson. I could not 
agree with you more. Part of the problem, and this is not aimed 
at this administration as compared to earlier ones, it has been 
always so. Anybody in government has to go through a process of 
clearance of statements before they get to us and it takes 
time. And you are absolutely right, it makes it harder for us 
to be as informed as we want to be as we come into these 
hearings.
    Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman, for 
calling this joint hearing.
    I know that our witnesses share many demands on their time, 
and their appearances before this Committee is appreciated.
    At yesterday's hearing I said that the last line of defense 
in a homeland terrorist attack should not be the Congress, nor 
should the first line of defense be the men and women of the 
U.S. Postal Service. You, our public health officials, are our 
health intelligence service when it comes to protecting the 
health and safety of Americans. Just as the terrorist attacks 
on September 11 exposed shortcomings in our Nation's 
intelligence gathering and monitoring capabilities, the 
response to the recent bioterrorism attacks via the mail have 
highlighted areas in our Federal and local public health 
infrastructure which are urgently in need of improvement.
    We are all concerned about the safety of the mail, Postal 
workers and the American public. Our 2-day hearing is reviewing 
the government's response to the criminal use of the mails and 
how this new threat has impacted Postal operations. Today we 
will learn how the public health sector reacted to the spread 
of anthrax through the mail and explore where we need to go 
from here.
    The recent anthrax events underscore the need for new 
detection methods and information-gathering systems. I recently 
introduced two separate but related bills that address the 
crucial issue of our national preparedness for acts of 
bioterrorism. S. 1560, the Biological Agent Environment 
Detection Act, authorizes appropriations totalling $40 million 
to support research and development of technologies to detect 
organisms in the air, water and food that cause disease in 
humans, livestock, and crops. My proposal mirrors the 
President's request of $40 million to support early detection 
surveillance to identify potential bioterrorism agents. As we 
have learned from the events of the past few weeks, there is a 
critical need to increase funding for research and development 
of new technologies to detect the use of biological weapons 
against this Nation.
    My other bill, S. 1561, introduced with Senator 
Rockefeller, authorizes additional funds to develop training 
programs with community health care providers. We need to 
enhance the cooperation between critical elements of our health 
care system included in the National Medical Disaster System. 
These increased funds will support expanded use of existing 
telecommunication systems, implement a telemedicine training 
program for VA staff and their community public health 
counterparts. Remote regions of our Nation need the assurance 
that local public health responders will have the training and 
information they need to protect and treat citizens in 
instances of biological terrorism.
    The Postal Service has safely delivered the Nation's mail 
over 200 years. Prior to last month the Postal Service averaged 
80 anthrax threats a year. Until now there had never been a 
real case of anthrax transmitted through the U.S. mail. The 
Postal Service has never had to deal with toxic contamination 
like this before. Their knowledge of the impact of these 
attacks and their responses reflect the guidance they receive 
from the CDC and other public health officials.
    Mr. Chairman, since September 11, the Postal Service has 
delivered more than 15 billion pieces of mail. The Postal 
Service is working with its employees, who know that they are 
at ground zero of this assault on America. The more than 
800,000 Postal employees deserve our gratitude and our thanks.
    I would also like to acknowledge the tremendous work 
carried out by all the scientists, technicians, public health 
officers, HAZMAT units, environmental remediation specialists, 
and medical personnel, who are responding to these 
unprecedented attacks. We all have to be vigilant. If something 
in the mail makes you suspicious, do not open it. Do not check 
it, bump it or smell it. Wash your hands with soap and water 
and call 911. Law enforcement officials will respond.
    I must tell you last week that happened to me. I received a 
letter, did not know the name, and it was handwritten. I put it 
into a cellophane bag and followed the criteria that is used, 
and I was commended for that. And I got a copy of the letter 
that came to me. And it was from a school, and the school was 
asking me for my photograph. [Laughter.]
    Again, Mr. Chairman, I would like to thank you for 
convening today's hearing and our witnesses for taking the time 
to be with us today. Thank you very much.
    Chairman Lieberman. Thanks, Senator Akaka.
    We thank our two colleagues, who have been especially 
interested in these matters, for being here. Senator Wellstone, 
why do you not go first?

TESTIMONY OF HON. PAUL D. WELLSTONE,\1\ A U.S. SENATOR FROM THE 
                       STATE OF MINNESOTA

    Senator Wellstone. Thank you, Mr. Chairman. You have a full 
schedule, so I will be very brief. Let me thank you and Senator 
Akaka, and Senators Cleland, Dayton, and Thompson for inviting 
me to be here with you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Wellstone appears in the 
Appendix on page 157.
---------------------------------------------------------------------------
    I wanted to say to Senator Thompson, listening to him 
speak, that sometimes we do not want to know what we do not 
know, and I think that is part of what we have to deal with as 
well.
    I commend you for holding the hearings. As chair of the 
Subcommittee on Employment, Safety and Training, I am concerned 
about the adequacy of workplace safety measures being taken to 
protect the well being of Postal workers, and indeed the public 
as a whole, as we face these recent anthrax attacks. This 
hearing could not come at a more important time.
    Earlier this week Senator Dayton and I hosted several 
meetings in Minnesota with Postal workers, managers and State 
public health officials about issues and concerns in the face 
of the recent anthrax attacks, I have to say, Mr. Chairman, 
that this may be gratuitous, but I would recommend--Mark and I 
were talking about this--that everybody do this back home. It 
is incredible. The Postal workers just were so pleased. I would 
have thought it was a given. They were just so pleased that we 
wanted to meet with them. That is the way they feel right now, 
and you learn an awful lot from people who really understand 
these issues because they are right there at the workplace, so 
I would recommend that.
    I want to share these concerns with you and hope that the 
Committee can address them. I also believe that our current 
response to the anthrax attack to the mail system presents a 
microcosm of workplace health and safety concerns about 
adequate responses to acts of bioterrorism or threatened acts 
of bioterrorism in general. So again, what you are doing here 
today is extremely important.
    The workers that Senator Dayton and I met with are in a 
very stressful situation. Indeed, they are the front-line 
soldiers in dealing with this latest act of terrorism. I think 
we all know that. They are shouldering their responsibilities 
proudly, and despite their fears, they are getting up every day 
to serve their country and the public by processing and 
delivering the mail. We, as a Nation, should be very grateful 
to them for that.
    Here are some of the concerns that we heard at the hearing 
that I want to share with you. Medical and testing protocols. 
In Minnesota there appears to be confusion about who should be 
tested for possible exposure to anthrax, who should do that 
testing, who should pay for that testing, and when particular 
work places should be tested. When a worker encounters a 
substance that looks suspicious, that worker either wants to be 
tested or wants the substance to be tested. That is totally 
understandable. I recognize that there are a large number of 
false alarms, and I am told that since September 11 there have 
been at least 5,400 anthrax threats. But there are also reports 
of new ``hot spots'' every day. I would urge that protocols 
developed by the Postal Service, in consultation with the 
Centers for Disease Control, take into account the human and 
psychological toll on these public servants who are under 
incredible stress. We need to do whatever we can, reasonably, 
to ease their fears.
    Second, communications. Related to the above concerns, we 
also heard that there was confusion about protocols and 
practices. Sometimes workers received different answers to the 
same questions. Sometimes they felt they were not given all the 
answers. This seems to mirror some of the confusion we have 
been experiencing at the national level as well. I know these 
are trying times, and I certainly do not question the hard work 
or the sincere intentions of everyone who is trying to deal 
with this horrible scourge, but it does seem that in dealing 
with a public health crisis, clear lines of responsibility and 
absolute candor are imperative.
    Third, worker involvement. We are also hearing about the 
importance of involving workers--Mark and I heard this all the 
time--and their representatives in determining how best to 
respond to the latest threats. Front line workers best 
understand the procedures, equipment and the like that 
potentially place them and others at risk. Their voices need to 
be in the mix as risks are assessed and responses are planned.
    Let me give you an example. Minnesota is home to one of 
three so-called ``mail recovery centers.''
    By the way, Mark, I do not know about you, I had no 
knowledge of this until we met with these employees.
    What are mail recovery centers? These are the centers that 
handle mail and packages that have incorrect or incomplete 
addresses, lack return addresses, have contents that have 
become separated from the main bulk of the letter, or for some 
other reason cannot be delivered. In other words, these are 
packages that fit the profile of what might be considered 
suspicious. And the Minnesota Center receives 100,000 of these 
very day. It was not until Monday, after our meetings with the 
Postal workers and managers, that we heard that this Center 
would undergo environmental testing.
    I am pleased that this decision has been made, but I also 
think it is a useful case in point. If we involve workers up 
front in risk assessments and decisions about how to respond, 
we will inevitably make better decisions.
    Two final quick points. Efficacy of preventative 
approaches. As you know, the Centers for Disease Control has 
issued guidelines for the use of protective masks and gloves 
for Postal workers deemed to be at risk. During our meetings, 
we heard some skepticism about the efficacy of these measures. 
My understanding is that you will have representatives of the 
Centers for Disease Control here today, and I urge you to 
question these witnesses closely about these measures.
    Training. There seemed to be large understandable gaps in 
workers' and managers' understanding about how to respond to 
acts or threatened acts of bioterrorism. Training on effective 
responses would seem to be in order. Such training might be 
delivered through unions, local health entities or other local 
agencies. My understanding is that Postal workers have asked 
specifically for training in how to use the masks or 
respirators recommended by the CDC. As you consider the 
resources necessary to respond to the recent anthrax attacks, I 
urge you to consider the need for ``best practice training'' 
for managers and for workers.
    Again, Mr. Chairman, I commend you for holding these 
hearings, and I look forward to working with you and my 
colleagues, Democrats and Republicans, on critical workplace 
health and safety issues. I thank the Committee.
    Chairman Lieberman. Senator Wellstone, thank you very much. 
That was an excellent statement which is very helpful to this 
Committee as we both fulfill our responsibility of specific 
oversight over the Postal Service, which is given to the 
Committee, but also our general governmental oversight to try 
to improve the way in which our government is responding to 
these new challenges.
    Senator Clinton, you have been very actively and 
thoughtfully involved, I know, in these matters. I thank you 
for being with us today, and I look forward to your testimony.

 TESTIMONY OF HON. HILLARY RODHAM CLINTON, A U.S. SENATOR FROM 
                     THE STATE OF NEW YORK

    Senator Clinton. Thank you very much, Mr. Chairman, and I 
thank you and the Members for holding these hearings.
    And I want to associate myself completely with my 
colleague, Senator Wellstone's comments. I think he has very 
well summarized some of the concerns that I bring to you, and I 
will not be repetitive, but I have had the same experience that 
he and Senator Dayton have had in talking with Postal workers, 
talking with people who are responsible for their safety, as 
well as the Postmaster General, CDC officials.
    And I think everyone recognizes that we are on a very steep 
learning curve, but our Postal workers are on the front lines 
of this battle against bioterrorism, and I think we have to 
move expeditiously to give them the protection, the protocols, 
the training and the assistance that they need.
    I want to express my personal sympathies to the families of 
Joseph Curseen and Thomas Morris, who were the first of our 
Postal workers who died from anthrax inhalation. And once again 
New York is at the center of this battle. We just learned that 
the woman, Kathy Nguyen, who had suffered from inhalation 
anthrax, has just passed away. So now we have even more 
questions to ask about how did this woman, who so far as we 
know, did not work in the mail room directly, did not handle 
mail, contract this disease?
    I want particularly to focus on the situation in New York. 
Last week anthrax was found on four high-speed sorting machines 
at New York City's largest mail distribution center, Morgan 
Station in Manhattan, which processes 20 million pieces of mail 
a day. The reasons or science behind the Postal Service's 
decision to keep the Morgan facility open were not immediately 
clear, and workers were left to wonder how safe was it for them 
to go into this facility, while we knew anthrax was present on 
machines that had been used, when the machines themselves were 
shut down for cleaning, but the area where the machines were 
found was not quarantined or in any way sealed off the way that 
we are now finding is done in other settings, and the workers 
were left with a lot of questions.
    In speaking with Postal officials, I and my staff 
determined that they were doing what they thought was in the 
best interest of their workers, of course. They had consulted 
with CDC, but the absence of protocols, which are certainly a 
moving target because we know more today than we did last week 
or the week before, meant that the Postal Service was pretty 
much flying on their own. They were being asked to devise their 
own protocols in consultation with CDC experts.
    We have to reestablish confidence that the guidance health 
officials provide Postal workers is up to date and the best 
practice we know at the time. Federal health officials need to 
make clear that their response is based solely on science and 
not on where those buildings are located or who works in them. 
I heard from many people that there was a deep concern about 
frankly shutting down this facility, which is at the heart of a 
massive mail distribution system in New York City. But I 
believe that everyone has to recognize that the health of our 
people, the health of our workers has to come first, and the 
inconvenience that comes from shutting down a facility is just 
something we have to live with until we understand how to 
prevent the anthrax from being present and hurting any of our 
workers.
    I strongly urge that we provide the kind of meetings and 
town hall sessions that Mark and Paul did on their own in 
Minnesota, that the Postal Service held in New Jersey to 
address customers' and employees' questions, that Eleanor 
Holmes Norton did here in Washington. And last week I wrote to 
the Postal Service and the CDC, asking that they hold such a 
meeting in New York.
    Now, the media conveys a lot of good information, but it is 
sometimes contradictory and difficult for a lay person to 
follow. We also need a single spokesperson for our Nation on 
this issue. I strongly believe that we ought to do that 
immediately. I know a number of us have raised that with 
Secretary Thompson and others. I am pleased to see Dr. Fauci, 
with whom I worked in the past on AIDS related work out there 
speaking, but we need a credible, reliable, candid, reassuring, 
medical scientist spokesperson. And I think that would go a 
long way toward easing a lot of the anxiety and answering a lot 
of the questions.
    Second, I have also called for a standard protocol for 
responding to the discovery of anthrax in Federal buildings, 
from the halls of Congress to post offices. Each site where 
anthrax is found should be treated with the same urgency under 
the same protocol to prevent further exposure as every other 
site.
    Now, although the forms and potency of the anthrax may 
vary, in order to be vigilant, our response should not. And I 
think we have to exercise the maximum caution. Again, I 
reiterate that we are learning as we go, but what we know today 
has to be immediately applied. Otherwise, we put our Postal 
workers, our citizens at risk.
    I believe that the dialogue which is now taking place, and 
in large measure thanks to this Committee expediting it, is 
crucial, but we are going to need money to respond to these 
demands. It is not just good enough for people to come and 
testify and express their concerns.
    I recently visited a Lockheed Martin facility in New York 
that is engaged in automating the mail handling and 
distribution, but is also under discussions with the Postal 
Service to see how we could create technological sensors and 
scanners to try to prevent the anthrax or any other biological 
or chemical agent from ever getting into our distribution 
system, from ever getting into the sorting machines where they 
can be pressed, possibly releasing whatever the agent is.
    I urge very strongly that before the Congress leaves this 
year we take steps to give the Postal Service the resources it 
needs to immediately do what is required, and it is much more 
than buying masks and gloves. I mean there are even scientific 
experts who say that that is not the best way to proceed. So we 
have to look across the board at the Postal Service's needs and 
try to fund them.
    Finally, Mr. Chairman, as we look at this, we know that we 
have to keep two, what seems to be contradictory thoughts in 
each of our minds. On the one hand we do have to be aware of 
the potential dangers that we face. We have to be alert and 
more vigilant. On the other hand, we cannot give in to fear 
which is the most contagious agent around and we have to stand 
against it. The best way to do that is what you are doing so 
long as what you are finding out today is followed by action 
with resources to act on the recommendations you will be 
making. We have to send a clear message to Postal workers and 
citizens, that our government is not only listening, but 
acting.
    And I appreciate greatly the willingness of this Committee 
to focus on this important issue, and I look forward to 
supporting the recommendations that you will come forward with.
    Chairman Lieberman. Thanks, Senator Clinton, for a very 
informed, thoughtful and constructive statement. I will share 
with you we had a very important dialog with the Postmaster 
General here, where he said that the USPS is putting together 
basically a budget request, a supplemental budget request, and 
there was quite strong bipartisan support from Members of the 
Committee wanting to do whatever we could to make this right. 
So, thank you very much. We look forward to working with both 
of you, wish you a good day.
    Senator Dayton. Mr. Chairman.
    Chairman Lieberman. Yes, Senator Dayton.

              OOPENING STATEMENT OF SENATOR DAYTON

    Senator Dayton. If I may just add just briefly, thank you 
very much, and I want to commend you for these hearings as 
well, and I want to commend both of my colleagues. Senator 
Clinton and Senator Wellstone, I know, have been really in the 
forefront of personal involvement in these concerns.
    And just to pick up on one incident which Senator Wellstone 
and I heard several times, so I think it is not unique to 
Minnesota, and it ties in with what Senator Clinton said about 
not sparing cost in these urgent matters. We had a number of 
Postal workers who thought they had been exposed, who called 
the Postal Service. They were told because it is a part-time 
medical clinic, partially staffed, in Minnesota, Minneapolis-
St. Paul, to call their private health provider. They 
identified themselves as Postal workers, at which point the 
private health care, the HMO said, ``We do not do this kind of 
testing.'' And the concern was the impression the employees 
received was that this was because the HMOs did not want to 
incur a cost that might, if it were a workplace incident, be 
covered under Federal Worker's Comp. In fact, one case, they 
were told to call the Minnesota Department of Health, who did 
the testing, which was erroneous information.
    So I would like to put the Postal Service on alert that 
their responsibility is to make sure all of their workers have 
access to immediate testing, which we have learned is crucial 
to the identification and possible treatment of this disease. 
Second, that private health care providers who are trying to 
shirk their responsibilities to provide immediate care, I think 
are reprehensible and it ought to be illegal. And third, that 
we need to have, as both of these Senators have said, a 
coordinated protocol so that everybody knows they can get 
immediate attention and the right information the first time on 
one phone call. Thank you.
    Chairman Lieberman. Well said. Thank you. Thank you, our 
Senate colleagues.
    We will now call the second panel to the table, Dr. 
Mitchell Cohen, who is the Director, Division of Bacterial and 
Mycotic Diseases, National Center for Infectious Diseases at 
the Centers for Disease Control and Prevention; Raymond Decker, 
Director of Defense Capabilities and Management Team at the 
U.S. General Accounting Office; Major General John S. Parker, 
Commanding General, U.S. Army Medical Research and Materiel 
Command in Fort Detrick; and Dr. Ivan Walks, Director of the 
District of Columbia Department of Health.
    We are very appreciative of the presence of the four of 
you. We are particularly appreciative because we know that you 
are active participants in the response to the crisis we are 
facing, and at the same time we need to hear from you so you 
can help us be more informed and constructive in our own 
response. We are trying to make sure that the name plates 
coincide with the people. [Laughter.]
    But you have all become so well known to us in the last 
several weeks that I think even without the written names in 
front of you, we know who you are. Again, we thank you for 
being here.
    And I suppose what Senator Thompson said is perhaps what--I 
hope it is encouraging to witnesses, but I share his sentiment, 
which is that there is a natural tendency at a time that is 
unsettling, such as the one we are in, frightening for many, to 
turn to experts and want exact answers. And yet, the more we go 
on with this, I think we appreciate that to some of the 
questions, even the experts do not have answers yet. And 
therefore the best answer is probably ``We don't know yet.'' 
That is the best way to maintain I think our credibility and 
our sense of working together to find the answers and respond 
appropriately.
    So with that, what might be called invocation, I will start 
with Dr. Mitchell Cohen.

TESTIMONY OF MITCHELL L. COHEN, M.D.,\1\ DIRECTOR, DIVISION OF 
BACTERIAL AND MYCOTIC DISEASES, NATIONAL CENTER FOR INFECTIOUS 
  DISEASES, CENTERS FOR DISEASE CONTROL AND PREVENTION (CDC), 
            DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Dr. Cohen. Good morning. Chairman Lieberman and Senator 
Thompson, I want to first thank you for inviting me to 
participate today. I have provided a written statement for the 
record. As you mentioned, I am the Director of the Division of 
Bacterial and Mycotic Diseases at the Centers for Disease 
Control and Prevention.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Cohen appears in the Appendix on 
page 160.
---------------------------------------------------------------------------
    Our responsibilities deal with very broad areas that deal 
with these organisms, including organisms such as anthrax, and 
involve laboratory work, epidemiologic investigations, and 
prevention. We have been actively involved in all of the 
investigations that have been going forward, as with many other 
people at CDC.
    Let me just cut it short and say that I would be very 
pleased to answer any questions that you have.
    Chairman Lieberman. Thanks, Dr. Cohen. That was shocking 
brevity. [Laughter.]
    And we have a lot of questions for you, so we look forward 
to the question and answer.
    General Parker, do not be constrained by Dr. Cohen's 
brevity. Go right ahead.

MAJOR GENERAL JOHN S. PARKER,\1\ COMMANDING GENERAL, U.S. ARMY 
     MEDICAL RESEARCH AND MATERIEL COMMAND AND FORT DETRICK

    General Parker. Good morning, Mr. Chairman, and other 
distinguished Members of this Committee and the Subcommittee. 
Thank you for the invitation to testify before you today in 
this important matter.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Parker appears in the 
Appendix on page 174.
---------------------------------------------------------------------------
    My name is Major General John S. Parker, and I represent 
the outstanding scientists and professionals of the U.S. Army 
Medical Research and Materiel Command, and my biocontainment 
laboratory, the U.S. Army Medical Research Institute of 
Infectious Diseases, also known as USAMRIID.
    USAMRIID's mission is to develop the medical products, 
strategies, procedures, information and training for medical 
defense of our service members against biological warfare and 
endemic infectious diseases that require biocontainment. In 
recent years this mission has expanded to include helping 
defend our Nation against biological terrorism.
    Since September 11, USAMRIID has been fully engaged in 
supporting the Department of Defense, Federal Bureau of 
Investigation, Health and Human Services, Congress, and the 
interagency community with round-the-clock, cutting edge 
reference diagnostic capabilities. A large number of samples 
have been processed, requiring over 31,750 laboratory assays. 
The results of these tests are reported to our customers upon 
full confirmation of the laboratory findings.
    I am here today to discuss USAMRIID's support to the FBI in 
analyzing the powdery material contained in the letter sent to 
Senator Daschle. I present the following timeline to document 
the chronology of our response.
    On the afternoon of October 15, USAMRIID received samples 
from the Federal Bureau of Investigation and the Capitol 
Police, which included letters addressed to Senator Daschle. 
The initial observation of the material in one of the letters 
performed under biosafety level three containment conditions, 
revealed a fine, light tan powder that was easily dispersed 
into the air. Preliminary laboratory results including 
polymerase chain reaction and fluorescent antibody stain 
indicated Bacillus anthracis spores. USAMRIID reported to the 
Federal Bureau of Investigation on the afternoon of October 15 
the preliminary results indicating that the material was 
anthrax spores. Further, one of our technicians and scientists 
made a statement that this material grossly had some attributes 
consistent with ``weaponized'' anthrax. On the evening of 
October 15, USAMRIID completed the initial battery of 
confirmatory tests, verifying positive results for anthrax. 
This additional information was relayed to the FBI that evening 
and was subsequently reiterated to the Federal Bureau of 
Investigation and others in an interagency conference call on 
the morning of October 16. At that time USAMRIID revisited the 
term ``weaponized'' and decided terms ``professionally done'' 
and ``energetic'' as more appropriate descriptions in lieu of 
any real familiarity with weaponized materials.
    On October 16 USAMRIID began to examine the sample further 
via transmission electron microscopy. Initial transmission 
electron microscopal analysis was performed on hydrated powder. 
This study revealed that the material was comprised solely of a 
high concentration of spores without debris or vegetative 
forms, suggesting that this material was refined or processed.
    USAMRIID participated in an interagency conference call on 
the morning of October 17, updating participants on the results 
of the antibiotic susceptibility profile. Statistical analyses 
for the spore dimensions from the transmission electron 
micrographs were begun on October 17. On the same day, USAMRIID 
provided the Federal Bureau of Investigation samples of the 
powder from the Daschle letter to send to another laboratory 
for further analysis of that material beyond our capabilities. 
The results from the transmission electron microscopy of the 
hydrated powder were reported to the interagency phone 
conference by October 18.
    On October 17, I briefed the full Senate Caucus, Senator 
Daschle's staff and the assembled Senate staff, in addition to 
participating in a news conference with Senators Daschle and 
Lott, on the preliminary characterization of the sample.
    USAMRIID next began investigating the dry powder on October 
18 by scanning electron microscopy. This method revealed 
particle aggregates of varying sizes, comprised solely of 
spores without a visible binding matrix. The material seen 
under the scanning electron microscope ranged in size from 
single spores to aggregates of spores up to 100 microns or more 
in diameter. These spores within the aggregate were uniform in 
appearance. The aggregates had a propensity to pulverize. We 
first relayed these observations to our customer, the FBI, on 
the evening of October 19. A written progress report was hand 
carried to the FBI on October 22 for a discussion of the 
USAMRIID data in comparison with that of other laboratories 
contributing to the ongoing analysis and investigation. 
USAMRIID's data were briefed to the Secretary of Health and 
Human Services on October 23 at his request, in my presence.
    USAMRIID continues to support the Federal Bureau of 
Investigation in the ongoing investigation and any related 
analysis we can perform with our biocontainment capability and 
scientific expertise. We are proud to be an integral component 
in our Nation's defense and response to this tragic situation. 
I am especially grateful for the opportunity to address this 
august body today. I am now ready for your questions.
    Chairman Lieberman. Thanks, General Parker. That was a very 
important statement, very significant in a few regards. I 
myself learned some things that I did not know before, and I 
look forward to asking you some questions about them.
    Mr. Decker, thanks again for being with us. We appreciate 
the GAO's assistance in this as in almost everything else this 
Committee does.

     TESTIMONY OF RAYMOND J. DECKER,\1\ DIRECTOR, DEFENSE 
  CAPABILITIES AND MANAGEMENT, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Decker. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Decker appears in the Appendix on 
page 178.
---------------------------------------------------------------------------
    Mr. Chairman, Senator Thompson and Members of the 
Committee, I am pleased to be here today to participate in this 
hearing on the security of the U.S. mail and Postal workers. As 
requested, my testimony will focus on the work we have done at 
GAO over the past 5 years on combatting terrorism and our 
recommendations advocating a risk management approach for these 
efforts. Our body of work includes over 60 products based on 
information gleaned from a range of sources to include Federal 
departments and agencies, State and local governments, foreign 
governments, and private entities.
    Although today's discussion will center on these current 
anthrax crises, my statement will offer a longer more strategic 
view to help guide our Nation's leaders, senior officials, and 
others who must make key decisions which link resources with 
prioritized efforts to achieve meaningful results.
    The events of the last 8 weeks and the long-term aspects of 
our national engagement to combat terrorism highlight the need 
for effective near- and long-term actions at all levels of 
government, as well as in the private sector. The designation 
of a focal point within the Executive Office of the President 
to lead the Office of Homeland Security is a positive step. As 
Governor Ridge and his team begin to craft a national strategy 
to effectively prepare the Nation against future attacks, we 
believe a sound risk management approach is essential to 
underpin decisions which identify requirements, set priorities, 
direct actions and allocate resources.
    Risk management is a balanced, systematic and analytical 
process to evaluate the likelihood that a threat will endanger 
an asset and identify actions which reduce the risk and 
mitigate the consequences of an attack or event. Mr. Chairman, 
an asset may be a physical structure, an individual or a group 
of individuals, or an important mission or function.
    A good risk management approach should have three key 
elements: Threat assessments, vulnerability assessments, and 
criticality assessments. Allow me to briefly discuss each 
assessment.
    A threat assessment is an important process that identifies 
and evaluates threats using various factors such as capability 
intention, past activity, and the potential impact of an attack 
or event. At the national level, the Central Intelligence 
Agency and other agencies of the intelligence community are 
responsible for those assessments that involve international 
terrorist threats. The FBI, on the other hand, gathers 
information and assesses the threat posed by domestic sources 
of terrorism.
    In 1999 and again in our most recent report of September 
20, on combatting terrorism, we recommended that the FBI 
prepare a formal intelligence assessment of the chemical and 
biological agents that could be used by domestic terrorists 
without the assistance or support of a foreign entity. The FBI 
concurred, and expected to issue the assessment in December 
this year.
    Additionally, we recommended that the FBI produce a 
national level threat assessment, utilizing intelligence 
estimates and input from the intelligence community and others 
to form the basis for and to prioritize programs developed to 
combat terrorism, to include weapons of mass destruction. The 
FBI concurred, and expected to complete this classified study 
later this month.
    Mr. Chairman, the original dates the FBI provided us were 
before the September 11 incident. In recent contact the Bureau 
has stated that these assessments are being reviewed, and their 
work will be delayed.
    The vulnerability assessment, which is the second key 
component, identifies weaknesses in physical structures, 
security systems, plans, procedures and other areas that could 
be exploited, and suggest options to eliminate or mitigate 
those weaknesses. For example, a common physical vulnerability 
is the close proximity of parking areas near a building or 
structure, with the obvious concern about a vehicle that may be 
laden with explosives. Jersey barriers and other mechanisms to 
increase the standoff distance--and that is the distance 
between the vehicle, a potential explosive device--and a 
building is increased between the building and the vehicle. It 
might be one possible solution to this particular problems.
    Normally a multidisciplinary team of experts in 
engineering, security, information systems and other areas 
perform vulnerability assessments. Teams within an organization 
can perform these assessments, which is the case by several of 
the major agencies in the government, Department of Defense in 
particular. In a 1998 GAO combatting terrorism report, we noted 
that a major multinational oil company uses this exact approach 
to better assess its overseas facilities' vulnerabilities. And 
when they look at these vulnerabilities, sir, they look at some 
that could be affected by a natural event like a hurricane, 
tornado, or a typhoon, and others that are manmade that may be 
terrorism, civil unrest, and general criminal activity.
    The third component, criticality assessments, are designed 
to identify which assessments are most important to an 
organization's mission or represent a significant target which 
merit enhanced protection. For example, nuclear power plants, 
key bridges, major computer networks, might be identified as 
critical assets based on national security or economic 
importance. A good example would be a sports stadium or a 
shopping center, when filled with people, might represent 
another critical asset. In this case some facilities might be 
critical at certain times and not at others. Typically, the 
affected organization or activity would perform its own 
criticality assessment. We note that the report of the 
Interagency Commission on Crime and Security in U.S. Seaports, 
issued late last year, stressed the need for these assessments 
in conjunction with threat and vulnerability assessments.
    Simply stated, sir, one must know as much as possible about 
the threat, identify one's weaknesses to potential attacks or 
debilitating events, and determine which assets are most 
important and require special attention in order to make sound 
decisions on preparedness when leveraging limited resources.
    One caveat about threat assessments. Our goal must be to 
understand threats and create assessments to guide our action. 
To this end, there are continuous efforts within the 
government, the intelligence and law enforcement communities, 
to assess foreign and domestic threats to the Nation. However, 
even with these efforts, we may never have sufficient 
information on all threats. So there may be a tendency to use 
the worst-case scenario. Since worst-case scenarios focus on 
vulnerabilities, and there are unlimited vulnerabilities, as 
there are unlimited scenarios and possible contingencies, this 
would exhaust our resources.
    Therefore, we believe that is essential that a careful 
balance involving all three assessments be used in preparing 
and protecting against threats, even if the threat assessment 
is considered less than satisfactory.
    In summary, Mr. Chairman, threat, vulnerability and 
criticality assessments, when completed, evaluated and used 
together in a risk-based process, allow leaders and managers to 
make key decisions affecting planning and actions which will 
better prepare against potential terrorist attacks that may 
involve a wide range of weapons. If this risk management 
approach were universally adopted and applied by the Federal, 
State and local governments, and by other segments of our 
society, we could more effectively and more efficiently prepare 
an in-depth defense which might make future acts of terrorists 
more difficult to achieve their goal, but should we fail in 
preventing an attack or an event from happening, our 
preparedness might mitigate the impact of that attack.
    Mr. Chairman, this concludes my statement. I would be 
pleased to answer any questions that the Committee might have.
    Chairman Lieberman. Thanks, Mr. Decker. A very helpful 
statement.
    Dr. Walks, it is a pleasure to have you with us. Thanks for 
all your public service in recent weeks. We have watched you 
with admiration, and we look forward to your testimony now.

TESTIMONY OF IVAN C.A. WALKS, M.D.,\1\ CHIEF HEALTH OFFICER OF 
  THE DISTRICT OF COLUMBIA AND DIRECTOR, DISTRICT OF COLUMBIA 
DEPARTMENT OF HEALTH (DOH), ACCOMPANIED BY DR. LARRY SIEGEL AND 
TED GORDON, SENIOR DEPUTIES, DISTRICT OF COLUMBIA DEPARTMENT OF 
                          HEALTH (DOH)

    Dr. Walks. Thank you, sir. Good morning, Chairman 
Lieberman. Good morning, Mr. Stevens, Mr. Voinovich, Mr. 
Thompson, Mr. Akaka, and Mr. Cleland.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Walks appears in the Appendix on 
page 192.
---------------------------------------------------------------------------
    My name is Ivan Walks. I am the Chief Health Officer of the 
District of Columbia, and I direct the Department of Health, 
and it is an honor to be asked to come this morning and provide 
testimony. I am joined by my two senior deputies, Dr. Larry 
Siegel and Ted Gordon.
    I would like to first start on behalf of Mayor Anthony 
Williams, by first saying that all of us here in the District 
of Columbia share the grief of the U.S. Postal Service over the 
loss of two of their own, two of our neighbors and fellow 
public servants. These deaths are tragic especially because 
they were deaths due to deliberate acts of terror. Our hearts 
and prayers go out to those families. They are the victims of 
evil.
    I would like to start by setting a little context. The use 
of an infectious disease weapon places the providers of health 
care in the role of first responders. Our doctors, nurses and 
other providers have become our first line of defense. Dr. 
Hanfling, who was here this morning, exemplifies that, and is 
one of those new heroes that we have in a different kind of 
war. With anthrax we are facing a significant challenge that 
we, as a Nation, and as a society have never faced before. We 
are facing the results of a deliberate terrorist act by one or 
more individuals who are determined to deliberately harm and 
disrupt our lives and our society. The enemy can choose its 
time, its place and method. As such, we must predict and 
prepare. As we try to predict when, where and how, we must 
ensure that we are appropriately resourced.
    The good news is the United States of America has the 
world's greatest laboratories and the world's greatest 
scientists. The bad news is that our public health 
infrastructure has been neglected. It is critically important 
to emphasize that we can only fight the terrorists by devoting 
the necessary resources now to training and equipping medical 
and public health personnel, and developing and delivering 
educational material to the public. As a Nation, we will need 
to develop a heightened sense of awareness of potential threats 
to the public health, and institute plans to mitigate them.
    At the request of Senator Frist, who has worked closely 
with the Department of Health here in Washington, DC, a budget 
of $30 million to support our infrastructure here in the 
District was presented. Our needs reflect those of State and 
local health departments across the country.
    For the last 5 years, the District of Columbia Department 
of Health has been planning for a bioterrorism event. On 
September 11, we activated our enhanced biosurveillance 
protocol. This means that we monitor daily emergency room 
presenting symptom logs. We sort of knew what came in and what 
it looked like. Our epidemiologists analyze that data in order 
to look for unusual clusters of suspicious illnesses. Further, 
on September 26, I sent an alert to all regional health care 
providers to move them in what I call a public health upgrade. 
We went from diagnosis reporting, which was federally mandated, 
things like Legionnaire's, tuberculosis, etc., to a symptom 
reporting paradigm. That alert included what those symptoms 
would look like. It notified hospitals and health care 
providers of warning signs and symptoms that might indicate an 
anthrax infection. We also submitted a biochem disaster, ``Day 
1,'' contingency plan to the Executive Office of the Mayor.
    On Monday, October 15, we learned from watching television 
news that an envelope potentially containing anthrax had been 
opened in Senator Daschle's office in the Hart Senate Office 
Building. The FBI later confirmed that the letter's contents 
had tested positive for anthrax.
    Sherry Adams, who directs our Office of Emergency Health, 
confirmed that report with the office of Dr. Eisold, the 
attending physician at the Capitol. At that time the incident 
was believed confined to the U.S. Capitol. I called, spoke with 
Dr. Eisold. He thanked me for my call, and assured me that 
their resources were in place. However, because of our 
Department's bioterrorism plan, we assessed the potential 
threat to the larger community and we recognized our need for 
assistance. We called the Centers for Disease Control and 
Prevention Bioterrorism Office in Atlanta, Georgia. We asked 
them to send a technical support team to assist in 
epidemiological monitoring, surveillance and community 
outreach. We also asked for a national pharmaceutical stockpile 
advance team to give technical assistance. Finally, we 
requested a public health service officer from the Office of 
Emergency Preparedness to act as a liaison. The Federal 
Government approved all three requests. Those requests were 
made on October 15.
    At 4:30 a.m. on October 16, Mrs. Adams was notified by Dr. 
Tracy Treadwell of the CDC that a virulent form of anthrax had 
been confirmed. The CDC technical assistance team arrived in 
our Department of Health offices by 8 a.m. that day. We briefed 
them about our Department's concerns and needs. Shortly 
thereafter the CDC deployed part of their team to work with Dr. 
Eisold on Capitol Hill.
    I am going through this because I think it is important to 
understand that even from a local health department, when a 
call is made to the Federal jurisdiction, they responded 
immediately real time and they were there to work with us. I 
know a lot of heat has been taken by CDC, but I want to put on 
the record that when we called they responded immediately.
    Other members of the CDC team remained to work with us at 
the Department of Health, assessing our biosurveillance 
protocols and activities in order to ensure the safety of 
District residents and visitors.
    On Tuesday, October 16, I again made contact with the 
office of Dr. Eisold to discuss some concerns of our local 
hospitals. Folks were not wanting to go and line up. They were 
going to local hospitals. They wanted treatment there. They 
wanted testing there. The Capitol Hill team did a couple of 
things. They not only worked with Dr. Eisold, but they also 
made recommendations that the Department of Health should be 
included as planning went forward on Capitol Hill.
    On Wednesday, October 17, Dr. Scott Lillibridge called the 
Department of Health and invited us to join a joint task force 
that was meeting in the Capitol Building. Dr. Larry Siegel 
represented our Department of Health at that meeting. The 
discussions on Wednesday included concerns about the path of 
the anthrax letter. As early as Wednesday, those discussions 
were ongoing. But the best science on Wednesday indicated that 
a sealed letter arriving at Senator Daschle's office would not 
pose a threat of inhaled anthrax to Postal workers. There was 
not a neglect on the part of the CDC of the Postal workers in 
our community. There was clearly an understanding that we found 
later not to be compatible with this form of anthrax that has 
been described.
    On Thursday, October 18, the Postal Service, being 
proactive, called us. Dr. David Reed, the Medical Director for 
the U.S. Postal Service, called our Department of Health, and 
we entered into further conversation about the risk that might 
be apparent to Postal workers. Again, the recommendation from 
CDC, consistent with all the best science at that time, was 
that if there was a risk to those Postal workers, it was a risk 
of cutaneous anthrax, it was not a risk of inhalation anthrax.
    On October 19, we learned how horribly wrong all of the 
best science was. On Friday night, October 19, the experts, the 
heroes on the front line, Dr. Hanfling and the group at Inova 
Fairfax, called the Department of Health hotline that we had 
set up the previous Wednesday, and told us about what they 
called a suspicious case, looked like pulmonary anthrax. We 
followed that case closely with them and with the CDC, and did 
a couple of things. We knew that if this was in fact a case of 
confirmed inhalation anthrax, it would really change all of our 
preconceptions about this illness.
    We worked with that joint task force. Senator Frist, a 
tremendous ally, wonderful leader, was with us in the room here 
in the Capitol in Jeri Thompson's office. We had Deputy Surgeon 
General Ken Moritsugo and a cast of other folks from the 
Federal Government working with local folks to do some 
planning. We could not afford to wait until we had a 
confirmatory test to plan. That Saturday we were here until 
late in the evening, and we decided if that test was positive 
what our behavior would be the next day.
    Seven a.m. Sunday morning I got a call from Dr. Kabazz, the 
CDC lead, to tell me that test was confirmed positive. Within 5 
hours Admiral Lawrence, Dr. Kanouse, the other folks on the 
Federal side had already deployed a team of doctors, nurses and 
pharmacists to the District of Columbia. In addition to that, 
Secretary of Health for the State of Maryland, Georges 
Benjamin, and the Commissioner of Health for the State of 
Virginia, Anne Peterson, both came to the District, and we had 
a joint press conference in the District to talk about our 
regional response to know what was a real threat, because by 
the time we had that press conference early Sunday afternoon, 
we knew a second person was ill and we already thought that 
there may be one death related to inhalation anthrax, and we 
had already begun to get calls about this difference in care 
that people on the Hill got versus people in town.
    This became a tremendous concern of ours. We reacted 
quickly, and made sure that the folks from Brentwood, those 
Postal workers, got exactly the same care the folks on the 
Capitol got. The minute we understood, the minute the CDC 
understood there was a credible threat, everyone reacted as 
one, based on good planning and established relationships over 
those several previous days.
    By October 21 and 22 we had those two deaths; they were 
confirmed. We now had four cases of inhalation anthrax 
contracted in a way that a week previous no one thought could 
occur. During those first 2 days we provided appropriate 
prophylactic care and testing for over 3,000 Postal workers. 
Senator Frist and his wife came and went through the facility 
to ensure that we were doing the job that he had planned with 
us that we would do.
    During the next couple of days several things happened. I 
am going to try to summarize my testimony because it is 
detailed, and I want it to be detailed, but I also want to 
complete what I am trying to convey.
    Chairman Lieberman. Dr. Walks, please go on, but we will 
print your full statement in the record, so I appreciate the 
time that you took to prepare it.
    Dr. Walks. Thank you, sir. Please ignore the two typos I 
found while I was reading it. [Laughter.]
    Chairman Lieberman. I will.
    Dr. Walks. From Sunday to Monday one practical thing 
occurred. We had planned--we had this wonderful campus at D.C. 
General that was now available for what we call surge capacity. 
If we needed it, it was there. When we were ready to deploy on 
Sunday, we discovered something. RFK Stadium, two doors down, 
was having this thing with Michael Jackson and the Backstreet 
Boys and 50,000 people coming. We could not use D.C. General. 
We had a contingency plan. We went to One Judiciary Square, and 
in that large facility we were able to set up and do all of our 
work, then on Monday move over to D.C. General without missing 
a beat. That is a credit to the Office of Emergency 
Preparedness and those folks who worked with us and continue to 
work with us.
    In the record there is a lot of detail about what that 
center looks like. I think that we have shown it works 
efficiently, and I really want to share that with folks because 
reinventing the wheel is not something we advocate and think 
people need to be able to do.
    To summarize the last week, what we have experienced here 
in Washington, DC is a tremendous learning curve. We have 
watched some of the brightest people leave their homes, leave 
their families, come camp out with us. More than 85 CDC folks 
are camping out with us at our Department of Health. We have 
watched people make their best decisions they could, given all 
of the available science, and we have learned something. We 
have learned that people can be ahead of us on the science, and 
people can lose their lives. But we have learned something 
else. We have learned that the people on the front lines, the 
first responders in a biological attack of this kind, people 
like Dr. Hanfling and the folks at Inova Fairfax, when people 
come to them for care, they can go beyond the science, they can 
recognize, I know it should not look like this, but it looks 
like this. We have three people in hospitals now that 2 weeks 
ago we would have thought would not be alive. They are in the 
hospital. They continue to be stable, and they continue to 
receive excellent care, and they continue to prove every day 
that inhalation anthrax does not have to be a death sentence.
    My message is twofold. One is that cooperation can lead to 
results that we can embrace. The second is this: I grew up in 
California. We learned to live with earthquakes. You cannot 
predict them. Sometimes they can kill people. People in the 
Midwest live with tornadoes. People in the Southeast live with 
hurricanes. There is something about emergency preparedness 
that needs to cut through all of the things we are talking 
about today. If you are going to be on the Metro, carry some 
comfortable shoes and a 10-ounce bottle of water. It can make a 
huge difference if there is an event and you have to walk any 
appreciable distance. In California kids in certain school 
districts bring a shoe box to school the first of the year. In 
that shoe box is their favorite nonperishable food, a 
flashlight, and a note from mom and dad that says something 
like, ``Ivan, this is mom and dad. I know you can't leave 
school right now and we can't come to get you. Your teachers 
will take care of you. You will be OK. Do what they say until 
we can come.''
    There are some basic emergency preparedness messages that 
do two things. One is it gives people something to do. Cannot 
smell anthrax, cannot taste it, it gets you sick days after you 
have been exposed. The public cannot do anything with that. 
Those of us whose job it is to worry, we need to worry. And as 
I said earlier, when you do not know, say you do not know, so 
folks will believe you when you say what you do know. But on 
the other hand, by giving the public basic emergency 
preparedness stuff that they can do that is useful, people do 
not feel helpless, they are empowered to take some control of 
this new world in which we live, and I think we can all go 
forward with that spirit of preparedness, cooperation and real-
time shared information. I think that real-time shared 
information is our best weapon in the fight against terrorism. 
It can comfort the public and allow us to work better together. 
Thank you.
    Chairman Lieberman. Thank you, Doctor. That was very 
impressive and very helpful testimony. And you declared a few 
people heroes, but I would give you a medal for being as 
proactive and as quickly proactive as you were in this matter, 
and also for exactly the themes that you struck at the end. I 
appreciate that.
    Dr. Walks. Thank you, sir.
    Chairman Lieberman. General Parker, I have said it before, 
we are going back over what happened in this unusual and 
unprecedented event to see if we can learn from it, and 
particularly from the view of this Committee, better coordinate 
government responses as all of you have said. What drew my 
attention in your statement, and here we were in the unusual 
position of not just being Senators on an oversight committee, 
but we were all part of this story insofar as we were involved 
with the letter of Senator Daschle, the closing of the 
buildings, etc. What drew my attention in your testimony, in 
trying to put this all together, was that on Monday, October 
15, when the Daschle letter was opened and FBI was called in, 
they called you in, USAMRIID, and it was that day that--I will 
read from your testimony--USAMRIID reported to the FBI on the 
afternoon of October 15 that preliminary results indicating 
that the material was anthrax spores. Further, one of our 
technicians/scientists made a statement that this material 
grossly had some attributes consistent with ``weaponized 
anthrax.'' And in the call on the morning of October 16, your 
agency, department, revisited the term ``weaponized'' and 
decided the terms ``professionally done'' and ``energetic'' 
were more appropriate descriptions in lieu of any real 
familiarity with weaponized materials.
    This was a real source of concern to us on the Hill, 
because at an early point we were told this is pure stuff, in 
fact, that is why we are closing the building, and at another 
point we were reassured that it was indistinguishable from 
other anthrax found in other locations. I have to ask you the 
question whether the change in designation from ``weaponized'' 
to ``professionally done'' or ``energetic'' was requested of 
you by other governmental agencies or whether it was a 
determination that you made yourselves?
    General Parker. Sir, thank you for that question. We made 
that determination ourselves. The term ``weaponization'' has no 
real scientific or medical meaning, and it was an impression by 
a scientist that was shared to the FBI liaison office on 
October 15 when he first saw the material. The anthrax spore 
was in fact an anthrax spore, and what we saw was that the 
sample from Senator Daschle's letter was very light and powdery 
and seemed to float in the air. And that had no connotation 
with anthrax that would be put on a projectile and sent 
somewhere as we think of a weapon.
    But in the same context, sir, anthrax spores are not 
something that you put in everybody's letter, and in this 
particular case the anthrax spore was put in a letter and the 
letter was used as a missile, and it was--it had the grid 
coordinates on it for Senator Daschle. So in a way, that letter 
was weaponized with a deadly anthrax spore. But we found that a 
better characterization for that was that because of its purity 
and because of its lightness, we wanted to say that a 
professional had to have a hand in this, and that it was 
energetic, that perhaps someone knew something to be able to 
make it very powdery and stay in the air.
    Chairman Lieberman. OK. While I think we were somewhat 
confused here on the Hill, for example, by the various 
descriptions we were getting, I was interested to note that, 
Dr. Walks, you said that by October 16, which was the Tuesday 
morning, presumably from the conferences you had been involved 
in, you had concluded that this was, to quote the word you used 
in your testimony, ``a virulent form of anthrax.'' So there was 
a sense within the public health community, now growing, that 
this was serious stuff, it was different. And in that sense, as 
you said, whether we are talking about a weapon as we 
conventionally understand it or a letter sent, this was 
potentially, certainly injurious and maybe deadly.
    Now, to follow the trail that we started out on here in the 
Committee yesterday, which deals with the Postal Service, 
Postmaster General Potter testified to us that as he was 
following this, wondering who to call, he called CDC. And so my 
question to you, Dr. Cohen, and I do not know who was involved 
here, is whether at those early dates you were also informed or 
somebody at CDC was informed that this was virulent, different, 
capable of floating anthrax that was found in Senator Daschle's 
mail?
    Dr. Cohen. Yes, and in fact, the function I have been 
serving while I have been in Washington has been a liaison to 
the FBI, so I actually participated in the call that occurred 
on the evening of October 15, where the observational 
information about this was provided to the FBI. I hosted a 
conference call with CDC in the wee hours of October 16 to 
share that information.
    It was important to note that this was the first material 
that we had actually seen, so that the assumption was that any 
of the other cases that previously had occurred in Florida and 
New York, were caused by the same material. So many of the 
assumptions were based on those epidemiologic investigations of 
those previous outbreaks.
    Chairman Lieberman. So it is possible that when, I believe 
it was Governor Ridge at one point or whoever said it, said 
that this was indistinguishable from the other anthrax, we took 
that--and then somebody else said it was garden variety 
anthrax, we took that to be reassurance. Maybe it was not meant 
to be that.
    But let me get to the point about the Postal Service. We 
come then to--I am jumping ahead a bit because my time is 
running out on this round--I believe it was on Thursday, 
October 18, that there were traces of anthrax found in the mail 
room here in the Dirksen. And then it was that day that 
Postmaster General Potter initiated some environmental testing 
at the Brentwood facility. As I look back to yesterday's 
testimony, and he indicated that he made that judgment based on 
counsel from CDC. If we knew that this was anthrax capable of 
moving in the air because it was refined, and we concluded it 
was virulent in that sense, and we saw by Thursday, October 18, 
that it had appeared upstream in the mail stream at the Dirksen 
mail room--and I know hindsight is always clearer--my question 
is: Why was not the Post Office advised to close Brentwood and 
other facilities right away? Now, I do not know, and you 
probably know better, anthrax may have enough of a period where 
it has to develop in some way. I am thinking about those two 
people who died. If Brentwood had been closed on Thursday, 
October 18, might their lives have been saved? I do not know. 
Presumably they might have been infected with this quite a 
while before. Let us leave that aside for a moment. I would 
like you to come back. My question is why was not the Post 
Office advised to close Brentwood and all other facilities 
under their administration upstream after we knew what we knew 
on October 18?
    Dr. Cohen. It was based on the information that was 
developed from the Florida and the New York investigations, 
where there was no evidence of risk to Postal workers. So the 
assumption was based on having observed this material and 
thinking that this was the same material that had been sent to 
AMI or the same material that had been used in New York. Plus, 
as Dr. Walks has pointed out, the assumption was also made that 
a sealed envelope would not be able to produce a large enough 
aerosol that would create the 8,000 to 50,000 spores that a 
person would need to become ill.
    Chairman Lieberman. That is all really common sense, and 
again this is hindsight, so I say it with real empathy for the 
difficulty of the questions that you were being asked. Once the 
traces were found in the Dirksen mail room, should that not 
have set off an alarm that something unusual was happening, 
that maybe it was possible for this stuff, the anthrax to get 
out of the packages or the envelopes and not just endanger 
people once the package was open?
    Dr. Cohen. Well, what you have with an aerosol exposure, 
you have two parts to it. You have the spores that distribute 
and float around. Then you have smaller particles that fall 
out. And the larger particles that fall out, it has been 
thought that those larger particles pose much less of a risk to 
being re-aerosolized, so that the potential for small numbers 
of spores in an area to be a risk was thought primarily to be a 
risk to cutaneous disease, not to inhalational disease.
    Chairman Lieberman. My time is up, but just to conclude it, 
General Parker, do you have an opinion on the question I just 
asked about looking back whether Brentwood and the other mail 
facilities should have been closed after traces were found in 
the Dirksen mail room?
    General Parker. Senator Lieberman, I truly believe that 
even the terrorist in this event firmly believed that when he 
put that substance in that envelope that it would--and I do not 
want to describe the envelope because that may be part of the 
criminal investigation, but the way the envelope was prepared 
by that terrorist would give you the impression that the 
terrorist did not even believe that it would get out of that 
envelope and that it would arrive on Senator Daschle's desk. So 
the fact that the spores did in fact pass through porous areas 
in that envelope and create an aerosol that cause harm in this 
particular case, was maybe a fact too far for most of us, sir.
    Chairman Lieberman. Fair enough. I appreciate your answers 
very much to very difficult questions. Senator Thompson.
    Senator Thompson. Did anyone see what I saw, in passing, 
this morning on television, where a person had a well-sealed 
envelope with talcum powder in it, and was doing it like this, 
and you could see it coming through the envelope. And I am told 
that the microns in that talcum powder are probably larger than 
some of the stuff that we are dealing with.
    Now, I think the average person is going to ask, somewhere 
along the line, why, with the billions of dollars that we were 
already spending in these areas in terms of military 
preparedness, research and development, did that not occur to 
somebody. And the difficulty with what you say, Dr. Cohen, is 
that while surely you are correct in that the full situation 
did not present itself from the Florida and New York situation, 
when something like this happens, you cannot just depend on 
what happened with regard to the first part of the attack.
    We are hopefully supposed to be able to depend on years of 
research and analysis to give us an understanding of the nature 
of these properties. I mean anthrax is not a new substance. 
That is why I find it difficult to understand why we know so 
remarkably little about its properties and uses, and so forth, 
which gets me to the military.
    You would think that in preparing, as I understand what 
USAMRIID does in normal times, Major General, you would conduct 
research, and develop vaccines, drugs, and diagnoses in 
laboratories for field use by the military, basically in an 
effort to protect the military service members. You would come 
up with countermeasures. I think one would think that our 
preparation for military purposes would be somewhat advanced, 
but I get the impression from Senator Lieberman's line of 
questioning and your answers, that immediatly following the 
discovery of anthrax, you were going through a series of tests 
and developing information.
    We were told, initially, that the anthrax was of weapons 
grade. And it was not just a matter of backing off that 
statement to say that it was ``sophisticated'' or whatever. We 
were also told that the anthrax was merely garden variety, 
which led us to believe that it was the opposite. Come to find 
out, both were true in terms of the nature of the substance. As 
I understand it, it was garden variety, but what had been done 
to it in the processing, was not a garden variety kind of 
situation. So, I know that you were being pounded with 
questions on a minute-by-minute basis. I take it that you were 
running tests during all of this time and coming up with 
additional understanding about what you were dealing with, and 
then giving us information as you went along. Is that what 
happened?
    General Parker. Senator, that is exactly right. We were 
trying to do the right studies, do the right research on the 
product to get the right answers, and the demand for 
information, as you can well imagine, was pretty severe.
    Senator Thompson. Well, my concern is that, what if our 
military personnel had been attacked? How many hours or days 
would we have had to analyze these properties and do these 
tests and conduct this debate and discussion that we have had 
with various pieces of information coming from various sources, 
and all of this? Clearly we are in trouble, from a military 
standpoint, if we are flying by the seat of our pants. I do not 
mean that in any derogatory manner, but I really am perplexed 
that we are not more knowledgeable right from the very 
beginning of a potential attack like this. And of course, now 
your constituency--I do not know if this has occurred to 
anybody over there, but it occurs to me, that your constituency 
now is not the military; it is everybody, because the 
likelihood of a State-sponsored attack on our military with 
this sort of stuff is probably low.
    As I understand it, during the first Bush Administration, 
Saddam Hussein was told that if he used this sort of stuff on 
us, he and his whole country would be annihilated; and he 
backed off. As far as individual terrorists are concerned, I do 
not know if they are extremely likely to take on the military. 
I think civilians are more likely to be targeted nowadays for 
this kind of attack. That is just my opinion; something I 
assume that is being analyzed and discussed. But what is your 
read on this?
    I would think that the CDC would be able to come to the 
military and get a quick read on a situation like this. I guess 
one of the questions is, is the relationship as it should be? 
Obviously, this was new; this is different, hindsight being 20/
20, and all that. I do not mean to be overly critical, but we 
have a responsibility to ask the tough questions, and it looks 
to me like the CDC and the best that we have in our country, 
which I assume is the military organization that is responsible 
for this, nowadays especially ought to have total integration 
with regard to this issue. Do you share that opinion, and what 
is being done about that?
    General Parker. Senator Thompson, I more than share it. We 
have an active, and we have had a long and active relationship 
between the CDC and on all of my medical laboratories, 
actually, not just the USAMRIID. We engage in combating 
infectious disease and bioterrorism, and have actually a 
written agreement that says we are hand in hand on that, and we 
do joint experimental work both at the CDC and USAMRIID to 
solve problems, potential problems for this Nation.
    Senator Thompson, I would like to say that I think the 
military posture is one that is very good. I think in the 
paradigm of bioterrorism or the use of weapons of mass 
destruction, the military has financed and looked at the use of 
biological weapons or chemical weapons on a battlefield 
scenario, and in recent years we have focused on the use of 
these terrible agents and biological weapons in a bioterrorist 
or an asymmetric way. And because of that, I think if you look 
at the programs, we have a very large program to develop 
detectors, we have a very large program to look at 
pretreatments and therapeutics for these things, and drugs and 
vaccines to prevent our service members from falling ill.
    Senator Thompson. But now it is obvious, is it not?
    General Parker. And now it is the constituency of the 
United States of America that we are concerned about.
    Senator Thompson. Exactly. Now we all see you have to 
integrate all of that into the public health system.
    General Parker. Yes, sir, and----
    Senator Thompson. A big job.
    General Parker. It is a big job, sir.
    Senator Thompson. But the battlefield now is the streets of 
New York and any other place in America.
    General Parker. Yes, sir. And the delivery means has become 
quite asymmetric, and that has added to the challenge.
    Senator Thompson. I would think that the Congress and the 
administration are going to really have to address this and 
work together to see what the future should hold for the 
organization, how it might be redirected in some respects in 
light of what we know now. You have done excellent work and I 
am not being critical of you individually. You have put a good 
voice out there.
    In finishing, I just want to commend Dr. Walks for what he 
has been doing over the last few weeks. We have all been 
watching. Your candor and reassurance are exactly what we need. 
I would personally hope that someday the whole Nation would get 
the benefit of your services, Dr. Walks. So thank you for what 
you are doing, too.
    Dr. Walks. Thank you, sir.
    Chairman Lieberman. Thank you, Senator Thompson. I hope you 
do not have to wait for the Thompson presidential 
administration for that to happen. Although that may be soon. I 
do not know. [Laughter.]
    Senator Thompson. Do you really want to go there?
    Chairman Lieberman. No, I do not. Thank you, my dear friend 
and distinguished statesman. Senator Akaka.
    Senator Akaka. Mr. Chairman, I want to thank the panel for 
your comments. The possible use of anthrax as a biological 
weapon is not a new threat. In 1998, there was a series of 
bioterroristic threats of anthrax exposure through letters sent 
to health clinics. Although these letters were a hoax at that 
time, CDC said these threats required prompt action by health, 
law enforcement, and laboratory personnel. Coordination and 
communication across agencies are necessary to protect the 
public and first responders from credible biological warfare 
and bioterrorism agents such as anthrax.
    I wish to remind all our public health officials in the 
Federal Government that prompt and immediate coordination is 
paramount. I echo Senator Clinton's remarks when she said we 
need a single credible medical professional speaking to the 
American public.
    Dr. Cohen, last Friday our staff were briefed by the Postal 
Service that tests performed by URS Company, the contractor 
working in the Brentwood facility, were inconsistent with tests 
performed by workers from the CDC. Can you comment on the 
discrepancy between the results? And do the differences arise 
from different samples, from different testing methods, or from 
some other factor?
    Dr. Cohen. I am not aware of those discrepancies. We would 
be happy to look into that and respond for the record.
    Senator Akaka. There were, but we certainly will want to 
hear from you on that.
    Dr. Cohen. Certainly.

       INFORMATION PROVIDED FOR THE RECORD BY DR. COHEN'S OFFICE
          The URS contractor collected 29 samples around October 18 
        (Thursday) and 14 of these came back positive for Bacillus 
        anthracis early the following week. (Brentwood Postal facility 
        was closed on Sunday, October 21 based on the lab confirmation 
        of the first patient with inhalational anthrax detected in DC). 
        The URS samples were from the path of the Daschle letter (note 
        related to where patients worked or a grid of the facility) but 
        were mainly from DBCS 17 (where the sorting of the letter had 
        occurred) and outgoing bins for government mail.
          Later CDC samples also detected B. anthracis, but in a lower 
        percentage of samples than this URS batch, which is not at all 
        surprising since the samples were conducted in a much wider 
        area.
          A summary of the CDC testing can be found in the December 21, 
        2001 MMWR, Vol. 50, No. 50 (http://www.cdc.gov/mmwr/preview/
        mmwrwrhtml/ mm5050a1.htm) The full details of the CDC sampling 
        found that 8/114 (7%) surface wipe samples were positive, 
        including 4 positives from on and around DBCS 17 (which is 
        consistent with there being positives near that sorter, as was 
        found in the original sampling by URS).

    Senator Akaka. Dr. Walks, I thank you for your comments and 
for what you have done over the weeks now. We have an advantage 
in the current situation of knowing that there is a disease out 
there. You properly mentioned that we need to be prepared, we 
need to cooperate our efforts, and we need to communicate or 
share what we know.
    Many bioterrorism scenarios do not have such a clear 
indication that an attack has occurred. New York City has a 
syndrome surveillance program in which data is collected on 
emergency room visits, on pharmacy purchases, on school 
absences, emergency service calls, and unusual deaths to 
quickly alert local and State authorities of a potential 
epidemic. Does Washington, DC have a syndrome surveillance 
program? If not, are there plans to implement one? And how 
would you coordinate such a program with public health 
departments in Maryland and Virginia?
    Dr. Walks. Yes, sir, we do have such a plan. We are growing 
it as we go. We are involving more people as we go. One of the 
things that I do want to mention, there are about 1,400 
employees in the District of Columbia's Department of Health. 
Many of them are manning our hotline overnight and then going 
to their day jobs during the day. We are working very hard. We 
have that in place.
    Beyond that, we have an improving relationship with our 
area hospitals. We have to depend on them. They are our first 
responders. There is a 10 a.m. conference call every day. I 
missed that this morning. I am going to pay for that. But they 
depend on myself, Dr. Siegel, and Dr. Richardson, to be on that 
call, share information real time. That call also includes the 
regional health officers in the neighboring counties in 
Maryland as well as in Virginia.
    I have an advantage of personally knowing Dr. Georges 
Benjamin, the Secretary of Health for the State of Maryland, 
and personally knowing Dr. Peterson who is the health 
commissioner for the State of Virginia. Those relationships 
were really brought to bear on Sunday when we needed to present 
a regional coordinated public health response to a brand new 
threat. No one thought that this kind of thing could happen.
    So yes, we have that kind of system in place. I think 
Baltimore also has something similar. A lot of public health 
departments across the country need the kinds of resources that 
we are asking for to put those kinds of systems in place, and 
also to man those systems. One of the challenges we have is 
that we have been told we can get equipment. But equipment 
without people does not allow you to really do your job. I 
think many public health departments around the country would 
echo the need for that equipment.
    I think our hospital partners also need to be supported. We 
have private hospitals volunteering--one of our medical 
directors came on Sunday with his daughter asleep on his 
shoulder, to see what he could do to help. There is a 
tremendous medical community out there that really needs to be 
resourced. It used to be just police and fire. Now it is 
medical folks that are on the front lines.
    Senator Akaka. You are correct when you mention that there 
are problems in an emergency, as you mentioned, earthquakes, 
tornados or hurricanes, and how when that happens some people 
are turned away by HMOs or whatever. We need to put together a 
national criteria where----
    Dr. Walks. There is also another reason why you really need 
to have public health infrastructure. When you have something 
like we had, thousands of people who need to be protected first 
from this very horrible disease, they need to have a place to 
go. People are terrified, and there is a risk from everybody 
taking antibiotics. So if you have got people going to 
hospitals all over town getting antibiotics: Ivan Walks goes to 
Hospital 123. He gets his pills. He goes to Hospital XYZ; he 
gets his pills. He gives some to his neighbor. People have been 
selling Cipro on the Internet.
    By having one location--and Dr. Eisold did this for the 
Capitol folks, and we did this for the other folks in the 
District--we can keep a good record. What if we learned 
something 2 days ago? The CDC is learning things real time. 
They are telling us real time. What if we learned something 2 
days ago and we have to contact all of those people? One 
central database is a tremendous public health tool.
    Senator Akaka. Thank you for that.
    General Parker, thank you so much for your almost daily 
briefings to the Senate and members of the Senate. That has 
been very helpful to us. You were quoted in yesterday's 
Washington Post as saying that you do not have a large amount 
of anthrax samples to test and that this is limiting your 
ability to determine its characteristics. Has this been limited 
further by giving some of your samples to the FBI for analysis 
at another lab? Or what tests could be done at this other 
facility that could not be done at your lab?
    General Parker. Senator, first of all, we have had four 
incidents and the amount of sample has been very limited among 
all four. But there is an absolute limit of sample so it has to 
be carefully used.
    Our capabilities at USAMRID are such that we can identify 
and verify the organism, and we can do electron microscopy to 
do the sizing of the organism. But chemical characterization, 
typing of the organism is not within our current capabilities 
at USAMRID.
    Our customer, the Federal Bureau of Investigation, was very 
interested in questions like, are these spores all of the same 
family or strain? The expert in the country is Dr. Kiam at the 
University of Northern Arizona, and we sent our specimens--we 
know how to behave under the select agent rule and know how to 
package specimens so that we can move them from one institution 
to another. The Federal Bureau of Investigation asked us to 
move samples to northern Arizona for typing.
    When we were very interested in perhaps what was mixed with 
the spores we--actually, before we moved spores for that type 
of identification, killed the spores, a small sample of them, 
by radiation at our laboratory, and then moved them to the 
Armed Forces Institute of Pathology where special x-ray 
diagnostics could be done on the sample to give us more 
information about the characterization of the substance.
    So, sir, yes, we have our capabilities at USAMRID, but the 
greater picture is, we try not to duplicate or spend money on 
things that we know that there are experts in the country who 
we can reach out to and have the work done very, very well for 
us. They do that time and time again, so we are very happy with 
their answer, and we believe they have credibility with their 
answer. That is very important because the virtual laboratory 
is the type of laboratory we want for the 21st Century. We 
depend on the research and engineering expertise that this 
great Nation has, no matter where it is geographically.
    Senator Akaka. Thank you.
    General Parker. One sample was so small, the Brokaw sample, 
we had so little of it, and because it was part of a criminal 
investigation our customer, the Federal Bureau of Investigation 
asked us not to further analyze that because there is so little 
available for us.
    But on the other two, the Daschle sample and the New York 
Post sample, we had sufficient material to send around and get 
better characterization. As of this time, we do not have any 
original sample from the Florida case, sir.
    Senator Akaka. Thank you. Thank you for your responses.
    Chairman Lieberman. Thanks, Senator Akaka. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. Yesterday we 
had the Postal officials in to talk about what we could do to 
protect our Postal workers, and to create an environment where 
they feel safe in processing the mail, and guaranteeing the 
public that they would not have to worry about their mail 
delivery. I mentioned that there is a lot of anxiety in the 
country.
    I would like to just share with the Members of this 
Committee and the panelists, this is from the Cleveland Plain 
Dealer today: Across Northeast Ohio, Attacks of Anxiety. ``The 
fear of anthrax is causing enough aghast in northeast Ohio to 
keep health officials and emergency crews responding to calls 
about anything that walks, talks, or acts like a potentially 
dangerous spore, from baby powder to bathrooms to doughnut 
crumbs. . . .
    ``We are told to watch for unfamiliar mail, to wash our 
hands, to tell our superiors about any suspicious package and 
substances. We watch news reports about the rising numbers of 
infections and exposures in Washington, DC, Florida, and New 
York, New Jersey, and suddenly anything white and powdery, an 
extra stamp on a letter, envelopes from the bank machine are 
suspect.''
    This small county health commissioner says, ``I think it is 
getting to the point of paranoia,'' blaming the media for 
exaggerating the threat. ``We are wasting a lot of resources, 
time, and money.''
    It goes on, ``When doctors, nurses, and hospital 
administrators spend much of their workday meeting and planning 
for bioterrorism and fielding anthrax related calls, it is 
expensive. When police, firefighters, hazardous material crews 
answer bogus emergency calls, it has a price. When businesses 
are temporarily evacuated, when companies beef up mailroom 
security, buy gloves and masks, and train workers on how to 
handle suspicious packages, it saps productivity.
    `` `This will cost the country tens, even hundreds of 
millions of dollars,' lamented Michael Fuer, chairman and chief 
executive officer of Office Max, which evacuated the mailroom 
in its Shaker Heights headquarters for 2 hours last week after 
receiving a suspicious UPS package that turned out to be 
harmless.''
    It goes on and says, ``The appearance, anyway, that the 
government is wrestling with an opponent it really does not 
know much about has not helped allay fears.''
    I would like to take this out of who did what to whom, and 
look at the big picture. The big picture is, we have got to do 
something out there to allay the fears of the people in this 
country. We need to either remove them, or certainly lessen 
those fears and get things back on track so this does not do in 
our economy. We need to get good information out there.
    Dr. Walks, I commend you. I am also the ranking member on 
the D.C. authorization committee. I think you are doing a great 
job. But we have to understand that we need to deal with this 
in a responsible fashion. Maybe I am looking at it from the 
point of view of an old mayor and a governor of a State. We 
need to have a plan that is in place.
    First, I think we have to make it clear, and maybe the 
President ought to say it, that is the hoaxes have got to stop. 
This is no joke, and if you play that game, you are going to 
jail. We really need to get that out there, to stop that.
    Then second of all, we need to have in place a system where 
people can handle this in a rational, understandable fashion.
    Dr. Cohen, I would like to congratulate you. I know that 
you have been funding--I think you have got 11 States that you 
funded with competitive grants for technical assistance and to 
determine best practices. You were out in front on that issue 
of getting the States ready for something that could happen in 
the area of terrorism.
    But the fact of the matter is that our State and local 
health departments are being overrun. The State of Ohio has 800 
cases that have come in. They have got 300 that are still 
needing to be processed. Now those are probably minor ones that 
they do not feel are that important.
    I looked at that web site on Ohio biological threat 
response, and I must say, it leaves something to be desired. 
There has got to be some information out there that people can 
understand. What telephone number do I call? What is the 
process that we go through? So that they feel that if there is 
something, it is just going to be handled in a kind of a 
regimented way so they just feel good about life as it is. Keep 
going, and if something happens, pick up the phone. We know the 
number to call, somebody takes care of it and it is all worked 
out.
    Senator Bayh and I, and several other former governors, 
have introduced the Bioterrorism Preparedness Act. I think we 
need to get some money out there right away to the States and 
the local communities to organize this in a better fashion. 
This bill calls for $5 million immediately to the States to get 
started, and then competitive grants for another $200 million.
    Do we need to have local health departments with better lab 
facilities? Right now it usually gets down to the State, and 
then I do not know where you get involved, Dr. Cohen. But right 
now, in Ohio, it seems like all of the investigations are going 
to the State of Ohio, I think even with the FBI.
    So I would just like you to comment about how can we 
improve this situation so that we get better information on the 
street. Can we do something about lessening the anxiety and 
putting an organizational plan in place that aids and gives 
people comfort that if something happens it is going to be 
taken care of in an efficient way?
    Dr. Cohen. We do actually provide funding to all the States 
in some areas for bioterrorism, but I would completely agree 
about the need for additional funding.
    The infrastructure in public health, as has been pointed 
out, has eroded over time, and in many of these diseases that 
are potential bioterrorism threats there has been attrition 
because those diseases were no longer naturally-occurring 
threats to the public health. Diseases like anthrax were much 
less of a problem, so there was a great deal of de-emphasis in 
public health in dealing with them. So there was a basic need 
for improving public health and there was a need as well for 
improving those areas around bioterrorism.
    I think there is a variety of things that can be done. 
Obviously, rebuilding the public health infrastructure and 
building a new public health infrastructure in these areas are 
critical. But also information dissemination. I think part of 
what is critical in our response is the practitioners, the 
HAZMAT folks. We need to be able to provide more information to 
encourage that kind of surveillance.
    We need education; education for professionals and for the 
general public. I think all of this will be very helpful in 
trying to put a true estimate on the risks that people face. So 
I think it is a multi-faceted approach, but I think we start 
with the infrastructure and then we move into various areas as 
well.
    Senator Voinovich. How do we move rapidly, like in the next 
week or so, to calm the fears of the people in this country? It 
has already negatively affected our economy and our way of 
life. I was on the phone with the wife of a very good friend of 
mine last night at 11 and said, ``Do not worry about anything. 
Let me worry about it. It is going to be fine.'' But they need 
some comfort right now.
    How do we get that message across? Dr. Walks, you speak 
eloquently. I wish I could get you on TV, and have a national 
program, and have them listen to you. We really need to do 
that. What are your thoughts about that? How do we get that 
message out to people?
    Dr. Walks. My good friend, Dr. Acter, the head of the 
American Public Health Association says the No. 1 question he 
is asked is, how can I know that my local health department is 
ready? I think we should give the resources to those local 
health departments to be ready. Our mayor is proactive. He 
wanted on his desk a Day One plan. What do you do? What does it 
look like, if something happens on Day One? We put that plan on 
his desk, and we had to implement that plan. I think it is 
important to have that.
    If people know that their local health leaders know who to 
call, have a plan in place, protocols, procedures, policies, 
the surveillance that we talked about, those are things that 
give people comfort. You have got to be able to stand up in 
front of people and say, if the unthinkable happens--and we 
know it already has--this is what we will do. Let people know 
that you are prepared.
    Senator Voinovich. Any other comments? I know my time is 
up. How would you do it on a national level? Should the 
President go on and talk about this, or how do we lessen 
peoples' fears?
    Dr. Cohen. Again, I think that education, the many 
potential routes of education through leaders, through 
clinicians, through various media organization assessing what 
the true risk is. But again, encouraging people that they do 
have to be alert, because we are not talking about something 
that is natural, that has predictable patterns. But something 
that potentially is intentional and can change. So I think 
there has to be two components to the message.
    Dr. Walks. Can I just interject? I think that someone like 
the American Public Health Association can help us craft a 
single message. I think it is important for us to have a single 
message that people can respond to, that everyone can endorse, 
and then that one single message needs to get out.
    Chairman Lieberman. Thanks, Senator Voinovich. Important 
questions and good answers. Senator Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Thank you very much, Mr. Chairman. I will 
say that I have sat through hours of testimony on this issue, 
both as a member of the Armed Services Committee and a Member 
of this Committee, and I am now totally confused and somewhat 
bewildered. But as I look back at the studies of a terrorist 
attack on this country put on by Johns Hopkins, Dr. Tara 
O'Toole and others, called Dark Winter, another mock exercise 
called Top Officials, or TOPOFF, this confusion, this 
bureaucratic sense of chaos is all part of the norm. It was 
predicted in these two studies.
    I do think we are in a bureaucratic snafu of the first 
order. That the right hand does not quite know exactly what the 
many other hands are doing. And in many ways, all hands are in 
the pie, but we are not sure, and not able to reassure the 
American public what the pie is.
    I will say that I do not think I am the only one confused 
and bewildered. I think a lot of Americans are in the same 
position. I think the Postmaster General, in a statement 
yesterday before our Committee, basically said the same thing. 
He said the different focuses of various law enforcement and 
health organizations occasionally resulted in parties speaking 
different languages. And he said, absent an established 
protocol, lines of authority could occasionally be unclear. 
That is an understatement if there ever was one.
    Now I see why there is a lot of lack of clarity in terms of 
protocol. Under Presidential Decision Directive 39 of September 
2001, the Department of Justice, a law enforcement agency, 
acting through the FBI, is designated as the overall lead 
Federal agency for all domestic terrorism incidents. And under 
Executive Order 13-228 of October 8, 2001, the Assistant to the 
President for Homeland Security shall be the individual 
primarily responsible for coordinating domestic response 
efforts of all departments and agencies in the event of an 
imminent terrorist threat.
    It is interesting too, I asked the Postmaster General 
yesterday what he thought his line of communication was. He 
said Tom Ridge, homeland defense person. I said, if another 
anthrax attack broke out, who would you go to? He said 
Secretary Thompson. All of a sudden he was already out of his 
chain of command.
    Now we have the Congress in the Public Health Service Act 
and the Public Health Threats and Emergencies Act passed last 
year authorized the CDC--not a law enforcement agency, but a 
public health agency--authorized the CDC through the Secretary 
of HHS, to direct the national response to bioterrorism.
    Here we have got the Executive Branch designating two 
folks, and we have got the Congress designating the public 
health operation and CDC becomes the lead dog. CDC is to take 
such action as may be appropriate to respond to the public 
health emergency, including conducting and supporting 
investigations into the cause, treatment, or prevention of a 
disease.
    We are split as a government. So neither through statute, 
regulations, executive orders, or past practice is there a 
clear protocol.
    The procedure followed at Brentwood is perfectly consistent 
with current statute and regulation, but was confusing, and the 
confusion had deadly consequences. For instance, my 
understanding, Dr. Cohen, having visited the CDC and talked 
with Jeffrey Copeland down there, the CDC got into, or the 
public health segment got into the anthrax issue in Florida 
almost by accident in the sense that a doctor on the scene 
thought, I have never seen this before, but maybe . . .
    He called the public health entity in the State of Florida 
in Jacksonville. He did not call the FBI, and there was no 
homeland security person in the White House. He called his 
public health entity in Jacksonville. And in Jacksonville, the 
person he talked to had just gone through a CDC course on 
anthrax. He touched base with the CDC, and within hours, 3:30 
in the morning, CDC in the public health chain confirmed it was 
anthrax.
    One of the questions I would like to ask you as I finish my 
statement here is, in effect, when did you become aware of the 
virulent nature of the so-called Daschle letter version of 
anthrax since that anthrax was not sent to the CDC. That was 
sent to Fort Detrick, Maryland to an Army entity. Then the 
Brentwood facility tested their own operation through a private 
contractor which went to a Navy lab. So we have got three 
different entities here all testing anthrax and not 
particularly in touch with one another, I am afraid.
    I think that it is important that we make sure that the 
proper role of law enforcement as led by the FBI is there. What 
is their role? To identify the perpetrators and bring them to 
justice. I think they have their role. But in matters of 
weapons of mass destruction such as a biochemical attack that 
threatens lives and public health, I think the priority, the 
lead role ought to be taken by the CDC.
    In my opinion, clear authority for the CDC and the HHS to 
take the lead role with public health authorities like Dr. 
Walks and others to direct timely and effective response by 
other government agencies and the public is crucial. With this 
authority, I think Congress must give the CDC the needed 
funding to train the epidemiologists, secure the safety of 
laboratories, provide adequate and timely pharmaceuticals, and 
maybe most important, provide to the public credible 
information: Tell the truth. That has come out--Dr. Tara 
O'Toole who will be another panelist here--in the Dark Winter 
exercise, one of the real problems was communicating to the 
public.
    Senator Sam Nunn in that Dark Winter exercise, my dear 
friend who played the role of the President said, he learned 
two things. One, you do not know what you do not know. So we 
are all on this learning curve; all of us. But he said the 
second thing he learned was, he got very impatient as 
President, a few days into the exercise, with bureaucracy.
    So I am afraid that we have got a problem here that we have 
got to work out. We have got to clarify the roles and 
responsibilities of our agencies, and we have got to name a 
lead person or a lead agency to take the lead here and speak 
every day to this issue and give the public credible 
information. A rapid health response can make the difference 
between a threat and a tragedy.
    So I am working on measures to do this. I am going to be 
meeting with Homeland Security Director Tom Ridge to discuss 
these proposals.
    Now, Dr. Cohen, my understanding of the role of the CDC in 
your experience was with the Florida case, basically cutaneous 
anthrax. You were not sent the samples from the Daschle letter. 
Is that correct?
    Dr. Cohen. The samples from the Daschle letter were sent to 
Fort Detrick, yes.
    Senator Cleland. Right. And you were not sent the samples 
from the New York experience, were you?
    Dr. Cohen. Well, they were also sent to Fort Detrick, but 
we were sent the organisms that were isolated from those 
samples for characterization.
    Senator Cleland. All right. And the testing that you did 
was not at Brentwood but at an interim facility, and you found 
nothing, right?
    Dr. Cohen. Well, I believe that the specimens that were 
mostly environmental specimens initially in the D.C. area went 
to Fort Detrick as well.
    Senator Cleland. Right. But your testing--you did not test 
at Brentwood. You tested at an interim facility and found 
nothing there. Therefore, your advice to Brentwood was, in 
effect, you do not have to test. But that was based on your 
experience with what you knew up to that point.
    Dr. Cohen. Oh, yes.
    Senator Cleland. So the other samples, which were much more 
virulent, actually went somewhere else, and you and your staff 
did not quite know exactly what you were dealing with except 
Brentwood became the place that paid the price.
    Dr. Cohen. We made the assumption since the only specimen 
that was available at the time, which was the Daschle letter 
specimen, which was looked at and reported to us on October 15, 
we made the assumption that the specimens were the same, so 
that what had been received in Florida and would have been 
received in New York likely had the same characteristics.
    As part of that, we would then make the assumption that the 
risks that were perceived in Florida and New York would be the 
same risks that we would potentially experience in the 
District.
    Senator Cleland. But had all of these anthrax specimens 
gone to you as a central clearinghouse, wouldn't you have had a 
better gauge on what exactly was happening? You could track it 
better, you could give better advice to anybody, whether it was 
Dr. Walks or the Senate Attending Physician or to anybody in 
America?
    Dr. Cohen. I am afraid what happened with the specimens 
were that they were discovered at different times, so that the 
New York Post specimens and the Brokaw specimens were only 
available later in the week of October 15. So when the 
decisions were made, the only specimen that was available was 
that from the Daschle letter.
    Senator Cleland. But if all of these were sent to one 
location, to a central clearinghouse that has the labs and the 
expertise--and CDC has 8,000 employees, and basically the 
Congress last year, in effect, said you should be the lead 
agency in dealing with germ warfare in America. That is not the 
view of the Executive Branch, but it is the view of the 
Congress. And it does seem to me that we do need at least one 
clearinghouse so all of this can be sorted out and then speak 
to the American people and to the rest of us as to exactly what 
is going on.
    I have no further questions, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Cleland. Again, a very 
important line of questioning. Senator Thompson and I were just 
talking about it.
    It may be that after these couple of hearings we have held, 
building on others, we may ask our staff to put together a 
chronology which raises these questions, and perhaps it will 
suggest legislation. But if nothing else, I think we ought to 
send it over, by hand delivery, to Governor Ridge and have him 
take a look at it to see what should be done.
    Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. First of all, thanks to all of our 
witnesses for being here. Just to follow up on the questioning 
that Senator Cleland was following, earlier this week, in fact, 
on Monday, I asked to meet with some people at the DuPont 
Company who run a small operation there called Qualicon. The 
technology that they work on is designed to enable them to 
track disease or bacteria or microbes in food, and they work on 
a variety of foodborne pathogens to detect them and analyze 
them and so forth.
    They have the ability to use this equipment to take samples 
of anthrax, different strains of anthrax, and to analyze it, 
and within hours, tell you what kind of agent you are dealing 
with. They have the ability to depict visually and in other 
ways what the sample is. You can literally stand right there 
and look at the screen and see the differences between the 
different kinds of anthrax or other pathogens.
    Senator Cleland is talking about making sure that we try to 
get all of the samples centralized, whether it is in the CDC or 
some other place. I saw the technology with my own eyes this 
week that enables us to not only analyze at one location, but 
then just to disseminate it, literally through the Internet, 
and to spread that information in real time to whoever needs 
it.
    I did not know this technology until Monday, but I think I 
know just about enough to be dangerous right now. But it does 
not appear to me, having seen what I saw earlier this week, 
that you really do not have to centralize and have all the 
samples taken to the same place and examined by the same 
people. You can analyze it in different places and share your 
information through available technology.
    I do not know who in the Federal Government, who in the 
administration, who in the Executive Branch, needs to be aware 
of the existence of this technology. I would ask our witnesses 
to share with us in writing their thoughts this week as to who 
we should contact to say this exists. If you could get back to 
us this week, I would be most grateful.
    I want to go back to what Senator Voinovich was talking 
about earlier when he was referring to the hysteria that seems 
to have grown around the anthrax scares of the last couple of 
weeks. I think it was a day or two after Senator Daschle's 
office received the letter and they had a number of people 
there who tested positive for exposure. I pulled together the 
folks in my own staff in my office in Hart, right next door to 
Tom Daschle's office. We are next-door neighbors. People were 
anxious and concerned, as they ought to have been, and their 
families were especially concerned. We had parents calling from 
around the country, especially the interns' parents, saying, 
Get out of the building, come home, get out of there.
    But I sat my staff down and I said, All right, let's just 
think about this for a while. This whole building, the whole 
Hart building, could be contaminated with anthrax. Every 
ventilation system could be full of anthrax. Every one of us in 
this office, everyone who works in this building, staff and 
Senators, could have anthrax. None of us has to die. And I do 
not think we convey this message consistently enough and often 
enough. This is a disease for which there is vaccination. This 
is a disease for which there are any number of antibiotics 
which, if detected early, can treat the disease and save 
virtually everybody's life who has come in contact with it.
    This is a substance that is not easily developed. In fact, 
I am told only a handful of laboratories have the capability of 
creating it so that not just any Tom, Dick, or Harry can create 
it and send it out in the mail to threaten us.
    Finally, unlike smallpox and other similar diseases, this 
is not something that is communicable. And yet out of a handful 
of letters that have been sent, our Nation is in a tizzy. I do 
not mean to demean the threat or the concern. We certainly 
abhor the loss of life and the threat to health of people who 
are in hospitals or under treatment today. But we have to put 
this whole thing in context.
    What I said to my staff that day was this: Let's just calm 
down. And somebody needs to be saying as a Nation that, while 
we need to be vigilant, we need to be mindful of the concern 
and the nature of the concern, let's just calm down a little 
bit as well.
    Who is the appropriate person to deliver that message? It 
could be Governor Ridge. I do not think it could be any of us, 
although within our own States and within our own jurisdictions 
we certainly play that role. We set an example. I do not think 
by closing down the House of Representatives a couple weeks ago 
and heading for home that we sent that right kind of message. I 
think, if anything, we exacerbated people's fears. But we have 
some opportunities and responsibilities ourselves to send that 
message.
    That is pretty much what I wanted to say. Normally when we 
have panelists before us, I always ask questions, and I have 
not asked any questions of you fellows today. But I did want to 
respond to the concern that Senator Cleland raised, and I 
certainly wanted to respond to that which Senator Voinovich has 
raised. Again, we thank you for being here and for your 
service.
    Chairman Lieberman. Thanks, Senator Carper. Thanks very 
much. You have been very good with your time and answers. I can 
ask you while you are all here, because as we have traced the 
disease, we have talked about in some of the examples today how 
events are going beyond our experience and quite logically 
thought about the danger being only to those who are exposed to 
an envelope that is open or a package that is open and the 
experience of the Postal workers, and now we have had this most 
perplexing death of a woman in New York today who, from what we 
have heard, was not in the presence, as far as we know, 
directly of anthrax, was not working in a mail situation, for 
instance.
    Repeating our earlier statement that there is a lot we do 
not know, I am curious, any of you who are experts at the 
table, how you respond to this fact and what may be going on 
here. Or, as I would be asking if I weren't sitting here, What 
in God's name is going on here? Do you have any thought about 
what happened?
    Dr. Cohen. Well, I think that is why it is very critical 
that we conduct a thorough epidemiologic investigation to find 
out if there were any potential exposures that might explain 
that particular case. And I think it is clearly a high priority 
to try to determine how transmission occurred.
    Chairman Lieberman. Any other thoughts about it, General 
Parker or Dr. Walks? Don't feel obliged if you do not have any.
    Dr. Walks. I actually do have a thought on that. I think 
that at times like this it is important for us to talk about 
what we do know. I think we have learned enough now not to 
guess, and I agree that we need to wait until the science takes 
us there.
    But, again, it is important for people not to be so 
perplexed by this one case that we are paralyzed and we have 
all of the things that we have talked about today.
    Chairman Lieberman. Right.
    Dr. Walks. We know a lot about how to treat this.
    Chairman Lieberman. Good point. Now, the last question is 
on behalf of Senator Thompson and me, and it may actually be 
educational for the public. We have both had in our minds--at 
least I have--that anthrax is white. And in your testimony, you 
said it was tan. So is it white or tan or can it be both?
    General Parker. Senator Lieberman, to be safe, I would say 
both. But in our experience with concentrated spores, it is 
off-white at best, because the spore does have some color to 
it.
    Chairman Lieberman. So it tends more to be white than not 
white?
    General Parker. Well, it may depend on its concentration, 
too. In a rather diffuse way, it may look white, and in a 
dense, concentrated way, its color may come forth and look a 
little tan or brownish. So I do not think that we want to 
signal that white powders on tables or white powders on floors 
are automatically not suspect.
    The problem that I have, there is this terrible 
concentration on anthrax, and there are other agents that 
threaten this Nation, and how are we going to identify and deal 
with those as they come up? It is a serious, serious problem 
for this Nation. And I think the laboratories at Fort Detrick 
and the Defense Department have struggled for years with these 
problems.
    I would say to you, if I could take one second, that 
knowledge and education are critical. Usually the creation of 
knowledge is not created overnight. It takes long-time work and 
research. And so as we look forward, not in the next week--and 
I am right with you--what do we have to do this week to help 
this Nation get over this? But in the long term, we have to 
make sure that we have a rich research base in academia and in 
our agencies to do long-term research on these potential things 
so that we know more and more about them, so that when 
something happens we are not trying to learn as the incident 
unravels.
    Chairman Lieberman. Thanks, General Parker. That is a good 
note to end it on. I thank you for your testimony. I thank you 
for all that you and your organizations have been doing. We 
could look back, sometimes we may sound critical. Obviously 
everybody has been trying their best in a most demanding and 
unusual situation to protect the public health. For that we are 
eternally grateful to you, and we look forward to working with 
you on the answers to some of the questions organizationally 
that this Committee has raised today. Thank you and good luck 
in your work.
    We will now call the third panel: Dr. Dan Hanfling, 
Chairman of the Disaster Preparedness Committee, Inova Fairfax 
Hospital, officially designated a hero today; and Dr. Tara 
O'Toole, Deputy Director, Center for Civilian Biodefense 
Studies, Johns Hopkins University, who I will give a medal to 
for her extraordinary work in this area.
    Can I ask the previous panel to move back from the table so 
that the two witnesses for this panel can come forward?
    I want to begin with an expression of regret. I have to 
leave the hearing room for a few moments. Senator Akaka will 
Chair while I am gone, but I will be back, and I thank both of 
you for being here.
    Dr. Hanfling, why don't you begin.

   TESTIMONY OF DAN HANFLING, M.D., F.A.C.E.P.,\1\ CHAIRMAN, 
    DISASTER PREPAREDNESS COMMITTEE, INOVA FAIRFAX HOSPITAL

    Dr. Hanfling. Mr. Chairman, distinguished Members of the 
Committee, it is an honor, it is a privilege to come before you 
for the purpose of shedding light on the events of the last 
week and a half. I am Dr. Dan Hanfling. I am a board-certified 
emergency physician practicing in the Department of Emergency 
Medicine at Inova Fairfax Hospital. As Senator Lieberman 
mentioned, I am the co-Chairman of the Inova Health Systems 
Emergency Management and Disaster Preparedness Task Force, and 
I have had extensive experience in the delivery of out-of-
hospital emergency medical care, including disaster scene 
response, most recently at the Pentagon, with the FEMA National 
Urban Search and Rescue Response System.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Hanfling appears in the Appendix 
on page 209.
---------------------------------------------------------------------------
    In the post-September 11 world, it is clearer than ever 
that many elements of our newest war will be fought in ways 
never previously imagined. Many of the battles will be waged 
quite literally right here at home. The eruption of a public 
health crisis from anthrax-contaminated mail has demonstrated 
beyond a doubt that the front line in this war is our hospitals 
and their emergency departments.
    With hardly a moment to collectively catch our breath in 
the wake of the events of the second week of September, the 
medical community has been thrust front and center in the 
response to multiple cases of cutaneous and inhalation anthrax 
during the month of October. What we all hoped was a case of 
natural outbreak of disease was quickly proven to be the 
deliberate work of terrorists. And what we hoped would be 
limited to one work site quickly spread to multiple targets 
across three metropolitan regions.
    On the afternoon of October 20, 2001, I was called with the 
information that a U.S. Postal Service employee who works at 
the Brentwood Postal Facility in the mail-handling room was 
admitted to Inova Fairfax Hospital following a comprehensive 
emergency department diagnostic evaluation. Although 
confirmation of the inhaled form of anthrax was still pending 
and the Centers for Disease Control and Prevention had already 
dispatched a superbly capable epidemiologist to interrogate and 
evaluate this patient, there was no question in anyone's mind 
just what this gentleman had come in with. In the words of Dr. 
Thom Mayer, who actually is sitting behind me here, the 
Chairman of the Department of Emergency Medicine, this man's 
blood was ``crawling with anthrax.''
    With a sense of urgency appropriate to the gravity of the 
situation, hospital administrators and key clinical 
decisionmakers conferred by way of hourly conference calls. 
This was primarily meant to keep abreast of the fluid situation 
and to craft a plan of action, especially a medical plan of 
action. Those new to the field of crisis management naively 
assumed that all would be made clear by ``soon-to-be-released'' 
guidelines coming from the CDC. But such information was not 
readily forthcoming.
    In fact, as the crisis unfolded, the stream of information 
continuously appeared to be moving in an unidirectional flow. 
The CDC was requesting and receiving clinical and epidemiologic 
data, but the return of information to the people who needed it 
the most in order to take care of this patient--and then his 
colleagues and the many thousands of Postal employees at risk 
for contracting the disease--simply did not happen in a timely 
fashion.
    I am aware of daily conference calls occurring between 
representatives in the State of Virginia Department of Health 
and their counterparts in the CDC. But the results and 
conclusions of such discussions did not filter down quickly 
enough to the hospital and medical communities. From some very 
frank discussions that I had with my counterparts in the 
District of Columbia and within the State of Virginia 
Department of Health, it was clear from the very beginning that 
the CDC was perceived to be in charge of the unfolding 
situation. In addition, the local health department took some 
time to find its position and its voice in this developing 
story.
    What is so ironic is that if this had been a major 
snowstorm barreling up the eastern coast of the United States, 
we would have found a lot more information at our fingertips 
because the mechanism for reporting those sorts of things are 
in place. But here, with an unfolding public health crisis, 
there was no means for conveying information in a consistent 
and timely manner, issues that we have heard presented by 
panelists earlier this morning.
    It became apparent that the lack of coordinated 
communication and inconsistent leadership from the top was 
hindering the ability of the medical community to respond in a 
coordinated fashion to this crisis. In fact, with every new 
anthrax exposure site came a new and often different set of 
antibiotic prophylaxis recommendations. Again, something that 
we have heard some mention of made earlier.
    This has been further exacerbated by the geographic and 
jurisdictional boundaries that separate the national capital 
region into its constituent parts: The District of Columbia, 
the State of Maryland, and the Commonwealth of Virginia.
    The conference call mechanism initiated by Inova Health 
Systems on October 20 soon expanded to include participants 
from hospitals all across Northern Virginia. Along with a 
handful of my colleagues, we created an operational entity that 
was designated the Northern Virginia Emergency Response 
Coalition, which was comprised of key decisionmakers from the 
hospitals and including representation from the local and State 
public health departments.
    In doing so, we attempted to create a clinical consensus 
with respect to the evaluation, treatment, and management of 
patients presenting to hospital emergency departments with the 
concern of anthrax exposure. In support of this effort, Inova 
Fairfax Hospital stood up its Disaster Support Center, which 
served as a real-time communication link for all of the 
Northern Virginia hospitals.
    Simultaneous with these efforts, much the same was being 
done in the District of Columbia through the excellent 
leadership provided by the District of Columbia Hospitals 
Association. In fact, hospital and public health 
representatives from both the States of Maryland and Virginia 
increasingly populated the DCHA conference calls--in fact, the 
call that Dr. Walks was referring to in his testimony.
    These calls were as close as we ever came to approaching a 
semblance of coordinated communication, but even these shared 
telephone calls were no substitute for a professionally managed 
emergency operations center that has the capacity for providing 
sophisticated communications support and timely information 
management.
    Politics, I am afraid, got in the way of effective 
consequence management as evidenced by the fact that the five 
patients from Brentwood showed up for treatment at hospitals 
across the region--in the District, in the State of Maryland, 
and in the Commonwealth of Virginia--yet the Mayor and the 
State Governors never once, to my knowledge, discussed this 
crisis together in public.
    In fact, Dr. Walks and I actually did not meet face to face 
until last Thursday night when we were on the set of a 
television interview on the unfolding crisis. This was not a 
means of omission by purpose. This is, again, because the 
mechanisms for this sort of coordinated communication, 
especially in a metropolitan region such as the District of 
Columbia, are not in place.
    Some of these failures may also be due to a lack of 
understanding of the expectations and roles of public health 
officials in such an emergency. Some of the shortcomings can be 
offset by proper preparation. As an example, training emergency 
department staff and other members of the medical community in 
the recognition of the use of bioterror agents I think must now 
be given the highest priority.
    Previous training efforts have been very limited in scope 
and reach. The American College of Emergency Physicians, 
supported by a grant from the Department of Health and Human 
Services, for example, evaluated the barriers to effective 
training in the medical response to nuclear, biological, and 
chemical incidents. This is something that I had presented in 
previous testimony to this Committee. The barriers were felt to 
be due to a lack of adequate funding and time constraints due 
in part to personnel shortage. Yet what this last week has 
taught us more than anything else, as did the outbreak of West 
Nile virus before this, is that clinical determination of 
biological terrorism will be recognized first by a cautious, 
astute clinician, well versed in the possibilities of 
bioweapons use, and very likely in our hospitals' emergency 
departments. In fact, while we have discussed certain failings 
in the public health system, it should now be quite clear that 
the front lines in this war are our emergency departments, even 
more so than the public health agencies, I might say. Federal 
efforts to address such existing deficiencies should take this 
matter seriously into consideration.
    There is a lot of work yet to be done with respect to 
``all-hazards'' disaster planning and preparedness. I cannot 
emphasize enough the fact that such preparation must take a 
systems approach in order to be able to address whatever the 
next threat may be. And financial support for these efforts 
must be focused on emergency departments and hospitals that 
will diagnose and treat the next victims. Surveillance systems, 
for example, while they have their role, will not replace the 
doctors and nurses in the trenches who will be called upon to 
make the diagnoses and to initiate treatment.
    Now, what follows are absolute needs that hospitals require 
in order to effectively face these new threats. I might add 
these are needs that we required ``yesterday.''
    We need an enhanced communication mechanism and protocol 
that allows for coordinated sharing and discussion of essential 
information in real time across jurisdictional and geographic 
boundaries.
    We need improved integration of Federal experts into the 
local organizational structure and delivery of their message in 
a consistent and timely manner.
    We require the development of local stockpiles of essential 
medical supplies and equipment in the event that the next 
outbreak occurs either simultaneously on multiple fronts or 
with some confusion, thereby delaying the delivery of Federal 
assets or diluting the amount available to be distributed.
    Funding for fixed-cost items such as decontamination 
capabilities and personnel protective equipment that play more 
of a role in a chemical terrorism event, but are still issues 
that we need to consider in the context of all-hazards 
preparation, must be funded for hospitals to meet the threat of 
unconventional terrorism.
    And financial support for training and education of health 
care providers in the evaluation, diagnosis, and management of 
the new threats that are out there must be made.
    Based on estimates which I was asked to prepare on behalf 
of the Virginia Health and Hospitals Association, the fixed 
costs of some of these items that I have just mentioned alone 
come in at about $5 million for the State of Virginia, and in 
addition to that, when you add stockpiling needs and education 
needs, we would estimate an additional $30 to $40 million, 
again, for the State of Virginia.
    The accepted means of declaring an escalating situation a 
disaster are straightforward. This occurs when local resources 
are outstripped such that the Federal assistance is required. 
Implementation of the Federal Response Plan, in turn, clearly 
designates the appropriate lead Federal agency to handle a 
crisis. With that in mind, then, it is hard to understand how 
it came to pass that in this past week the CDC took the lead in 
responding to this crisis. As we attempted to do in Northern 
Virginia, the health care community, including the local county 
health departments, became increasingly coordinated in 
developing and executing a response to the unfolding situation.
    Ideally, the CDC and the U.S. Postal Service should have 
served more in a consulting role, giving back information to 
the public and to the medical community. However, this 
communication was slow in coming and often lacking in definite 
authority. In order to be truly effective, these efforts must 
instill confidence and the message must be consistent and 
clear. Thank you.
    Senator Akaka [presiding]. Thank you. Dr. O'Toole.

  TESTIMONY OF HON. TARA O'TOOLE, M.D., M.P.H.,\1\ DIRECTOR, 
     CENTER FOR CIVILIAN BIODEFENSE STUDIES, JOHNS HOPKINS 
                           UNIVERSITY

    Dr. O'Toole. Thank you, Mr. Chairman. I think the response 
to these anthrax incidents has revealed much that is admirable 
and that has succeeded in our public health and our medical 
systems, particularly the dedication of thousands of 
professionals in the public health and the medical realms.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. O'Toole appears in the Appendix 
on page 214.
---------------------------------------------------------------------------
    However, it has also presented us with a vulnerability 
assessment, to use Mr. Decker's term, of the public health 
system. We can conjure up thousands of scenarios of bioweapons 
attacks, and we could do a vulnerability assessment and a 
criticality assessment for each of them. But I would hope that 
we would use the living lessons that we have experienced over 
the past few weeks to improve our capabilities in the future. 
And I would like to quickly run through the five lessons or 
vulnerabilities that I have observed, and perhaps these will be 
useful in terms of trying to provide an algorithm for our 
thinking.
    First of all, I think there has been an obvious and serious 
failure at the top of our government to make communications 
strategies a priority. The government has done simply a 
terrible job of communicating what is going on and what it 
means, and I will come back to this in a minute. This is true 
both among the government agencies working on the problem and 
also affects the communication between the government and the 
public and the media and professionals in the private sector.
    Second, we have very serious, longstanding structural 
problems within the public health system that we are going to 
have to fix, and they are going to be very expensive to repair 
and will take years to heal. These includes fragmentation and 
lack of surge capacity in both public health and medical areas, 
and I will come back to those.
    Third, there is a lack of specific preparedness for 
bioterrorism response within the CDC, the State, the local, and 
the city health departments and on, as Dr. Hanfling says, the 
front lines of clinical care in this country. We are, in fact, 
getting exactly what we have paid for. Much has been 
accomplished in the last 3 to 5 years, and, in fact, we would 
not even have enough national pharmaceutical stockpile to call 
upon and get our Cipro and doxy from if preparations for 
bioterrorism had not begun several years ago.
    Nonetheless, in the past 3 years, we have spent $1 per year 
for every American man, woman, and child on bioterrorism 
response, and we are seeing the fruits of that investment. That 
simply is not enough. It does not even come close to being 
enough.
    Fourth, I think what we are seeing is a lack of 
transparency and possibly an inadequate strategy or focus on 
how to identify, prioritize, and solve some of the many science 
problems that are coming before us.
    And, last, happily, we have not tested the capacity of the 
health care delivery system to respond to a large event, but I 
think that we should be very mindful of the stress and the 
difficulties that have visited the health care system in the 
States and cities affected by what are now only 18 anthrax 
cases.
    So let me review those five points in greater detail.
    First of all, the lack of an adequate communications 
strategy. I do not think this is simply about a credible, 
highly knowledgeable, deeply schooled, and media-friendly 
person getting up once a day or ten times a day and talking to 
people. That is absolutely essential and it has not happened. 
But what we need to think about is exactly how we would hook up 
all of the different pieces of the public health system and the 
health care system in real time with actual data. This 
connectivity problem of trying to link together all of the 
multiple nodes that are involved--the hospital in Florida, the 
health department in Florida, the lab in Florida, the lab in 
CDC, USAMRIID, D.C., Trenton, New Jersey, New York City, etc.--
is very, very difficult, and part of that difficulty has to do 
with the fragmentation of our health system and the lack of 
connectivity within that health system.
    I do not think the public is panicking. I do not think the 
public is acting irrationally. I think the public is, in fact, 
responding very sensibly to what it sees as a lot of confusion. 
They are trying to figure out how to protect themselves and 
their kids.
    There is a poll out from CNN that says reasoned calm and 
reluctance to panic characterize the general state of the 
American public. Only 50 percent of Florida residents have any 
concern about contracting anthrax. The so-called panic buying 
of gas masks and Cipro is not panic buying. It is a reasonable 
response to uncertainties about whether the national 
pharmaceutical stockpile can get to them when they need it. 
They are reading the newspapers and worry that they may not be 
told what they need to know in a timely fashion.
    So I do not think the public is responding to panic. I 
think the public is responding to inadequate information. In 
times of uncertainty and great anxiety, what you need to do is 
increase the information flow, not try to shield the public 
from disturbing information.
    I think we should also follow some common risk 
communication rules that have been articulated today such as 
say what you know and what you do not know and what you are 
uncertain about very clearly. This confusion and consternation 
that was caused by the difference between a ``garden variety 
anthrax'' and ``weaponized anthrax'' I think is an accurate 
example of what happens when you do not have enough deeply 
knowledgeable people speaking all the time, correcting 
misapprehensions, and deepening people's understanding of what 
these terms mean.
    It is hard to communicate. I was speaking with General 
Parker before the hearing, and he noted that in every exercise 
and every drill of any kind he has ever been in, communication 
is the No. 1 problem. It is hard to do. You need to practice. 
You need to exercise. We need more drills and more exercises 
involving all of the different players so we can figure out who 
is who and how to communicate more efficiently, as Dr. Hanfling 
has suggested.
    Second, we have pervasive and very deep structural 
inadequacies in our public health response. The fragmentation 
and the problems of information not flowing to the front lines 
I think is obvious. We, at Hopkins, are getting lots of calls 
from State and local health officials trying to figure out what 
the environmental sampling protocol is. No one knows. I have 
not seen one. I have no idea. People are basically making it 
up. The local and State health departments for the most part 
are not capable of devising these kinds of protocols without 
help. Yet they are not getting enough specific guidance to put 
them together. Hence, we are going to have a lot of 
inconsistent environmental surveillance protocols. It is going 
to make it difficult to analyze this information in total.
    The Federal and State public health departments have 
inadequate resources. We are hearing stories of people 
literally sleeping in the labs at CDC and not coming out for 
days on end. People are being pulled from every niche of State 
and local health departments to do all anthrax all the time. In 
some places, no other public health work is getting done. One 
doctor in California called the State health department to find 
out what to do about a suspicious letter and was told he was 
number 450 in line to talk to a human being.
    The labs are overwhelmed with these thousands of samples 
they are being asked to identify. You heard Dr. Walks talk 
about how in D.C. health workers are manning the hotlines 
overnight and then going to work.
    This cannot continue. This lack of surge capacity is 
exhausting people across the Nation. They are working their 
hearts out. And we have only got less than two dozen cases. 
What would happen in a big attack? We have no bench. We have no 
depth.
    Third, lack of specific preparation for bioterrorism. Less 
than 20 percent of the local health departments have a 
written--not exercised, but merely written--bioterrorism 
response plan. We have no play books. We have not worked out 
how HHS and CDC and FBI and the local health departments and 
the State health departments are going to interact. We have no 
capacity to rapidly push information to the city and county 
health departments. Two weeks ago, CDC's own Internet 
capability was down for 8 hours. That was the one E-mail web 
line in and out of CDC. There is no backup. There is no 
redundancy. It was gone.
    Half of the local health departments cannot connect to the 
Internet, and those who can are mostly on very slow land lines 
that cannot download a lot of data quickly, making them rather 
useless in this situation.
    We have little capacity to get information to the clinical 
community. The physicians in this crisis have been as 
frustrated as anybody trying to get information about anthrax 
and what to do and how to collect specimens.
    Fourth, inadequate or at least inadequate transparency into 
dealing with the science questions and technical decisions has 
been a real problem. It is, I think, unreasonable to ask the 
people in the middle of this operational fray to also think 
through all of the angles that need to be played out and 
considered. And I would hope in the future that we would 
consider means of calling together experts from around 
different parts of the government and the private sector and 
the universities to act as backup and as a brain trust, if you 
will, in such emergencies.
    Finally, the hospitals. I will just echo Dr. Hanfling's 
notes. One hospital that I know of estimated how much it would 
cost just to do the basic minimum to get ready for bioterrorism 
attacks--not chemical attacks, bioterrorism--and is spending $7 
million right now--this is a big academic center nearby--
exclusive of stockpile, exclusive of training for staff. That 
is the kind of figure we are looking at imposing upon 
hospitals, 30 percent of which are already in the red.
    I would just like to leave you with the following thought: 
Given what I understand of the costs out there--and I think we 
have pretty good estimates to indicate this--simply bringing 
the 83 State health labs up to the level where they can all 
rapidly diagnose environmental samples of anthrax would cost 
$400 million. If there is less than $2 billion right away in a 
bill for public health department infrastructure and upgrades, 
then I think we have to conclude that the government does not 
understand the threat, has not learned the lessons of the past 
few weeks, and is not yet apprehending that the anthrax 
problems that we have faced are the prologue and not the whole 
story associated with bioterrorism in the United States.
    Thank you, Senators.
    Senator Akaka. Thank you very much for your responses. I 
would like to welcome back Dr. Hanfling and Dr. O'Toole to the 
Governmental Affairs Committee. It is unfortunate that the 
conversation we had on bioterrorism in July has become so 
pertinent and real today. The hypothetical has become reality.
    Dr. Hanfling, I am sorry CDC did not stay to hear your 
testimony. I am very concerned to learn that the information 
discussed between CDC and Virginia public health did not make 
it down to the hospitals. Why do you believe this breakdown in 
communication occurred? And are there ways of improving it?
    Dr. Hanfling. Senator Akaka, I think that to be fair to our 
Federal partners, it is not that the information never made it 
down. It is just that it took a while for that information to 
filter down, and it also took a while to put in place the 
mechanism, one, to collect that information and then, two, to 
distribute it.
    So part of this problem, I think, is related to the absence 
of a coordinated communication system that not only is in place 
in real time now, but that is practiced and tested. And to be 
fair, the CDC did post information as it made it available on 
its Health Alert Network (HAN) and on its Web page, and yet it 
seems a little bit strange to me that I could access that as 
easily from my study at home as I could from the command center 
at my hospital. And I would have hoped that there would be a 
more direct conveyance of those sorts of critical pieces of 
information into the hands of the people who needed it.
    Senator Akaka. Dr. O'Toole and Dr. Hanfling, I agree that 
we need a nationwide, comprehensive communication network to 
connect everyone involved in bioterrorism response. The CDC 
currently has the Health Alert Network in several States and 
plans to expand this system to the entire Nation.
    Is this the sort of communication system that you feel is 
needed?
    Dr. O'Toole. No. That may be part of it, but I think if we 
are talking about a communication network, what we need are 
cell phones, we need Blackberries, we need laptop computers, we 
need phone connectivity, in addition to electronic data flows. 
HAN is very slow. The tremendous virtue of HAN is it is the 
only thing going to the local health departments. They have 
been complaining in this crisis that they are not getting the 
information that goes from CDC to the State health departments 
in a timely fashion. It is kind of getting filtered and 
reworked in the State level, as I understand it, and then it is 
taking hours or days to get back down to the local health 
department, by which time it is not very useful.
    CDC has 80-some-odd different surveillance systems, none of 
which connect to each other. We definitely need to look at 
these kinds of electronic surveillance systems. We absolutely 
have to build electronic capability into these various nodes in 
the health system, but that is only the beginning. In a big 
epidemic, you are going to want hand-held electronic devices. 
You are going to want cell phones. You are going to want to be 
able to communicate in the crisis.
    New York City, which has a very robust medical system, had 
all of its communications knocked off-line on September 11 
because the mother node was in the World Trade Towers. They 
scrambled to put phones and walkie-talkies and so forth in the 
hands of the people who needed them, and they succeeded because 
they are New York. But we need to plan for that kind of 
redundancy. We need to think through how are we going to 
communicate. And it probably should be a mix of phone calls to 
key people--probably Dr. Hanfling would be one such person in 
his hospital--bulletins that go out not just to docs directly 
but to professional medical societies. That is how docs learn 
what is going on. They do not generally go up on the Web 
looking for info during the night after they see patients.
    Dr. Hanfling. I would also echo that if we go back to 
September 11, for example, across Northern Virginia and the 
District of Columbia, hospitals prepared in earnest for 
casualties that we believed would come, if not from the 
Pentagon, then from the World Trade Towers in New York City. 
But the information about the status of those two situations 
was no better than what we were able to watch on TV. And there 
was no real coordinated communication even amongst the hospital 
communities.
    The District of Columbia Hospitals Association has really 
established what I think is a best practice in terms of meeting 
this challenge with what is called a hospital mutual aid radio 
system, where they are connected every morning by radio to 
assess the capabilities and the bed capacities in each of the 
institutions. I think it is a great idea that ought to be 
shared elsewhere so as to be able to gain a full appreciation 
of what are the hospitals prepared for. And in having that 
mechanism in place, then, when a crisis unfolds, as we saw over 
the last week and a half here in the Metro D.C. area, use that 
communication tool to share information.
    Senator Akaka. We have been talking about and it has been 
alluded to that there should be a national spokesperson or a 
lead agency that should do this. Do you have any suggestions as 
to what that may be?
    Dr. Hanfling. Well, I will take a stab at that. I think 
that it was mentioned by Senator Cleland that we have the 
Homeland Security agency, we have the Centers for Disease 
Control, we have the Department of Justice. We have essentially 
at the Federal level a turf battle, if you will, over who is in 
charge. And we have heard those words echoed in this town 
before, and I think it is clear that a consistent message that 
is both directed towards the public and, when needed, enhanced 
for the clinicians and the medical community must come from 
above.
    It seems to me that this administration has chosen to focus 
its efforts across the Federal agencies into Governor Ridge's 
new position as the Secretary of Homeland Defense. And if we 
agree with the words of the President that we are fighting a 
new war, both overseas as well as at home, then it makes sense 
that someone in that office ought to be a point person day in 
and day out for sharing this message consistently.
    Senator Akaka. What are your comments on that, Dr. O'Toole?
    Dr. O'Toole. Well, Senator, having been in government 
service, I do not think there is any way to organize out turf 
battles, and I would prefer to spend less time talking about 
who is in charge and more energy on understanding what needs to 
be done. I think if we had a clearer understanding of our 
capacity to respond as it is and what it ought to be, there 
would be a lot less competition for being in charge, frankly.
    Senator Akaka. Thank you. Thank you, Mr. Chairman. My time 
has expired.
    Chairman Lieberman [presiding]. Senator Thompson.
    Senator Thompson. Thank you very much. You have certainly 
laid out an impressive array of areas where we are deficient. 
You both have been dealing with health care issues and in 
government service.
    Ms. O'Toole, what is most surprising to you about this? I 
mean, you are not naive about the way government operates or 
the nature of the problem that we are dealing with here. What 
has surprised you the most about our lack of ability to deal 
with this, as Ms. O'Toole says, a relatively small attack, if 
you want to call it that. The CDC is inundated, phone lines are 
hung up, people do not know how to talk to each other, all 
that. Somebody may have done us a gigantic favor by doing this. 
Hopefully we will learn from this so that when the real attack 
occurs we will know what we are doing.
    Has anything about this surprised you, really?
    Dr. O'Toole. No.
    Senator Thompson. Because you have seen over the years the 
lack of money that we have devoted to this. National security 
in general has gone down. The military budget has gone down. 
You could not stack all of the reports on terrorism and the 
threats that we face, end to end in this room probably. But yet 
no money, no real money, has been appropriated to do anything 
about it.
    What about you, Dr. Hanfling? I do not know if you have 
been in government or not, but----
    Dr. Hanfling. No. I have lived in the District long enough 
to appreciate some of those frustrations, though.
    I would echo Dr. O'Toole's sentiments in terms of really 
saying that we are not surprised, although, on the other hand, 
there has been--I think it took a while for us in the last 5 
years to really begin to examine the nuts and bolts of this 
whole threat of what initially we called ``weapons of mass 
destruction,'' what some of my colleagues at George Washington 
University and I have tried to shift to really describing it as 
``weapons of mass exposure,'' because it is not necessarily 
destruction, as we have seen in this last week, and what our 
colleagues at Johns Hopkins, Dr. O'Toole, Dr. Henderson, and 
Dr. Inglesby, have done to really even further define the 
specific threats of bioterrorism.
    I think this is part of a process, and I would agree with 
you that the silver lining in all of this is that maybe we can 
use these experiences as an insight into where we really need 
to focus attention. But, again, am I surprised? I am not 
surprised at the way this unfolded.
    Senator Thompson. Dr. O'Toole, you mentioned the need for 
information flow. I have mixed feelings about that because, up 
until very recently, anyway, it is quite clear that a lot of 
the people who had the responsibility for this were getting 
conflicting and incorrect information. I am not sure how much 
timely information flow we need when it is bad information and 
when we really do not know what we are talking about or what we 
are doing.
    I mean, as Members of the Senate, we have been briefed in 
great secrecy about the real story, and these briefings have 
been totally wrong in some respects. So I do not know if it is 
better to go out there day to day and say half of what we told 
you yesterday is incorrect. Clearly, everyone needs periodic 
reassurance, but I agree with you that the only people who I 
see panicking are people in this town. I think it never 
occurred to any Tennessean to call me and ask me how they ought 
to conduct their lives in light of what is going on. You 
hopefully learn as you go along and exercise some common sense, 
and people understand the heightened risk of certain 
circumstances and the need to be more careful than normal--
things of that nature.
    Your information that is flowing cannot be any better or 
more reassuring than the truthfulness of it or the accuracy of 
it. And I think we have to go back to the origins of the 
problem.
    On the money side, you mentioned some numbers, and I am not 
sure I got them all. You said, $7 million per hospital, not 
including stockpile, not including training. What did that 
figure represent?
    Dr. O'Toole. It represents, for example, the cost of buying 
the appropriate protective gear for health care workers, 
special masks to prevent spread of contagious disease. It 
represents infrastructure changes, applying HEPA filters to one 
section of the hospital that could be turned into a ward for 
patients with transmissible disease. It represents some 
education costs for staff.
    Senator Thompson. You mentioned $400 million for 
laboratories for States.
    Dr. O'Toole. Yes.
    Senator Thompson. We have already exceeded--yesterday we 
exceeded your $2 billion figure. The post office alone needs 
$2.5 billion.
    Dr. O'Toole. No. Two billion for State and local health 
departments.
    Senator Thompson. I see. So what would be the other major 
components?
    Dr. O'Toole. Beyond State and local health departments?
    Senator Thompson. Beyond that, yes.
    Dr. O'Toole. Well, certainly the stockpile costs are going 
to be appreciable. Certainly education for the medical 
professionals has to be considered. That is not a big-ticket 
item. We could probably do that for $20 million.
    We are going to have to think over the long term how we 
increase the surge capacity and the talent available to all 
levels of health departments in the coming years. This is 
something that the Hart-Rudman report called for. We need an 
infusion of young people and of technical talent in the 
sciences into the government.
    I would like to see programs, for example, that encourage 
mid-career professionals to go work at CDC for a year and come 
back out. I think it would be terrific for CDC professionals to 
go down to the front lines once in a while, have a chance to do 
more reflective work.
    Senator Thompson. I think people are just beginning to 
realize that this human capital crisis that we talk a lot about 
has several national security implications.
    Dr. O'Toole. Yes.
    Senator Thompson. That is what Hart-Rudman was talking 
about.
    We have not even mentioned the technology yet. Senator 
Carper mentioned detection technology and analysis technology. 
The FBI is behind, at least a decade, in terms of just hardware 
and technology, to give one example. We have got a tremendous 
built-up demand out there across the government for technology, 
and the need for people, as you point out, to be able to 
operate it. We have a terrible track record being able to 
implement large information systems, for example, in 
government. We have wasted billions and billions of dollars.
    We cannot get the IRS straightened out, much less respond 
to some real national emergency today. So we are going to need 
the technology, we are going to need the people who know what 
they are doing with regard to it, and we must be able to retain 
and keep the highly trained people in this new era.
    We have some real fiscal issues here that we are going to 
have to deal with. We are going to have to talk about 
sacrificing and what we are going to have to do with regard to 
the average citizen. Probably, ultimately, the most significant 
thing we are going to have to do is reprioritize in this 
country, and our budgets are going to look a lot different. We 
are going to have to start spending a lot of money on new 
things that have built up.
    Dr. O'Toole. Absolutely.
    Senator Thompson. And less money on some things that we 
would like to have but we just can't afford. That is why, as we 
discuss these economic packages and so forth, we need to 
remember that at the end of the day we are going to need some 
big bucks out there for other things, even though we think that 
if we write the right kind of legislation we can turn the 
economy around. That is foolish in and of itself. I hope that 
as we consider these other issues we take what you are talking 
about to heart, because if we are really serious about this and 
we think that this threat is going to remain with us, it sounds 
like is going to cost billions and billions. As you say and as 
prior witnesses said, this anthrax is just one thing. This is 
probably the best known of the potential biological problems 
out there and maybe one of the ones that is easiest to deal 
with. And we have experienced it on a very limited basis.
    Do you have a comment on that?
    Dr. O'Toole. Could I mention just something about 
technology? Because I think it falls directly within the 
purview of this Committee. We have gotten lots of calls about 
technologies that might solve one or another problem. I have 
gotten calls from venture capitalists looking for ways to 
usefully invest in the Nation's biodefense.
    There is no place in the government where the strategic 
analysis of R&D needs for biodefense comes together. We need to 
figure out some governmental mechanism whereby we can look at 
the needs across all of the different agencies, set priorities, 
and figure our what our investment strategy is going to be. 
That cannot simply live in DOD, it cannot simply live in NIH, 
for reasons we could discuss. But we do need a home for that 
kind of function.
    Senator Thompson. Thank you very much.
    Dr. Hanfling. I would just echo though that while 
technologies are important, there is still going to be no 
substitute for the stethoscope and the pen.
    Dr. O'Toole. Agreed.
    Chairman Lieberman. Thanks, Senator Thompson. Thanks, 
Senator Akaka.
    Just a few remaining questions if I might. Dr. Hanfling, I 
have read the testimony that both of you submitted. The system 
that you had in place at Fairfax Inova obviously worked 
brilliantly and saved people's lives. The two Postal workers 
who died went to other hospitals and their illnesses were not 
detected, and that is part of, unfortunately, why we are 
looking at this.
    In general terms what would you say Fairfax Inova, under 
your leadership, did right, and I suppose more to the point, 
what did the other hospitals, in a general sense do wrong? And 
I am asking this to try to establish a model for health care 
institutions around the country.
    Dr. Hanfling. I understand the gist of what you are trying 
to get at, and although to be specific to these two cases, I 
mean, there but for the grace of God go I. I mean, how easily 
might it have been to let someone slide through.
    I think that the first thing that we did well was we 
anticipated, and we recognized, watching the crisis unfold in 
those early days in Boca Raton, Florida and then in Manhattan, 
we anticipated that this was something that was going to happen 
here as well. Did not know that it was going to come on the 
Senate side, did not think that it would necessarily come 
anywhere to a specific target in the District of Columbia, but 
as health professionals, as an emergency physician, that is one 
of the things that I am trained to do. I am an anticipator. And 
I think the benefit with Inova Health Systems was that our 
administration and our other medical leaders recognized that we 
needed to step up our vigilance and be cautious. So 
anticipation is the first piece.
    I think the second piece is that we--and I will tell you, I 
pushed very strongly to start sharing information, certainly 
amongst health care providers in terms of going back to what is 
a wide array of available information, whether you look at the 
textbooks or whether you go on the websites or whether you go 
to the libraries and pull our journal articles. We began to try 
and distill this information into something that was readable 
and accessible and relatively straightforward, so as to put 
that on the radar screens of clinicians in our health system.
    And I think the third thing that we did, again in a hurry-
up offense sort of mode, was to develop a communication network 
that started as conference calls on the hour every hour 
beginning on the night of Saturday, October 20.
    Chairman Lieberman. You did that or did someone else do it?
    Dr. Hanfling. Well, it was initiated by Pat Walters, who is 
our Executive Vice President in the Inova Health System, along 
with Dr. Thom Mayer, who is sitting behind me, and myself and a 
few others, with input from the CDC epidemiologist who was 
dispatched up to Inova Fairfax to review the case. And that 
took on a life of its own, and we realized that communicating 
and sharing both clinical and administrative information was 
the only way we were going to get through this crisis.
    Chairman Lieberman. But am I right that until you from 
Inova initiated that, that you were not receiving official 
communications from any other public health agency that was 
intended to alert you? In other words, your sensitivity to this 
was coming from following the media and having heard about the 
cases in Florida particularly.
    Dr. Hanfling. That is correct, and I will tell you an 
anecdotal story, which is that a number of clinicians, 
including the gentleman sitting behind me, was at the patient's 
bedside on the second or third day. And in the same room with 
the curtain closed in the bed next to his was a television that 
was tuned to CNN. And my colleague, who was gracious earlier 
this morning from the District of Columbia, Dr. Walks, was 
reporting information on the two patients at Inova Fairfax 
Hospital, and describing one, if not the both of them, as 
gravely ill. And the gentleman looked up from his bed and said, 
``You know, Doc, is there something that I need to know about 
that you're holding back here?'' [Laughter.]
    Chairman Lieberman. There you go.
    Dr. Hanfling. So, again, that was not purposeful, but it 
spoke to the fact that we need to work to coordinate these 
sorts of events, and as Dr. O'Toole said, we need to put those 
mechanisms in place and practice them and train on them before 
these events unfold.
    Chairman Lieberman. This goes right to your point about 
communication being inadequate, does it not, Dr. O'Toole?
    Dr. O'Toole. Yes.
    Chairman Lieberman. Ideally, what--and again it is all 
hindsight--what should have happened here in terms of 
communication?
    Dr. O'Toole. Well, I think we should have realized early on 
that communication was absolutely at the core of everything, 
from managing the incidents themselves to communicating with 
the public, and I do not think we have realized that lesson 
yet. There are many components to this. I think we need 
multiple, credible, deeply knowledgeable spokes people talking 
on a nearly continuous basis, given the hunger among the media 
for information on this. But I also think we need to have a 
strategy for communicating with critical nodes, health 
departments at the different levels, hospital emergency rooms, 
hospital CEOs and so on and so forth, so the messages can move 
at the speed of light literally. And we do not have any such 
system. There is no connectivity in the public health or 
medical system, and in fact, if you use Kevin Kelly's 
definition of a system, which is something that talks to 
itself, we ain't got one.
    Chairman Lieberman. Yes. And that is, to say the obvious, 
that is critical because in these kinds of public health or 
bioterrorist attacks, particularly if they are not obvious like 
somebody dropping stuff from a plane, the people, the first 
responders are going to be the ones who know about it first, 
the doctors' offices, the emergency rooms, and unless there is 
that kind of communication, we may miss it.
    In this regard, I am going to ask you a question that came 
to mind during the last panel. What is the incubation period 
for anthrax or do we know? In other words, after you are 
exposed, when does it get to a point where you have got a real 
serious infection if you are going to have an infection?
    Dr. Hanfling. We know about this from the famous 
``contaminated meat'' episode in the former Soviet Union, where 
there was an inadvertent release of anthrax in what was a 
bioweapons facility in Sverdlovsk, and it has led to a lot of 
the decisionmaking that we have now with respect to why we use 
certain of the medications that we have used, why we use them 
for the length of time that we do. And roughly speaking, people 
can get sick in the first 2 to 4 to 6 days, but we know that 
disease can present as late as 60 days, and that in part speaks 
to the lengthy time of required prophylactic medications.
    And something to echo, and something again that I think was 
very confusing, early on we saw a lot of efforts under way to 
do testing, nasal swabbing, for example. You can have a lung 
full of anthrax and have no spores in your nose, and it does 
not mean anything. And I think that again, this was some of 
the--I wish that some of these issues had been forethought 
before this all unfolded.
    Chairman Lieberman. What is a better test if not the nasal 
swab?
    Dr. Hanfling. Well, the definitive test and the way that we 
made our diagnoses in the hospital was initially to do what is 
called gram stain and culture, and then the more sophisticated 
polymerase chain reaction tests, which are looking at the DNA 
sequencing of these bacterium.
    Chairman Lieberman. Which is by taking the bacteria and 
examining them?
    Dr. Hanfling. And then examining them.
    Chairman Lieberman. Neither of those is a blood test or is 
the----
    Dr. Hanfling. Blood test, both from the blood.
    Chairman Lieberman. Both are from the blood.
    Dr. Hanfling. Right.
    Dr. O'Toole. If I could just comment on that?
    Chairman Lieberman. Please.
    Dr. O'Toole. Imagine how differently this would have 
unfolded if we had a rapid diagnostic test that could tell you 
within an hour of taking a blood sample, ``You are infected, 
you are not.'' What happens with current tests, especially the 
culture, is they wait until the bacteria grows out of the 
blood. If it is there, it is there. But that takes time, 
usually days, depending upon your dose.
    We could build those kinds of diagnostic technologies right 
now with available technology, and we should. We should have 
rapid diagnostic tests that are reliable and accurate and 
widely available for the major bioweapons pathogens. That 
should be a high priority for R&D.
    Chairman Lieberman. Somebody called me about a week ago 
after the first hearing we did on bioterrorism in the 
Committee, and said that they thought that under the last 
administration some funding had been provided perhaps to some 
of the national labs, including Sandia maybe, to actually do 
work associated with the genome investigations to try to come 
up with something quite like that. Is that correct?
    Dr. O'Toole. There was a Defense Science Board Report that 
you may be referring to, which proposed building microchips, 
very rapid diagnostic assays, that would identify the genome or 
the proteins associated with these bugs very specifically and 
rapidly. And I believe 50 million was invested by the Defense 
Threat Reduction Agency in that effort to do proof of principle 
type work.
    Chairman Lieberman. Dr. Hanfling, as we go back, 
particularly looking at the Postal Service story, the 
incubation period you have given suggests to me that even if 
the Postal Service had closed Brentwood on Thursday, October 
18--which on hindsight it sure looks to me like they should 
have done, probably looks to them like they should have done it 
too--would probably not have saved the lives of those two 
Postal workers, because they died 2 or 3 days later, as I 
recall, 3 or 4 days later. Does that sound--I am not asking you 
for a diagnosis, obviously, but----
    Dr. Hanfling. I forgot if we were sworn in to this hearing 
today or not.
    Chairman Lieberman. No.
    Dr. Hanfling. But I think that it seems, the cluster of 
cases that presented, in other words, the two patients who 
unfortunately died, and the two who presented to our hospital, 
all presented for emergency care in roughly the same period of 
time, and in reviewing some of their epidemiologic linkage to 
where they were, what they were doing and the environment in 
which they worked, I learned a lot about the way these mail 
sorting facilities work with creating dusts and dusts and dusts 
of material that is suspended in the air. I would echo your 
thought that closing the facility on October 18 might not have 
had a major impact in terms of those two unfortunate folks.
    Chairman Lieberman. I meant to ask a question, but I moved 
on, I lost time, of the CDC representative, Dr. Cohen, who the 
Postal Service called at CDC. And I wondered whether CDC, being 
asked to make a very difficult judgment, and obviously basing 
it on what we knew then, and it looked to everybody like you 
had to open a package to be exposed, whether they knew that, as 
I would not have thought myself immediately, that sorting mail 
and processing mail involves a lot of compression of the 
envelopes.
    Dr. Hanfling. Right.
    Chairman Lieberman. But I will do that on another occasion. 
You are helping to educate me. I have one more question, and 
then I am going to yield back to Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Chairman Lieberman. Let me ask one quick one and I will get 
right back to you.
    This is to continue my education. When we were first 
informed about this, when this hit the Senate, we were told by 
the doctors, ``You got to get 8,000 to 10,000 spores inside you 
to be infected. It is very hard to do that. Do not worry, and 
if you are infected, antibiotics will take care of it.''
    Just reading the newspaper over the weekend, there is a 
quote, I believe it is from somebody who heads infectious 
diseases at Brown University--I could be wrong, and I think it 
was a woman--she said, ``You know, those numbers are based on 
textbook answers that are based on decades old research that 
was on workers exposed to animal hides.''
    So help to educate me and anybody listening about whether 
that sense that we had to be quite significantly exposed was 
correct? And pursuant to the policy of this Committee, if you 
do not know, we will take that answer too.
    Dr. O'Toole. There is also monkey data about how many 
spores it takes to infect, but that data was gathered, again, 
under artificial circumstances that do not replicate what 
happens in a post office. And what you come up with is a curve 
of about how many spores it takes to infect. Now, one spore can 
replicate itself endless times, and I suppose there are some 
rare instances where you might get sick with a handful of 
spores.
    But the answer is we really do not have good data on that, 
and it is hard to imagine the experiment that you would do to 
have good data. And that is going to start to be a very 
important point as we try to figure out when are we able to 
safely reopen these offices and what constitutes clean enough 
to send people back in, and what kind of protection workers 
ought to have. There is a whole nest of very complex science 
questions that I am sure CDC is pursuing.
    I would feel a whole lot better if I knew the questions 
they were looking into, and I knew who was asking them. I also 
think we might be reassured if, for example, it was clear that 
NIOSH, who does know what happens in post offices and does have 
tremendous experience in environmental surveillance, were 
involved. I mean there are very few true experts in anthrax in 
the country, but there are experts in the various very specific 
scientific elements of these questions. There are people who 
know an enormous amount about particles in the air and 
inhalation. There are people who know a lot about protective 
gear and so forth. We probably need a team approach to these 
problems, and again, I think that if we are going to build 
confidence in the credibility of the scientific advice from the 
government, that whole process of deliberation and inquiry 
should be very transparent, and it is not right now.
    Chairman Lieberman. Thank you. Senator Akaka.
    Senator Akaka. Thank you, Mr. Chairman, I have just one 
question.
    I am so glad you mentioned that good data is important, and 
testing results are very important. As a matter of fact, some 
of the decisions that were made were made from whatever testing 
results were received.
    And I want to return briefly to my questions with Dr. Cohen 
on the varying test results from the Brentwood Postal facility. 
At Brentwood two preliminary tests came back negative, while 
the CDC's results showed significant contamination. Senator 
Clinton suggested a uniform testing method or standard, and my 
question to you then, would such a uniform testing method or 
standard prevent this problem in the future?
    Dr. O'Toole. Well, it would certainly cut down on the 
discrepancies between different tests, although you probably 
cannot eliminate that, because all tests are imperfect. I do 
not know what the testing protocol in any of these places has 
been. I have very strong impressions that they are different in 
different places, and we certainly know that the FBI in general 
uses different tests than the CDC does, and the FBI tests tend 
to be less accurate. They err on the side of being over 
protective. They give you false positives more often than the 
CDC tests.
    But this whole business of different testing protocols and 
uncertainty about what the surveillance protocols are is 
important and serious and needs to be straightened out.
    Dr. Hanfling. I would echo that and remind you that even 
with more simple tests that we do, there is such a thing as a 
false positive and sometimes a false negative. We know that 
testing is not 100 percent certain, and that certainly came to 
be the case with the initial testing at Brentwood.
    I think what Dr. Cohen--again, he is not here to speak for 
himself--but I think that what Dr. Cohen would say is that if 
we could standardize the flow of that scientific information so 
that we have one person doing the same type of test, we might 
be able to put in better context false positive or false 
negative because everything is being done by the same criteria 
in the same location, so maybe that is something to consider.
    I did want to go back to Senator Lieberman's question, 
basic science question though, because while there has been a 
lot of focus on numbers of spores, really, more importantly, it 
is the size of the spores, and it is the fact that our 
respiratory system is pretty capable of preventing illness. 
That is why we are encouraged to breathe through our noses 
because it is a filtration system and a lot of those spores may 
get hung up in the najal turbinates and the other things that 
are in that upper respiratory system to prevent the small 
spores from coming all the way down into the depths of the lung 
where the inhalation form of anthrax would be caused.
    So I think suffice it to say we are--I would almost say we 
are writing the textbook, not even rewriting the textbook, as 
we learn from these cases around the country.
    Chairman Lieberman. And you do not have to breathe in 
10,000--I know 10,000, it is a large number, but you do not 
have to breathe in that number, do you, under the conventional 
explanation? I presume that means that you breathe in enough 
spores that they get lodged inside you and they grow. Is that 
correct, or does it really mean you have to----
    Dr. Hanfling. The spores--we were talking about this a few 
nights ago. Anthrax is a bacteria that it wants to survive, it 
wants to live and it wants to replicate itself, and the spore 
is an encapsulation, it is a covering that protects it and 
allows it to do it, and in its natural form you find anthrax, 
as you said, on animal hides, you find it in the soil. When it 
gets into the body and triggers an immune response reaction, it 
comes out of that encapsulated spore, and then as all of these 
lethal factors, all of the biochemical chain reactions that it 
initiates that then causes illness and death. And I think basic 
science will need to be directed now to help us better 
understand that in the context of what we have seen.
    Chairman Lieberman. Thank you. I have a final question for 
you. You have been very gracious with your time. First I do 
want to thank you for one line in your prepared statement, 
which we ought to put up both here and in the Executive Branch. 
``The tendency to shield people from bad news underestimates 
the ability of the public to rationally respond to disturbing 
information.'' I think you are absolutely right.
    My question is going to the Committee's concern about 
organization, you talk about it in your statement and you have 
in your testimony. We saw here in this Postal Service case, in 
the Senator Daschle case, Senator Daschle's office opens the 
package, is concerned about it, calls the authorities. The FBI 
comes in. The FBI calls in Fort Detrick. As General Parker 
says, they are a customer, the FBI. At a slightly later point, 
the Postmaster General testifies to us yesterday that as he 
begins to follow this, he gets concerned and he calls CDC. And 
as Senator Cleland said, very interestingly in the testimony 
yesterday, the Postmaster General said how happy he was 
Governor Ridge was here to coordinate everything. When Senator 
Cleland asked him, if this happened again, who would you call? 
He said Secretary Thompson.
    You have very unique knowledge of this whole problem and 
whole system, and so my question to you is, if you care to 
answer it, two parts. One, if you were the head of the FBI, 
would you have called Fort Detrick and General Parker to do 
this analysis? And if you were the Postmaster General would you 
have called CDC?
    Dr. O'Toole. Yes to both, which is part of the problem, 
because I think the FBI is pursuing a different line of inquiry 
than the Postmaster General was. And one of the troubles here 
is that we have many lines of inquiry to pursue simultaneously, 
which in some moments are separate and discrete; in others they 
interact in very important ways. I will presume without any 
personal knowledge, that the FBI wanted to know whether this 
was highly dangerous powder of the sort that a sophisticated 
terrorist group or a nation-state might have generated, versus 
a lone wolf, a biological Unabomber. What the Postmaster 
General was seeking was information to help him protect his 
people. So they both went to the right sources.
    The problem, which generated this whole weaponized, not 
weaponized, what does it mean? Fracas was that we did not get 
everybody together in a room or in multiple rooms to untangle 
the implications of the analysis done by USAMRIID. So my 
impression was that what CDC heard when they backed off of 
weaponized, at least what the people in the field understood, 
was that, oh, good, it is not aerosolizable, it is not likely 
to expose a lot of people. What others heard when they heard it 
was not weaponized was something similar; it is not really all 
that dangerous. What USAMRIID meant was something very 
technically specific. ``Weaponized'' says more than we know. 
What we really mean is that it is highly energetic and it can 
float around in the air.
    Chairman Lieberman. So you are not so sure, having heard 
this morning's testimony, that quality was totally clear to 
CDC, floating around in the air?
    Dr. O'Toole. No. And you know, there is not one CDC. There 
is 8,000 people working for CDC.
    Chairman Lieberman. Yes, right. You have both been great, 
and by the twist of fate, I think you have both now become 
national resources, so thank you for your testimony. We look 
forward to continuing to work with you.
    I thank Senator Akaka again for co-chairing these hearings 
with me. They have been very informative, very troubling, in 
other words, both as to the progress of the diseases, witness 
the death this morning of this woman in New York, and as to how 
much more we have to do to be better organized in the Federal 
Government, with the State and local governments, and with the 
whole public health, private health infrastructure in our 
country.
    There is a lot of interest here on both sides of the 
Committee to do something now. We are going to at least ask our 
staffs to put together a report as to what we have learned. We 
are certainly going to send that to Governor Ridge for his use 
as he sees fit. And I think we have begun to talk here about 
whether some legislative ideas come out of these hearings that 
we want to introduce, or moving more rapidly to see if we might 
attach as an amendment to the legislation that Senators Frist 
and Kennedy are introducing on bioterrorism, whether that is 
possible or not in that timeframe. I do not know, but it just 
goes to how productive I think the Members of the Committee 
feel the hearings have been.
    And I thank you both and all the other witnesses for having 
made that so. The hearing is adjourned.
    [Whereupon, at 1:08 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


                  PREPARED STATEMENT OF SENATOR DURBIN

                            October 30, 2001

    Mr. Chairman, thank you for holding this important hearing. It is 
certainly appropriate and timely that we examine the situation facing 
the Postal service, its dedicated workforce, and the American 
households and businesses it serves in light of the recent anthrax 
contamination.
    Cowardly acts of mail tampering have sought to disrupt our most 
fundamental form of global commerce and written communication.
    Just a few weeks ago, we knew very little about the threat of 
anthrax. Unfortunately, it's now at the centerpiece of discussions and 
has become part of our daily vernacular. With the tragic and untimely 
deaths of two Postal employees and illnesses affecting a dozen more, we 
must respond quickly and effectively to protect their colleagues from 
this and other possible threats.
    Every day, 800,000 Postal employees don their uniforms to process 
and deliver millions of pieces of mail and parcels to American homes 
and businesses. Over 49,000 Postal employees serve the State of 
Illinois, in 2,184 Postal facilities across my State. We must do all we 
can to ensure the safety, security, and sanity of these dedicated 
workers.
    Last Friday, I had the opportunity to meet with Postal service 
employees, managers, and labor representatives at Chicago's main post 
office to learn first-hand about their concerns and the precautions 
being taken to protect Postal employees from the threat of anthrax-
ridden mail.
    The United States Postal Service (USPS) has announced that millions 
of gloves and face masks will be distributed to Postal employees 
throughout the nation. However, there are still concerns regarding 
worker safety. The Postal workers with whom I met in Chicago shared 
with me their apprehensions that the new supplies may not reach the 
Midwest fast enough, because it is not deemed ``high risk'' by national 
USPS workers.
    Although Illinois has had no reports of anthrax exposure, Chicago 
facilities with automated mail-screening equipment such as the one in 
Carol Stream, IL will be tested for anthrax after the battery of tests 
at high-priority sites on the eastern seaboard, where anthrax was 
found.
    Also, I understand that the Postal Service plans to equip Chicago 
facilities with state-of-the-art machinery to screen for anthrax.
    There have also been reports about confusing directives concerning 
the use of gloves and masks on the job. According to Herby Weathers, 
president of the local Chicago American Postal Workers Union, Postal 
workers at some Chicago facilities were not permitted to wear 
protective gloves. Other employees were given inadequate gloves and 
masks.
    Some workers worried about taking anthrax home because they had not 
been instructed in how to properly remove and store the new safety 
gear.
    We must do all we can to ensure that our nation's Postal workers 
have the appropriate equipment and accurate information they need to 
fight this different kind of war we are now waging.
    I also listened to management concerns about the projected high 
costs of acquiring and installing the new security and screening 
equipment. According to an October 24th Associated Press report, the 
Postal service expected a potential loss of $1.65 billion this year 
before the September 11th attacks. Postal business has dropped 
dramatically since the tragedy, exacerbating the Postal service's 
financial pressure.
    Without question, our Postal Service has had a tough year. To help 
meet the challenges it is facing, it is going to need the full support 
and financial assistance of Congress to ensure it has the resources to 
promptly respond to this new threat. I hope we will respond to this 
urgency with resolve and expediency.
             PREPARED OPENING STATEMENT OF SENATOR COLLINS

                            October 30, 2001

    Mr. Chairman, thank you for holding this hearing at a time when 
many of our postal workers are gravely concerned about going about 
their daily tasks, and many Americans are worried that performing so 
mundane a task as opening their mail could make them extremely ill or 
even kill them. Every day it seems we learn of yet another building 
contaminated with anthrax or a new victim being infected.
    Although the very first person diagnosed with anthrax was a 
photojournalist, it is now becoming clear that it is our postal workers 
who are most at risk of infection with anthrax. We must be able to 
ensure that they are performing the vital task of delivering the 
nation's mail with every possible precaution and we are ready to 
diagnose and treat them immediately should those precautions prove to 
be insufficient.
    In conducting this oversight hearing, we should be clear that the 
deaths and illnesses from anthrax are the fault of the terrorists. It 
is tragic, nonetheless, that public health officials did not realize 
the need for prompt tracing of the tainted mail's path and thorough 
environmental testing. As more anthrax spores are found, it is clear 
that the terrorists involved hope not only to kill more of our citizens 
but also to panic the public. My experience in Maine and reports from 
across the country demonstrate, however, that Americans continue to 
lead their daily lives without the fear and paralysis sought by these 
bioterrorists.
    I look forward to hearing what steps the U.S. Postal System, our 
public health system, and others are taking to protect postal workers 
and the public at large.
                               __________
                  OPENING STATEMENT OF SENATOR BUNNING

                            October 31, 2001

    Thank you, Mr. Chairman.
    Our country has been shaken by acts of terrorism over the past two 
months. Not only have we watched as terrorists attacked innocent 
Americans at work in the World Trade Center and the Pentagon early on 
September 11, but we are now dealing with an attack on our mail system, 
media outlets and government as letters with anthrax make their way 
through the Postal system.
    In the past, we have all taken for granted that our mail will be 
delivered six days a week, and that it will be safe. Few of us are 
taking that for granted these days.
    Now, many Americans are afraid to go to their mail boxes. 
Businesses are worried not only about protecting their employees from 
dangerous letters, but protecting their very livelihood.
    The Postal Service has recently announced certain steps Americans 
should take when handling their mail.
    While this information is helpful, Americans ultimately want to 
know that their mail is safe and that it will not make them sick.
    The employees of the U.S. Postal Service now find themselves on the 
front lines in this war against terrorism. Two Postal employees in the 
Washington, DC area have already died.
    My thoughts are with the families of these workers during this 
difficult time.
    Yesterday, we heard from the Postmaster General, representatives of 
several Postal unions and Postal employees about the current situation 
at Postal Headquarters and at the branches. I hope that Congress, the 
Postal Service, Postal employees and the American public can continue 
to work together to make sure mail is safe.
    We have a long way to go in our war on terrorism, both nationally 
and internationally, and I look forward to hearing from our witnesses 
today as they share their expertise with us on this topic.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T6808.001
    
    [GRAPHIC] [TIFF OMITTED] T6808.002
    
    [GRAPHIC] [TIFF OMITTED] T6808.003
    
    [GRAPHIC] [TIFF OMITTED] T6808.004
    
    [GRAPHIC] [TIFF OMITTED] T6808.005
    
    [GRAPHIC] [TIFF OMITTED] T6808.006
    
    [GRAPHIC] [TIFF OMITTED] T6808.007
    
    [GRAPHIC] [TIFF OMITTED] T6808.008
    
    [GRAPHIC] [TIFF OMITTED] T6808.009
    
    [GRAPHIC] [TIFF OMITTED] T6808.010
    
    [GRAPHIC] [TIFF OMITTED] T6808.011
    
    [GRAPHIC] [TIFF OMITTED] T6808.012
    
    [GRAPHIC] [TIFF OMITTED] T6808.013
    
    [GRAPHIC] [TIFF OMITTED] T6808.014
    
    [GRAPHIC] [TIFF OMITTED] T6808.015
    
    [GRAPHIC] [TIFF OMITTED] T6808.016
    
    [GRAPHIC] [TIFF OMITTED] T6808.017
    
    [GRAPHIC] [TIFF OMITTED] T6808.018
    
    [GRAPHIC] [TIFF OMITTED] T6808.019
    
    [GRAPHIC] [TIFF OMITTED] T6808.020
    
    [GRAPHIC] [TIFF OMITTED] T6808.021
    
    [GRAPHIC] [TIFF OMITTED] T6808.022
    
    [GRAPHIC] [TIFF OMITTED] T6808.023
    
    [GRAPHIC] [TIFF OMITTED] T6808.024
    
    [GRAPHIC] [TIFF OMITTED] T6808.025
    
    [GRAPHIC] [TIFF OMITTED] T6808.026
    
    [GRAPHIC] [TIFF OMITTED] T6808.027
    
    [GRAPHIC] [TIFF OMITTED] T6808.028
    
    [GRAPHIC] [TIFF OMITTED] T6808.029
    
    [GRAPHIC] [TIFF OMITTED] T6808.030
    
    [GRAPHIC] [TIFF OMITTED] T6808.031
    
    [GRAPHIC] [TIFF OMITTED] T6808.032
    
    [GRAPHIC] [TIFF OMITTED] T6808.033
    
    [GRAPHIC] [TIFF OMITTED] T6808.034
    
    [GRAPHIC] [TIFF OMITTED] T6808.035
    
    [GRAPHIC] [TIFF OMITTED] T6808.036
    
    [GRAPHIC] [TIFF OMITTED] T6808.037
    
    [GRAPHIC] [TIFF OMITTED] T6808.038
    
    [GRAPHIC] [TIFF OMITTED] T6808.039
    
    [GRAPHIC] [TIFF OMITTED] T6808.040
    
    [GRAPHIC] [TIFF OMITTED] T6808.041
    
    [GRAPHIC] [TIFF OMITTED] T6808.042
    
    [GRAPHIC] [TIFF OMITTED] T6808.043
    
    [GRAPHIC] [TIFF OMITTED] T6808.044
    
    [GRAPHIC] [TIFF OMITTED] T6808.045
    
    [GRAPHIC] [TIFF OMITTED] T6808.046
    
    [GRAPHIC] [TIFF OMITTED] T6808.047
    
    [GRAPHIC] [TIFF OMITTED] T6808.048
    
    [GRAPHIC] [TIFF OMITTED] T6808.049
    
    [GRAPHIC] [TIFF OMITTED] T6808.050
    
    [GRAPHIC] [TIFF OMITTED] T6808.051
    
    [GRAPHIC] [TIFF OMITTED] T6808.052
    
    [GRAPHIC] [TIFF OMITTED] T6808.053
    
    [GRAPHIC] [TIFF OMITTED] T6808.054
    
    [GRAPHIC] [TIFF OMITTED] T6808.055
    
    [GRAPHIC] [TIFF OMITTED] T6808.056
    
    [GRAPHIC] [TIFF OMITTED] T6808.057
    
    [GRAPHIC] [TIFF OMITTED] T6808.058
    
    [GRAPHIC] [TIFF OMITTED] T6808.059
    
    [GRAPHIC] [TIFF OMITTED] T6808.060
    
    [GRAPHIC] [TIFF OMITTED] T6808.061
    
    [GRAPHIC] [TIFF OMITTED] T6808.062
    
    [GRAPHIC] [TIFF OMITTED] T6808.063
    
    [GRAPHIC] [TIFF OMITTED] T6808.064
    
    [GRAPHIC] [TIFF OMITTED] T6808.065
    
    [GRAPHIC] [TIFF OMITTED] T6808.066
    
    [GRAPHIC] [TIFF OMITTED] T6808.067
    
    [GRAPHIC] [TIFF OMITTED] T6808.068
    
    [GRAPHIC] [TIFF OMITTED] T6808.069
    
    [GRAPHIC] [TIFF OMITTED] T6808.070
    
    [GRAPHIC] [TIFF OMITTED] T6808.071
    
    [GRAPHIC] [TIFF OMITTED] T6808.072
    
    [GRAPHIC] [TIFF OMITTED] T6808.073
    
    [GRAPHIC] [TIFF OMITTED] T6808.074
    
    [GRAPHIC] [TIFF OMITTED] T6808.075
    
    [GRAPHIC] [TIFF OMITTED] T6808.076
    
    [GRAPHIC] [TIFF OMITTED] T6808.077
    
    [GRAPHIC] [TIFF OMITTED] T6808.078
    
    [GRAPHIC] [TIFF OMITTED] T6808.079
    
    [GRAPHIC] [TIFF OMITTED] T6808.080
    
    [GRAPHIC] [TIFF OMITTED] T6808.081
    
    [GRAPHIC] [TIFF OMITTED] T6808.082
    
    [GRAPHIC] [TIFF OMITTED] T6808.083
    
    [GRAPHIC] [TIFF OMITTED] T6808.084
    
    [GRAPHIC] [TIFF OMITTED] T6808.085
    
    [GRAPHIC] [TIFF OMITTED] T6808.086
    
    [GRAPHIC] [TIFF OMITTED] T6808.087
    
    [GRAPHIC] [TIFF OMITTED] T6808.088
    
    [GRAPHIC] [TIFF OMITTED] T6808.089
    
    [GRAPHIC] [TIFF OMITTED] T6808.090
    
    [GRAPHIC] [TIFF OMITTED] T6808.091
    
    [GRAPHIC] [TIFF OMITTED] T6808.092
    
    [GRAPHIC] [TIFF OMITTED] T6808.093
    
    [GRAPHIC] [TIFF OMITTED] T6808.094
    
    [GRAPHIC] [TIFF OMITTED] T6808.095
    
    [GRAPHIC] [TIFF OMITTED] T6808.096
    
    [GRAPHIC] [TIFF OMITTED] T6808.097
    
    [GRAPHIC] [TIFF OMITTED] T6808.098
    
    [GRAPHIC] [TIFF OMITTED] T6808.099
    
    [GRAPHIC] [TIFF OMITTED] T6808.100
    
    [GRAPHIC] [TIFF OMITTED] T6808.101
    
    [GRAPHIC] [TIFF OMITTED] T6808.102
    
    [GRAPHIC] [TIFF OMITTED] T6808.103
    
    [GRAPHIC] [TIFF OMITTED] T6808.104
    
                                   - 

</pre></body></html>
